No. ________
IN THE

Supreme Court of the United States
TIMOTHY B. HENNIS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE ARMED FORCES

PETITIONER’S APPENDIX
STEPHEN I. VLADECK
TIMOTHY G. BURROUGHS
727 E. Dean Keeton St.
Counsel of Record
Austin, TX 78705
JONATHAN F. POTTER
CHRISTOPHER D. CARRIER
ALEXANDER N. HESS
Defense Appellate
Division, U.S. Army
Legal Services Agency,
9275 Gunston Road,
Fort Belvoir, VA 22060
(703) 693-0656
timothy.g.burroughs.mil
@mail.mil
Counsel for Petitioner

TABLE OF CONTENTS
APPENDIX A: COURT OF APPEALS FOR THE
ARMED FORCES OPINION (FEB. 28, 2020) ............... 1A
APPENDIX B: COURT OF APPEALS FOR THE ARMED
FORCES ORDER (Apr. 9, 2020) .............................. 54a
APPENDIX C: ARMY COURT OF CRIMINAL APPEALS
OPINION (Oct. 6, 2016) ......................................... 55a

APPENDIX A

UNITED STATES
Appellee
v.
Timothy B. HENNIS, Master Sergeant
United States Army, Appellant
No. 17-0263
Crim. App. No. 20100304
Argued October 22, 2019
—
Decided February 28, 2020
Military Judge: Patrick J. Parrish
For Appellant: Major Timothy G. Burroughs and
Jonathan F. Potter, Esq. (argued); Lieutenant
Colonel Christopher Daniel Carrier (on brief).
For Appellee: Major Catherine M. Parnell (argued);
Colonel Steven P. Haight, Lieutenant Colonel Eric K.
Stafford, and Captain Allison L. Rowley (on brief).

2a
Chief Judge STUCKY delivered the opinion of
the Court, in which Judges RYAN, OHLSON,
SPARKS, and MAGGS, joined.
_______________

Chief Judge STUCKY delivered the opinion of
the Court.
This capital murder case is before us for
mandatory review under Article 67(a)(1), Uniform
Code of Military Justice (UCMJ), 10 U.S.C. §
867(a)(1) (2012). After reviewing the assigned and
personally asserted errors, we affirm the judgment
of the United States Army Court of Criminal
Appeals (CCA).
I. Background
Captain GE, United States Air Force, his wife
KE, and their three daughters lived in Fayetteville,
North Carolina. In anticipation of their upcoming
assignment to England, the family put an
advertisement in the local Fort Bragg newspaper to
find a new home for their dog. On May 10, 1985,
while Captain GE was on temporary duty to
Maxwell Air Force Base, Alabama, Appellant visited
the family’s home to meet the dog.

3a
On May 12, 1985, KE’s neighbors telephoned the
sheriff because they had not seen KE or her
daughters for several days, newspapers were piling
up in the front yard, and they could hear crying from
inside the house. Inside, the responding officer found
the bodies of KE and two of her three daughters,
aged five and three. The youngest daughter was
found alive in her crib. KE’s jeans were discovered
on the floor alongside underwear that had been cut
from her body. Her wrists bore ligature marks. An
autopsy determined that KE and her two daughters
died of multiple stab wounds “and a large cut in the
neck of each.” State v. Hennis, 323 N.C. 279, 372
S.E.2d 523, 525 (N.C. 1988). Intact spermatozoa
were discovered in KE’s vagina.
In July 1986, a North Carolina jury sentenced
Appellant to death for the three murders. Id. at 528;
Hennis v. Hemlick, 666 F.3d 270, 271 (4th Cir. 2012).
Due to the admission of especially “gruesome”
photographs of the bodies of the victims after
Appellant had stipulated to the cause of death as
stabbing, as well as the manner in which the
photographs were displayed above Appellant’s head
during trial, the North Carolina Supreme Court
ordered a new trial. Hennis, 372 S.E.2d at 528.
Appellant was acquitted at the new trial in 1989.
Hennis, 75 M.J. at 802. Appellant returned to active

4a
duty status and retired from the regular Army in
2004 as a Master Sergeant. Id.
In 2006, following advances in deoxyribonucleic
acid (DNA) analysis, forensic examiners established
“the near-statistical certainty” that the spermatozoa
found in KE’s vagina were Appellant’s. Id. at 802-03.
In light of this new evidence, the Army recalled
Appellant to active duty. Id. at 803.
In 2010, a general court-martial with enlisted
members convicted Appellant of three specifications
of premeditated murder. Article 118, Uniform Code
of Military Justice (UCMJ), 10 U.S.C. § 918 (1982).
The court members sentenced him to a dishonorable
discharge, forfeiture of all pay and allowances,
reduction to the grade of E-1, and to be put to death.
The convening authority approved the sentence. The
CCA affirmed the approved findings and sentence.
Hennis, 75 M.J. at 856.
Appellant’s counsel have assigned forty issues
and Appellant has personally asserted three
additional issues pursuant to United States v.
Grostefon, 12 M.J. 431 (C.M.A. 1982). After careful
review of each of these issues, we agree with the
CCA’s reasoning and conclude that none addressed
by that court have merit. Similarly, none of the
issues raised for the first time in this Court have

5a
merit. We will discuss herein only the five issues on
which we granted oral argument.

II. Jurisdiction
Appellant challenges the jurisdiction of the
court-martial in several ways. Jurisdiction is the
power of a court “to decide a case or issue a decree.”
Black’s Law Dictionary 980 (10th ed. 2014). When
challenged at trial, the prosecution “must prove
jurisdiction by a preponderance of evidence.”1
1 After

the military judge denied Appellant’s pretrial challenge
to the jurisdiction of the court-martial, Appellant filed writs of
mandamus, habeas corpus, and prohibition with the CCA,
which were denied. See Hennis v. Hemlick, No. 5:09-HC-2169BO, 2010 U.S. Dist. LEXIS 146565, at *4, 2010 WL 11508257,
at *2 (E.D.N.C. Mar. 16, 2010), aff’d, 666 F.3d 270, 273-74 (4th
Cir.), cert. denied, 566 U.S. 1004, 132 S. Ct. 2419, 182 L. Ed. 2d
1051 (2012). A writ appeal before this Court was also denied.
Hennis v. Parrish, 67 M.J. 50 (C.A.A.F. 2008). Thereafter,
Appellant filed a petition for writ of habeas corpus in the
United States District Court of North Carolina, arguing the
court-martial lacked jurisdiction over him. The district court
dismissed the petition on grounds of abstention: “where
members of the armed forces file habeas petitions seeking relief
from the military restraint of liberty, federal civil courts should
not entertain petitions until all available remedies within the
military court system have been exhausted.” Hennis, 2010 U.S.
Dist. LEXIS 146565, at *7-15, 2010 WL 11508257, at *3-5

6a
United States v. Morita, 74 M.J. 116, 121 (C.A.A.F.
2015). We review such questions de novo. United
States v. Hale, 78 M.J. 268, 270 (C.A.A.F.), cert.
denied, 139 S. Ct. 2682, 204 L. Ed. 2d 1071 (2019).
A. Issue I: Break in Service
Before entry of pleas, Appellant challenged the
jurisdiction of a court-martial to try him for the
charged offenses, arguing that there was a break in
his service that divested the Army of jurisdiction
over the offenses. The military judge denied
Appellant’s motion in April 2008. Appellant now
asserts that the “Army relinquished any ability to
court-martial [him] for conduct in 1985 when it
discharged him on June 12, 1989.”

(citing Schlesinger v. Councilman, 420 U.S. 738, 95 S. Ct. 1300,
43 L. Ed. 2d 591 (1975)). Appellant filed two original habeas
corpus petitions in this Court, which were both denied without
prejudice. Hennis v. Nelson, 74 M.J. 77 (C.A.A.F. 2014); Hennis
v. Ledwith, 73 M.J. 240 (C.A.A.F. 2014). Once convicted,
Appellant filed a pro se petition for writ of habeas corpus with
the United States District Court for the District of Kansas,
which was dismissed without prejudice for failure to exhaust
military court remedies. Hennis v. Nelson, No. 15-3008-KHV,
2015 U.S. Dist. LEXIS 127734, at *1, 2015 WL 5604271, at
*1(D. Kan. Sept. 23, 2015).

7a
Appellant initially enlisted in the Regular Army
on January 29, 1981, for four years, but he extended
his service obligation on February 1, 1984, for one
year, to attend warrant officer training and flight
school. 75 M.J. at 806. His new expiration of term of
service (ETS) was January 28, 1986.
North Carolina authorities arrested appellant
on May 16, 1985, for murder and rape. He was
released on bail on December 15, 1985. Although
there is no corresponding paperwork, it appears the
Army granted Appellant a seven-month extension to
compensate for the seven months he spent in state
pretrial confinement before he was released on bail.
See Hennis, 75 M.J. at 807. If so, that would have
extended Appellant’s ETS to August 27, 1986.
Appellant was convicted by the state court on
July 4, 1986.2 The Supreme Court of North Carolina
set aside the convictions but authorized a new trial,
at which Appellant was acquitted on April 19, 1989.
2 As

a result, an administrative discharge board recommended
that Appellant be discharged from the Army under other than
honorable conditions. The discharge was approved on October
3, 1986, but execution was deferred pending the outcome of his
appeal of his criminal convictions. The general court-martial
convening authority eventually voided the discharge after the
reversal, retrial, and acquittal in the state courts.

8a
Two days later, Appellant reported for duty at Fort
Knox, Kentucky, where he had been assigned after
his first civilian trial. 75 M.J. at 806.
As Appellant’s civilian conviction never became
final, the federal statute in effect at the time
characterized the periods Appellant served in
pretrial and post-trial confinement as creditable
service—they would have counted as time served
against his term of enlistment. See 10 U.S.C. §
972(3), (4) (1988). On May 22, 1989, Appellant’s
commanding general, acting under Dep’t of the
Army, Reg. 630-10, Personnel Absences, Absence
Without Leave and Desertion ¶ 1-8 (update 13,
dated Mar. 16, 1988) [hereinafter AR 630-10], no
doubt to effectuate § 972, ordered Appellant’s
absence from duty from May 16, to December 15,
1985, (initial arrest to bail) and from July 4, 1986, to
April 19, 1989 (period of post-trial incarceration),
reclassified as “unavoidable.” Hennis, 75 M.J. at 806.
Any period of unauthorized absence excused as
unavoidable is “creditable for all purposes.” Id. at
806-07 (citing AR 630-10 ¶ 1-8(c)). By this order, the
commanding general reestablished Appellant’s ETS
as no later than August 27, 1986. Nevertheless, both
the Army and Appellant acted as if his enlistment

9a
had not terminated. He made no attempt to separate
and made no objection to his continued service.
On June 1, 1989, Appellant submitted a
Department of the Army Form 3340-R, asking to
reenlist for four years. Block 2c listed June 17, 1989,
as his ETS. Block 2d noted that Appellant had two
extensions on his original enlistment. The first,
effective February 1, 1984, for twelve additional
months, corresponds with a document signed by
Appellant to extend his ETS to attend warrant
officer training and flight school. Hennis, 75 M.J. at
807. The second extension appears to be for the time
he served in pretrial confinement before his first
civilian trial, but there is no documentation to
support that conclusion.
On June 12, 1989, five days before the ETS date
stated on his reenlistment Form 3340-R, Appellant
was honorably discharged from the Army. On the
following day, Appellant reenlisted for four years,
using a Department of Defense Form 4,
Enlisted/Reenlistment Document, Armed Forces of
the United States, bearing the typed words,
“Immediate Reenlistment” in the top margin.
Hennis, 75 M.J. at 807. Appellant remained on
active duty until his retirement on July 31, 2004. Id.

10a
Charges were preferred against Appellant on
November 9, 2006.
Before entry of pleas, Appellant moved to
dismiss for lack of jurisdiction. He argued that a
break in service between his acquittal in civilian
court and his subsequent enlistment deprived the
court-martial of subject-matter jurisdiction. The
military judge concluded there was no break in
service; that Appellant’s discharge was for the sole
purpose of reenlistment; and there was no intent to
sever Appellant’s relationship with the Army, as the
discharge was a necessary predicate for him to
reenlist. Even assuming a break in service, the
military judge concluded that the Army still had
jurisdiction under Article 3(a), UCMJ, 10 U.S.C. §
803(a).
The CCA determined that, once the commanding
general
found
Appellant’s
incarceration
“unavoidable,” his ETS reverted to August 27, 1986.
As Appellant’s discharge “occurred after his
contractual service obligation expired,” his “military
status terminated—albeit briefly—immediately
before his reenlistment.” Hennis, 75 M.J. at 808
(citing United States v. Clardy, 13 M.J. 308 (C.M.A.
1982)). Despite this break in service, the CCA held

11a
that the court-martial had jurisdiction under Article
3(a), UCMJ, 10 U.S.C. § 803(a) (1982). Id. at 810.
Article 3(a), as enacted in 1950 and in effect at
the time of the alleged offenses, provided:
Subject to the provisions of article 43
[the statute of limitations], any person
charged with having committed, while
in a status in which he was subject to
this code, an offense against this code,
punishable by confinement for five
years or more and for which the person
cannot be tried in the courts of the
United States or any State or Territory
thereof or of the District of Columbia,
shall not be relieved from amenability
to trial by court-martial by reason of
the termination of said status.3

3 Originally

Act of May 5, 1950, ch. 169, Pub. L. No. 81-506, 64
Stat. 109 (codified at 50 U.S.C. § 553(a) and repealed in 1956),
then Act of Aug. 10, 1956, ch. 1041, Pub. L. No. 84-1028, 70A
Stat. 38 (codified at 10 U.S.C. § 803(a)). Article 3(a) was
rewritten in 1992. National Defense Authorization Act for
Fiscal Year 1993, Pub. L. No. 102-484, §§ 1063, 1067, 102 Stat.
2315, 2505, 2506 (1992). Currently, “if a person is subject to
military jurisdiction at the time of the trial and was subject to
military jurisdiction at the time of the offense, that person may

12a
Early in the UCMJ’s history, the Supreme Court
limited application of Article 3(a) court-martial
jurisdiction “to persons who are actually members or
part of the armed forces.” United States ex rel. Toth
v. Quarles, 350 U.S. 11, 15, 76 S. Ct. 1, 100 L. Ed. 8
(1955) (holding Article 3(a) was unconstitutional as
applied to a man accused of committing murder in
Korea while he was on active duty, given that he had
been discharged from the service and returned to
civilian life). “It has never been intimated by this
Court, however, that Article I military jurisdiction
could be extended to civilian ex-soldiers who had
severed all relationship with the military and its
institutions.” Id. at 14.
This jurisdiction question arose again in Clardy,
13 M.J. 308. There, the CCA’s predecessor, the
United States Army Court of Military Review,
concluded that the accused’s offenses, which had
been committed shortly before he had been
discharged for the purpose of immediate

be tried for offenses occurring during a prior period of military
service.” Willenbring v. Neurauter, 48 M.J. 152, 158 (C.A.A.F.
1998), overruled on other grounds by United States v.
Mangahas, 77 M.J. 220 (C.A.A.F. 2018). The new “statute was
given prospective effect, applying only to offenses occurring on
or after October 23, 1992.” Id.

13a
reenlistment, “were not in the category of offenses as
to which military jurisdiction was preserved by
Article 3(a).” Id. at 309. The government appealed.
The Court of Military Appeals (C.M.A.) concluded
that a servicemember gives “implied consent ... to
continuation of his military status when he receives
an early discharge and immediately reenlists” and
that “may be viewed as including his consent that he
remain amenable to prosecution for offenses in the
prior enlistment.” Id. at 315. In essence, the Court
established a two-part test:
(1) Was there a break in service between the
offense and the preferral of charges? If the accused
was discharged on the last day of his term of service
and enlisted the following day, there was a break in
service. If the accused was discharged before his
ETS for the sole purpose of reenlistment and
reenlisted before his ETS, there was no break in
service and the court-martial had jurisdiction. Id. at
311, 314.
(2) If there was a break in service, the accused is
still subject to court-martial jurisdiction if,
consistent with Article 3(a), UCMJ:
(a) The accused was subject to the UCMJ both at
the time of the offense and at the time of preferral of
charges;

14a
(b) The offense is punishable by confinement for
five or more years; and
(c) The accused “cannot be tried in the courts of
the United States or of a State, a Territory, or the
District of Columbia.” Article 3(a), UCMJ.
Id. at 314-15.
The Government has not contested the CCA’s
holding that there was a break in service. 4
Therefore, we will discuss only the second prong of
the Clardy test. Appellant was on active duty at the
time of the offenses and at the time the charges were
preferred, and the charged offenses are punishable
by confinement for more than five years. Therefore,
the remaining issue is whether “the person cannot
be tried in the courts of the United States or of a
State, a Territory, or the District of Columbia.”
Article 3(a), UCMJ.
At trial, Appellant argued that he could have
been tried by a state and, indeed, was tried by the
State of North Carolina twice. The military judge

4 The

Government merely argues that, “[a]ssuming arguendo
there was a break in Appellant’s service, this Court should find
that there was jurisdiction over Appellant pursuant to Article
3(a), UCMJ.”

15a
rejected Appellant’s argument. 75 M.J. at 809. The
CCA agreed with the military judge. It interpreted
the plain language of the statute and determined
that the Double Jeopardy Clause barred the state
from prosecuting and, therefore, no other entity
except the military could try him. Id.
Crucial to resolution of this issue is the instant
at which we are to apply Article 3(a). If we apply it
at the time the offenses were committed, Appellant
clearly could have been tried by another jurisdiction.
Thus, Article 3(a) would not have preserved courtmartial jurisdiction. On the other hand, if we apply
Article 3(a) at the time court-martial charges were
preferred, no other court had jurisdiction to try
Appellant for these offenses, and Article 3(a) would
have preserved jurisdiction.
Based on the plain language of the statute, we
reject Appellant’s interpretation of Article 3(a). The
issue is not whether another jurisdiction could have
ever tried Appellant, but rather whether there was
any court that could try him at the time charges
were preferred. At the time of preferral of charges,
Appellant “[could not] be tried in the courts of the
United States or any State” because, at that time,
double jeopardy barred North Carolina from
prosecuting and no federal statute under Title 18,

16a
triable in a U.S. district court, covered Appellant’s
conduct. As no other jurisdiction could have tried
Appellant at the time charges were preferred, the
prosecution met its burden of establishing
jurisdiction by a preponderance of evidence.
This analysis is consistent with our decision in
Willenbring. There, the offenses were alleged to
have been committed “at Fort Belvoir, Virginia, an
area of exclusive federal jurisdiction.” 48 M.J. at
176. The accused would have been subject to trial in
federal district court, except that the federal statute
of limitations had run. We held that, by establishing
that the federal statute of limitations had run, the
prosecution had met its burden of showing that
Willenbring “‘cannot be tried in the courts of the
United States’ for the purposes of Article 3(a).” Id. at
177 (quoting Article 3(a)). Thus, this Court implicitly
rejected the notion that Article 3(a) becomes
operative at the time the offenses were committed.
We now make this interpretation explicit.
Willenbring forecloses Appellant’s argument
that, if he had waived his double jeopardy protection
the State of North Carolina could have tried him at
the time charges were preferred. In Willenbring, we
held that the fact the appellant could waive his
statute of limitations defense did not mean that the

17a
federal civilian authorities could try him, because
the statute of limitations, although waivable, is “a
limitation on the power of a prosecutor to bring
charges and on the power of a court to try a case.” 48
M.J. at 176. Similarly, the Supreme Court has held
that the protection against double jeopardy, though
waivable, “serves principally as a restraint on courts
and prosecutors.” Brown v. Ohio, 432 U.S. 161, 165,
97 S. Ct. 2221, 53 L. Ed. 2d 187 (1977). Therefore,
the State of North Carolina could not have brought
a “knowing and intentional” prosecution in good
faith against Appellant at the time charges were
preferred against him. Willenbring, 48 M.J. at 177.
B. Issue II: Subject Matter Jurisdiction
Citing O’Callahan v. Parker, Appellant argues,
“[m]ilitary courts should only try offenses arising
from military service.” 395 U.S. 258, 89 S. Ct. 1683,
23 L. Ed. 2d 291 (1969), overruled by Solorio v.
United States, 483 U.S. 435, 107 S. Ct. 2924, 97 L.
Ed. 2d 364 (1987), He insists that his case did not
arise in the land or naval forces and, therefore, he
had a Fifth Amendment right to indictment by
grand jury and trial before a civilian court.
Appellant recognizes that Solorio overruled
O’Callahan. Nevertheless, he asserts that capital
cases are different and that this is the first capital

18a
case since Solorio was decided in which there is no
service connection.
“Congress shall have the Power ... To make
Rules for the Government and Regulation of the land
and naval Forces.” U.S. Const. art. I, § 8, cl. 14. The
Fifth Amendment to the Constitution provides:
No person shall be held to answer for a
capital, or otherwise infamous crime,
unless on a presentment or indictment
of a Grand Jury, except in cases arising
in the land or naval forces, or in the
Militia, when in actual service in time
of War or public danger ....
U.S. Const. amend. V.
In O’Callahan, the Supreme Court determined
that for a case to arise in the land or naval forces
under the Fifth Amendment there must be a
connection between the offense itself and the
military. 395 U.S. at 272-73, The Court held that
O’Callahan’s status as a military member, without
more, was not sufficient to establish subject matter
jurisdiction. “‘Status’ is necessary for jurisdiction;
but it does not follow that ascertainment of ‘status’
completes the inquiry, regardless of the nature,
time, and place of the offense.” Id. at 267. After the

19a
military struggled to define the term “service
connection,” the Supreme Court set forth twelve
factors for courts to consider in determining whether
a service connection existed. See Relford v.
Commandant, 401 U.S. 355, 365, 91 S. Ct. 649, 28 L.
Ed. 2d 102 (1971).
O’Callahan and its progeny lasted less than
twenty years. In 1987, the Supreme Court concluded
that Article I, § 8, cl. 14, granted Congress “primary
responsibility for the delicate task of balancing the
rights of servicemen against the needs of the
military,” and the exercise of that responsibility is
entitled to judicial deference. Solorio, 483 U.S. at
447-48. The Court then returned to the preO’Callahan view of court-martial jurisdiction. “The
test for jurisdiction ... is one of status, namely,
whether the accused in the court-martial proceeding
is a person who can be regarded as falling within the
term land and naval Forces.” Id. at 439 (alteration
in original) (internal quotation marks omitted)
(citations omitted).
Appellant recognizes that Solorio dispensed
with the O’Callahan service-connection test. Citing
Justice Stevens’s concurring opinion in Loving v.
United States, 517 U.S. 748, 774, 116 S. Ct. 1737,
135 L. Ed. 2d 36 (1996) (Stevens, J., joined by Souter,

20a
J., Ginsburg, J., and Breyer, J., concurring),
however, he argues that “whether a ‘service
connection’ requirement should obtain in capital
cases” is an open question because Solorio was not a
capital case and because the historical data cited in
that case suggest military jurisdiction over capital
cases is not as strong as for noncapital offenses.
Justice Stevens’s suggestion in Loving that
Solorio may not apply to capital cases is unfounded.
The Fifth Amendment’s exclusion of “cases arising
in the land or naval Forces” from its ambit makes no
distinction between the treatment of capital cases
and that of infamous crimes. Although Solorio itself
was an “infamous crime” case, the Supreme Court
did not qualify its conclusion that “military
jurisdiction has always been based on the status of
the accused, rather than on the nature of the
offense.” 483 U.S. at 439 (internal quotation marks
omitted) (citation omitted). In fact, the majority
cited military capital cases in support of its position.
Id. at 449 n.14. We hold that Solorio applies to
capital cases.
Based on his belief that he established the
necessity for a service-connection requirement,
Appellant argues that this case lacks any
meaningful connection to military service and,

21a
therefore, does not arise in the land or naval forces:
“The only thread the government can trace to
military service is MSG Hennis’s 1985 status as an
Army sergeant, and the fact that [the victims] were
family members of an Air Force officer.” He asserts,
“[t]his Court has never found such incidental
circumstances sufficient to render an offense
‘service-connected.’” This Court may not have in its
present incarnation, but the C.M.A. did exactly that.
In United States v. Solorio, the C.M.A. held that
the appellant’s off-base sexual abuse of the
dependents of Coast Guardsmen was service
connected. 21 M.J. 251, 255-56 (1986). It relied on
the trauma to the parents, which diminished their
ability to perform their duties, and the limitations
on the appellant’s future assignments because of
“the tensions that his presence would create in an
organization.” Id. at 256. Moreover, Justice Stevens,
upon whom Appellant’s argument relies, would have
found Solorio’s offenses service-connected. Solorio,
483 U.S. at 451 (Stevens, J., concurring in the
judgment). We have no doubt Justice Stevens would
have reached the same conclusion in this case, where
Appellant slaughtered the wife and two children of
a military member.
C. Issue III: Personal Jurisdiction

22a
Appellant asserts that he did not have a military
status such that he was subject to court-martial
jurisdiction at the time of his trial. He contends: (1)
the Army lacked authority to recall him to active
duty; and (2) the Army foreclosed personal
jurisdiction based on his retired status when, over
his objection, it treated him as a soldier on active
duty.
When he became eligible to retire, Appellant was
released from active duty, placed on the retired list,
and transferred to the U.S. Army Reserve Control
Group (Retired), U.S. Army Reserve Personnel
Center, St. Louis, Missouri, effective July 31, 2004.
After the DNA testing established it was Appellant’s
spermatozoa found in KE’s vagina, the convening
authority asked the Assistant Secretary of the Army
(Manpower and Reserve Affairs (ASA (M&RA)) to
order Appellant to active duty “to facilitate courtsmartial action.” The Acting ASA (M&RA) ordered
Appellant to active duty under the provisions of
Article 2(a)(4), UCMJ, 10 U.S.C. § 802(a)(4), 10
U.S.C. § 688, and Dep’t of the Army, Reg. 27-10,
Legal Services: Military Justice ¶ 5-2(b)(3)
[hereinafter AR 27-10] (Secretary’s authorization to
recall retired members for purposes of court-martial
proceedings). Once Appellant was properly recalled
to active duty, he was subject to the UCMJ “from the

23a
date[] when [he was] required by the terms of the
call or order to obey it.” Article 2(a)(1), UCMJ.
To effectuate that order, the Army’s Human
Resources Command ordered Appellant to active
duty on September 14, 2006, directing him to report
to XVIII Airborne Corps in October 2006, for the
purpose of “UCMJ processing.” Appellant complied.
He was arraigned on February 4, 2008, convicted on
April 8, 2010, and sentenced on April 15, 2010.
1.
Appellant accepts that the Army could have
tried him as a retiree but disputes that the Army
had the ability to recall him to active duty. Appellant
contends that, as he was assigned to a reserve unit,
he was both a retiree and a reservist. He argues that
a reservist cannot be recalled to active duty for any
offense committed before 1987.
But Appellant was not a reservist, nor was he
recalled from reserve status. He was recalled to
active duty as a retired member of the Regular Army
under regulations prescribed by the Secretary of
Defense. See 10 U.S.C. § 688(a), (b)(1) (2000); Dep’t
of Defense Dir. 1352.1, Management and
Mobilization of Regular and Reserve Retired
Military Members ¶ 4.1. (July 16, 2005); AR 27-10 ¶

24a
5-2(b)(3). The fact that Appellant was attached to a
reserve organization for accounting purposes did not
make him a reservist.
Appellant contends that even if he were a
retiree, rather than a reservist, the Army could
recall him to active duty only in the “‘interest of
national defense,’” not for UCMJ processing. At the
time of Appellant’s recall to active duty, the service
secretary could assign the recalled member to “such
duties as the Secretary considers necessary in the
interests of national defense.” § 688(c). Although the
term “interests of national defense” is undefined, we
have no doubt that it includes recalling a retiree to
face court-martial charges of killing three military
dependents. Cf. Pearson v. Bloss, 28 M.J. 376, 380
(C.M.A. 1989) (denying writ appeal of retired
accused who argued that he was not subject to courtmartial jurisdiction).
2.
Appellant’s claim that the Army lost jurisdiction
over him by recalling him to active duty from retired
status is without merit. The Army had personal
jurisdiction over Appellant because of his retired
status. Article 2(a)(4), UCMJ. The Army was also
statutorily authorized to and did recall him to active
duty under regulations prescribed by the Secretary

25a
of Defense. Appellant was subject to court-martial
jurisdiction under either status and the Army did
not lose personal jurisdiction over him by choosing
to recall him. See United States v. Dinger, 77 M.J.
447, 453 (C.A.A.F. 2018).

III.
Issue VI: Opportunity to Present a Defense
“[T]he Constitution
guarantees criminal
defendants a meaningful opportunity to present a
complete defense.” Holmes v. South Carolina, 547
U.S. 319, 324, 126 S. Ct. 1727, 164 L. Ed. 2d 503
(2006) (internal quotation marks omitted) (citation
omitted); accord United States v. Woolheater, 40
M.J. 170, 173 (C.M.A. 1994) (recognizing an
accused’s constitutional right to “present legally and
logically relevant evidence that someone else had
the motive, knowledge, and opportunity to commit
the” offense). Article 46, UCMJ, grants an accused
equal opportunity with the trial counsel “to obtain
witnesses and other evidence in accordance with
such regulations as the President may prescribe.” 10
U.S.C. § 846 (2006).
A. Witnesses

26a
Appellant asserts that someone else could have
committed the offenses and that the state’s
investigation was deeply flawed. He complains that
the military judge denied him a meaningful
opportunity to present a defense by refusing to
permit him to call three witnesses: (1) WHH, the
victims’ neighbor, whom Appellant claims had
scratches on his face around the time of the murders,
fit the description of a man who was observed
leaving the victim’s residence, and refused to
provide hair, fingerprint, and handwriting samples;5
(2) Mary Krings, who worked with and dated WHH,
who would testify that he had scratches on his face
around the time of the murders, made inconsistent
statements about those scratches, and asked his
employer for a transfer to a different city; and (3)
Gary Staley, WHH’s roommate, who would testify
that he owned a light-colored van, like the one seen
parked near the victims’ home on the night of the
mur-ders, and WHH had access to it. The CCA held
that the military judge did not abuse his discretion

5 Appellant

argues that the handwriting samples may have
helped determine whether WHH sent letters to the North
Carolina county prosecutors after Appellant’s first trial, signed
by a “Mr. X,” which said that he, not Appellant, had killed the
victims.

27a
in concluding that Appellant failed to fulfill his
burden to establish the relevance and necessity of
the witnesses’ testimony. Hennis, 75 M.J. at 820-25.
In discussing the relevance of Mr. Staley’s
testimony, the military judge concluded:
While the defense theory is that [WHH]
is a suspect in the ... murders, the
defense proffered no evidence to
support that theory or that [WHH] in
any way resembles the person seen
near the [victims’] residence at the time
of the murders. The DNA sample
provided by [WHH] excludes him as the
donor of the semen found at the crime
scene. The defense has made no proffer
that the DNA testing is inaccurate.
Since there is no evidence connecting
Mr. [WHH] to the crime scene, the
relevance of the color of [Mr. Staley’s]
van is not the least bit clear.
In Holmes, the accused was convicted of
murder, criminal sexual conduct, burglary, and
robbery. 547 U.S. at 322. His palm print was found
on the interior knob of the front door; fibers
matching his black sweatshirt were found on the
victim’s bed sheets; fibers matching his blue jeans

28a
were found on the victim’s pink nightgown; the
eighty-six-year-old victim’s underwear contained a
mixture of DNA from two individuals, which
excluded 99.99% of the population other than the
accused and the victim; and the accused’s tank top
contained a mixture of the accused’s blood and the
victim’s blood. Id.
The judge in Holmes refused the defense request
to call several witnesses who placed Jimmy White in
the victim’s neighborhood on the morning of the
assault and four witnesses who would testify that
White acknowledged that the accused was innocent
or admitted that he had committed the crimes. Id. at
323. The trial judge excluded the evidence based on
a state supreme court case, which held that such
evidence was admissible if it raised “a reasonable
inference or presumption” that the accused was
innocent but not “if it merely cast[] a bare suspicion
upon another” or raised “a conjectural inference as
to the commission of the crime by another.” Id. at
323-24 (alteration in original) (internal quotation
marks omitted) (citation omitted).
The Supreme Court noted “that, by evaluating
the strength of only one party’s evidence, no logical
conclusion can be reached regarding the strength of
contrary evidence offered by the other side to rebut

29a
or cast doubt.” Id. at 331. It held that a judge is not
permitted to exclude probative evidence that a third
party committed the offense solely because there is
strong forensic evidence of an accused’s guilt. Id. at
329. Also:
While the Constitution thus prohibits
the exclusion of defense evidence under
rules that serve no legitimate purpose
or that are disproportionate to the ends
that they are asserted to promote, wellestablished rules of evidence permit
trial judges to exclude evidence if its
probative value is outweighed by
certain other factors such as unfair
prejudice, confusion of the issues, or
potential to mislead the jury.
Id. at 326; see United States v. Gaddis, 70 M.J. 248,
252 (C.A.A.F. 2011).
We review the military judge’s ruling on the
production of witnesses for an abuse of discretion.
“We will not set aside a judicial denial of a witness
request unless [we have] a definite and firm
conviction that the [trial court] committed a clear
error of judgment in the conclusion it reached upon
a weighing of the relevant factors.” United States v.
McElhaney, 54 M.J. 120, 126 (C.A.A.F. 2000)

30a
(alterations in original) (internal quotation marks
omitted) (citation omitted).
It is clear the military judge understood his duty
to evaluate the defense evidence for its relevance to
the case. And unlike in Holmes, there is simply no
probative evidence that WHH might have
committed the offenses, just Appellant’s speculation.
See United States v. Lighty, 616 F.3d 321, 358-59
(4th Cir. 2010). Specifically, WHH was excluded as
a source of the semen found in KE’s vagina,
Appellant was unable to establish when or how
WHH sustained cuts to his face; and there was a
considerable size disparity between WHH and
Appellant, who had been identified by a passerby as
having departed KE’s home at 3:00 a.m. on the date
of the killings. As the military judge ruled, the
defense did not proffer any evidence to support its
theory that WHH resembled the person seen near
the locus in quo at the time of the murders. We are
not convinced that the military judge committed a
clear error of judgment in weighing the factors of
relevance and necessity. Therefore, the military
judge did not abuse his discretion in refusing to
permit the testimony of the three witnesses.
B. Expert Assistance

31a
Appellant asserts that he was inappropriately
denied the assistance “of a forensic serologist, Dr.
William Blake, and a crime scene analyst, Mr. Larry
Renner, to review the totality of physical evidence,
determine what items could reveal the presence of a
third party at the crime scene, and then test those
items accordingly.” He acknowledges that the
convening authority funded Dr. Blake “to retest four
items already tested by government: the vaginal
swabs and smears, the fingernail clippings from
[KE].”
The convening authority approved funding for
Dr. Blake first in April 2007 and again in December
2008. The Government canceled the contract in
March 17, 2009, because it appeared that the
defense was not using Dr. Blake’s services—the
defense had not provided the Government a request
to release any items for testing.
A week later, the defense again requested
funding for Dr. Blake to test 39 of the 154 items
seized at the crime scene. The convening authority
approved the funding but only for the vaginal
smears, vaginal swabs, and fingernail clippings
taken from KE. Appellant moved the court to order
funding to test the remaining thirty-five items from
their original request. The court granted the

32a
request, in part, by ordering the appointment of Dr.
Blake as an expert consultant and that the
prosecution provide him with the vaginal smears
and swabs, fingernail clippings, and hand fibers,
sixty-four latent lifts, eight photocopies of the Mr.
X’s letters, and the original Mr. X letters and
envelopes. The military judge denied the request for
the other items, as their lack of connection to
Appellant already exculpated him.
On September 9, 2009, Appellant asked the
court to grant additional funding because Dr. Blake
had been unable to complete the testing and
consultation previously ordered. The motion was
granted the next day.
On September 25, 2009, the defense asked for an
additional $20,000 for Dr. Blake to test other
evidentiary items as they might yield evidence of a
third-party actor. The prosecution conceded that
testing of the hair, fibers, blood, and fingerprints
excluded Appellant as their source, and that the only
forensic evidence linking Appellant to the crime
scene was the DNA analysis of KE’s vaginal swabs.
The military judge denied the motion. It was
impossible to determine when the evidence that the
defense wanted tested might have been left in the
house KE and her family had rented. The military

33a
judge concluded that the previously tested DNA
samples, which excluded Appellant as the
contributor, could be used by the defense at trial. He
also determined that certain non-tested samples did
not inculpate Appellant. Accordingly, the military
judge ruled that Appellant could introduce the
former category of samples into evidence and the
trial counsel could not argue that the latter category
“incriminate[d] the accused” because this evidence
was necessarily exculpatory for the accused without
further testing.
To be entitled to expert assistance, an:
accused has the burden of establishing
that a reasonable probability exists
that (1) an expert would be of
assistance to the defense and (2) that
denial of expert assistance would result
in a fundamentally unfair trial. In
order to satisfy the first prong of this
test, [t]he defense must show (1) why
the expert is necessary; (2) what the
expert would accomplish for the
accused; and (3) why defense counsel is
unable to gather and present the
evidence that the expert would be able
to develop.

34a
United States v. Lloyd, 69 M.J. 95, 99 (C.A.A.F.
2010) (emphasis added) (internal quotation marks
omitted) (citations omitted).
This Court reviews the military judge’s ruling on
requests for expert assistance for an abuse of
discretion. Id.; see United States v. Akbar, 74 M.J.
364, 400 (C.A.A.F. 2015). The trial court abuses its
discretion if its ruling is “arbitrary, fanciful, clearly
unreasonable, or clearly erroneous.” Lloyd, 69 M.J.
at 99 (internal quotation marks omitted) (citations
omitted).
Appellant wanted to explore the possibility that
evidence the prosecution found to be without
inculpatory value might exonerate him by pointing
to someone else as the perpetrator. He only asserted,
however, that additional forensic testing might
result in a DNA profile that could potentially
identify other persons who, at any time in the past,
had been in the home Captain GE and his family
were renting. The military judge found that
Appellant had not proffered that the test results
would indicate when the evidence he wanted tested
had been left in the home. As the military judge
ruled, the mere possibility that the expert would be
of assistance is not sufficient. Appellant must
demonstrate a reasonable probability. He failed to

35a
do so. Furthermore, the military judge specifically
authorized Appellant to introduce items found in the
home that the prosecution had determined through
testing were not inculpatory, and to argue that this
evidence suggested someone other than Appellant
committed the offenses. This supports a conclusion
that the expert was not necessary, and the denial of
expert assistance did not result in a fundamentally
unfair trial. Thus, the military judge did not abuse
his discretion in denying the request.

IV. Issue XI. Voir Dire and Challenges
Appellant alleges that the military judge
unfairly restricted voir dire and “displayed
considerable parsimony” in granting defense
challenges for cause. We disagree. The military
judge analyzed each challenge exhaustively and
granted twenty-one of Appellant’s twenty-six
challenges.

A. Voir Dire
“[V]oir dire should be used to obtain information
for the intelligent exercise of challenges.” Rule for
Courts-Martial (R.C.M.) 912(d) Discussion, quoted

36a
in United States v. Bodoh, 78 M.J. 231, 237 (C.A.A.F.
2019). “It is, however, subject to limitations.” Bodoh,
78 M.J. at 237. We review a military judge’s
limitations on voir dire for a clear abuse of
discretion. United States v. Williams, 44 M.J. 482,
485 (C.A.A.F. 1996).
This Court has recognized that generally
“hypothetical questions provide a permissible means
of exploring potential grounds for challenge.” United
States v. Nieto, 66 M.J. 146, 149 (C.A.A.F. 2008).
However, “neither side is entitled to a commitment
during voir dire about what [the members] will
ultimately do” with respect to the sentence. United
States v. Rolle, 53 M.J. 187, 191 (C.A.A.F. 2000)
(internal quotation marks omitted) (citation
omitted).
Appellant complains that the military judge
restricted his voir dire such that he could not fairly
test members of the venire to determine whether
they would fairly consider matters in extenuation
and mitigation. He specifically objects to the refusal
of the military judge to permit him to ask Command
Sergeant Major (CSM) Lincoln, CSM Kirkover, and
Sergeant Major (SGM) Delgado certain hypothetical
questions.

37a
The military judge gave both parties
considerable latitude in questioning the members.
He was concerned, however, with defense attempts
to get court members to express opinions as to
whether the death penalty would be appropriate by
referencing aggravating factors without reference to
mitigation and extenuation.
The military judge permitted the defense to ask
abstract questions to draw out the members’ views
of the death penalty. He refused, however, to allow
the defense to ask a hypothetical that he concluded
was misleading and confusing:
If
you
find
someone
guilty
unanimously, of the premeditated
murder of a mother and two little girls,
or at least two little girls, if there is no
issue of self-defense or defense of
others, if there is no insanity or
intoxication, there are no mental
issues, it was not an accident, and the
victims were completely innocent—
now tell me about your views on the
death penalty, or words to that effect
The military judge did not prevent the defense
from asking, whether, if the court found Appellant
guilty of the murder of a woman and her two

38a
children, they would automatically sentence him to
death. He permitted a scope of voir dire broad
enough for Appellant to challenge members who
would “not be able impartially to follow the court’s
instructions and evaluate the evidence” and “to
ascertain whether [the] prospective” panel members
would impose the death penalty regardless of the
facts and circumstances of the conviction. Morgan v.
Illinois, 504 U.S. 719, 730, 735-36, 112 S. Ct. 2222,
119 L. Ed. 2d 492 (1992).
The issue is moot as to CSM Lincoln. Appellant
challenged him for cause and he did not sit on
Appellant’s court-martial. A review of the voir dire
shows that the members, including CSM Kirkover
and SGM Delgado agreed to follow the military
judge’s instructions; promised they would consider
all of the evidence, including evidence in extenuation
and mitigation; and insisted that they would not
automatically adjudge the death penalty. The
military judge did not abuse his discretion in
limiting voir dire.

B. Challenges for Cause

39a
Appellant alleges that the military judge erred
in denying challenges for cause for actual and
implied bias against three court members:
Lieutenant Colonel (LTC) Boyd, Major (MAJ)
Weidlich, and LTC Watson. He contends that LTC
Boyd and MAJ Weidlich could not be impartial in a
case in which an accused was charged with
premeditated murder of a child because they
believed that death was the only appropriate
punishment in such a case. Appellant argues that
LTC Watson should have been excused because his
experience as a police officer caused him to distrust
defense counsel. “The burden of establishing that
grounds for a challenge exist is upon the party
making the challenge.” R.C.M. 912(f)(3).
Courts generally recognize two forms of bias that
subject a juror to a challenge for cause: actual bias
and implied bias. United States v. Wood, 299 U.S.
123, 133, 57 S. Ct. 177, 81 L. Ed. 78 (1936). Actual
bias is defined as “bias in fact.” Id. It is “the existence
of a state of mind that leads to an inference that the
person will not act with entire impartiality.” Fields
v. Brown, 503 F.3d 755, 767 (9th Cir. 2007) (internal
quotation marks omitted) (citation omitted). “Actual
bias is personal bias which will not yield to the
military judge’s instructions and the evidence

40a
presented at trial.” United States v. Nash, 71 M.J.
83, 88 (C.A.A.F. 2012).
Whether a prospective juror “is biased has
traditionally been determined through voir dire
culminating in a finding by the trial judge
concerning the [prospective juror’s] state of mind.”
Wainwright v. Witt, 469 U.S. 412, 428, 105 S. Ct.
844, 83 L. Ed. 2d 841 (1985). “[S]uch a finding is
based upon determinations of demeanor and
credibility that are peculiarly within a trial judge’s
province.” Id. It is “plainly [a question] of historical
fact; did a juror swear that he could set aside any
opinion he might hold and decide the case on the
evidence, and should the juror’s protestation of
impartiality have been believed.” Patton v. Yount,
467 U.S. 1025, 1036, 104 S. Ct. 2885, 81 L. Ed. 2d
847 (1984). “As [the Supreme Court has] said on
numerous occasions, the trial court’s resolution of
such questions is entitled, even on direct appeal, to
‘special deference.’” Id. at 1038 (citation omitted); see
United States v. Dockery, 76 M.J. 91, 96 (C.A.A.F.
2017) (granting great deference to the military
judge’s ruling on challenges for cause). Although this
Court has recognized that “the legal question of
actual bias ... approximat[es] a factual question,” we
review actual bias claims for an abuse of discretion.
Nash, 71 M.J. at 88-89.

41a
Implied bias, on the other hand, is “bias
conclusively presumed as [a] matter of law.” Wood,
299 U.S. at 133. It is “bias attributable in law to the
prospective juror regardless of actual partiality.” Id.
at 134 (emphasis added); see Black’s Law Dictionary,
supra p. 3, at 198 (“Bias, as of a juror, that the law
conclusively presumes because of kinship or some
other incurably close relationship; prejudice that is
inferred from the experiences or relationships of a ...
juror ....”).
This Court has taken a broader view of implied
bias based on our interpretation of R.C.M.
912(f)(1)(N), which provides that “[a] member shall
be excused for cause whenever it appears that the
member ... (N) Should not sit as a member in the
interest of having the court-martial free from
substantial doubt as to legality, fairness, and
impartiality.” See United States v. Woods, 74 M.J.
238, 243 (C.A.A.F. 2015).
The question before us, therefore, is
whether the risk that the public will
perceive that the accused received
something less than a court of fair,
impartial members is too high. To
answer this question, we review the
totality of the circumstances, and

42a
assume the public to be familiar with
the unique structure of the military
justice system.
Id. at 243-44 (internal quotation marks omitted)
(citation omitted). We review “implied bias
challenges pursuant to a standard that is less
deferential than abuse of discretion, but more
deferential than de novo review.” Dockery, 76 M.J.
at 96 (internal quotation marks omitted) (citation
omitted).
Appellant’s challenges against LTC Boyd, MAJ
Weidlich, and LTC Watson alleged that these
members were prejudiced against some person or
relevant subject. For LTC Boyd and MAJ Weidlich,
it was a relevant subject: whether they would
consider any sentence other than death for the
premeditated murder of a mother and her two
children. For LTC Watson, it was a person: whether
he, as a former police officer who expressed distrust
for some defense counsel, would fairly consider the
arguments of Appellant’s counsel.
Holding an inelastic attitude toward the
appropriate punishment to adjudge if the accused is
convicted is grounds for an actual bias challenge
under R.C.M. 912(f)(1)(N). United States v. Giles, 48
M.J. 60, 62-63 (C.A.A.F. 1998). “However, a mere

43a
predisposition to adjudge some punishment upon
conviction is not, standing alone, sufficient to
disqualify a member. Rather, the test is whether the
member’s attitude is of such a nature that he will not
yield to the evidence presented and the judge’s
instructions.” United States v. McGowan, 7 M.J. 205,
206 (C.M.A. 1979); accord United States v. James, 61
M.J. 132, 138 (C.A.A.F. 2005).
During general voir dire, the defense asked if the
members agreed with the statement that “life in
prison is not really punishment for premeditated
murder of children?” LTC Boyd and MAJ Weidlich
both answered in the affirmative.
1. LTC Boyd
During individual voir dire, the trial counsel
asked LTC Boyd whether he could fairly and fully
consider both sentencing options if Appellant were
convicted—confinement for life or death. LTC Boyd
answered that he could. He also expressed an
understanding that he could not decide what
sentence was appropriate until he had heard all the
evidence, including mitigation and extenuation. The
military judge asked if LTC Boyd would
“automatically have to vote for the death penalty if
you were to sit on a panel where two little girls were

44a
the victims of premeditated murder?” LTC Boyd
responded:
Sir, let me clarify. My initial—the
emotional portion within me as a
father, I initially said life wouldn’t be
appropriate. Now, as I sat here and I
was thinking about it, I had also
indicated that to take someone’s life as
a result of premeditation in the murder
would free them from having to be
reminded of it for the rest of their lives.
So, simply what I am saying, sir, is that
I would be open-minded. I know what
my views are, but I would be openminded to listen to other panelists.
The military judge asked if LTC Boyd could
“consider and envision that life might be appropriate
depending on whatever the evidence is that comes
out?’” LTC Boyd answered that he could.
The military judge concluded that LTC Boyd
was:
clearly willing to give his decisions a lot
of thought. He does not have a kneejerk
reaction to impose a certain sentence.
Lieutenant Colonel Boyd made it clear,

45a
in an extremely credible manner, that
he is willing to listen to all of the
evidence and will consider the full
range of punishments.
... Lieutenant Colonel Boyd is not
unalterably in favor of imposing the
death penalty.
Viewing all of [LTC] Boyd’s responses
as a whole, a reasonable person would
not conclude that he is biased under the
implied bias standard. The liberal
grant standard does not warrant
granting the challenge; therefore, the
challenge for cause is denied.
We conclude that the military judge’s findings of
fact with respect to LTC Boyd are not clearly
erroneous. The military judge did not abuse his
discretion in denying the challenge for actual bias,
and LTC Boyd’s inclusion would not have caused the
public to perceive Appellant’s panel as less than fair
and impartial.
2. MAJ Weidlich
When specifically asked about his view of the
death penalty, MAJ Weidlich, a psychiatric nurse
practitioner, said it was “a viable option for anyone

46a
who’s committed and found guilty of an egregious
crime.”
And I think it would be a little more difficult
for me to, you know, being the father of four
small children under the age of 10—to have their
lives cut short, I that that would—it would be
hard. I mean, I could be fair and objective; but I
think that it would be something that I would
consider.
The trial counsel asked if there was any crime,
including the premeditated murder of children for
which he would “automatically vote for the death
penalty with no other considerations?” He answered:
Automatically
with
no
other
considerations? You know, I would
have to hear the evidence and hear
what the circumstances were. You
know, I understand in our nation we
have the option of life in prison or the
death penalty, but I think the decision
on that would have to be made based on
all of the evidence at hand. Again, now
I think it is a viable option; but it would
be dependent on, you know, what the
circumstances
were—intent,
and

47a
premeditation
things.

and

those

sorts

of

... So I try to be very objective and very
fair and open about those sorts of
things. But I can’t think of absolutely
automatically death penalty, I would
have to hear all of the evidence.
MAJ Weidlich indicated that, in determining
whether the death penalty would be appropriate, he
would consider factors such as premeditation and
the evidence presented. “I don’t think[, however,]
that the murder of children automatically would
make it a death-penalty offense, but it would
definitely sway me to consider it more.” In
determining whether the death sentence should be
imposed, MAJ Weidlich stated that remorse would
be an important consideration. He would also
consider the person’s background. But he did not
think the background would sway him “one way or
another towards or against the death penalty. But
again, it would really depend in my mind what
background information is presented.”
The military judge found Major Weidlich
credible and that he would apply the presumption of
innocence.

48a
While he believes the death penalty is
an option for an egregious crime, and
the decision becomes more difficult
when children are the victims, he is
clearly willing to hear all of the
evidence, to include the background of
the accused, before making a decision.
He could not think of a case in which he
would automatically impose the death
penalty.
....
In light of all of his answers, it is clear
that Major Weidlich has not made up
his mind as to an appropriate sentence.
And, based on all of his responses, a
reasonable person would not conclude
that he is biased.
The liberal grant mandate does not
warrant a challenge for cause and,
therefore the challenge for cause is
denied.
We conclude that the military judge’s findings of
fact with respect to MAJ Weidlich are not clearly
erroneous. The military judge did not abuse his
discretion in denying the challenge for actual bias,
and MAJ Weidlich’s inclusion would not have caused

49a
the public to perceive Appellant’s panel as less than
fair and impartial.
3. LTC Watson
LTC Watson was a city police officer between
1999 and 2003, when he was recalled to active duty.
His sister was a civilian prosecutor but had returned
to law school to become a law librarian.
During his time as a police officer, LTC Watson
came in contact with defense attorneys and his
impression was “some good, some not so good.” When
asked about his not so good impressions, he stated:
“When I was an arresting officer and I was the one
that was sitting on the stand, the defense—mainly
on DUI cases—just the way the defense handled
officers as witnesses.” He did not like:
the line of questioning or the inferences
that they were making toward the
officer.... So, as somebody that was
trained by the state on DUI detection,
there was a lot of questions that were
brought up about my expertise as
somebody that can make decisions on
DUI detection. So it would bring a lot of
doubt into the jury on my abilities as an

50a
officer and other officers, the same
thing.
He did not mind the questions
themselves, but “just the way it was
shaped with the jury and what was not
allowed as evidence was some of the
things that didn’t sit well with me at
that time.”
Defense counsel asked whether testimony of
police officers “bring with it a degree of credibility
just as a baseline that’s a little above what another
witness might bring?” LTC Watson answered: “It
just depends on how they’re presenting the evidence
and their level of training. To a certain degree, yes.”
When asked a hypothetical about whether the death
penalty would be the only appropriate penalty for
the premeditated killing of a mother and two young
children, LTC Watson answered: “I don’t know that
it’s the only appropriate penalty. It could go either
way, and it just depends on the amount of evidence
that I’ve seen and the testimony that I’ve heard.” He
admitted that if there was also a sexual assault that
“might shape [his] decision more towards the death
penalty possibly. It doesn’t mean that it would.”
After the defense counsel finished asking LTC
Watson questions, the military judge re-engaged,

51a
asking whether LTC Watson would give more or less
weight to the testimony of a witness “solely because
of that witness’s position or status in life.” LTC
Watson answered:
Not necessarily.
....
I guess when anybody gives testimony,
you have—you take what they’re
saying and they either become a
credible witness or not so credible
witness based on how they’re
presenting the evidence and based on
how they’re handling the questions. So
I wouldn’t, necessarily, you know,
automatically find somebody credible
just because they were a police officer?
The defense challenged LTC Watson on the
ground that the performance of the law enforcement
agencies in identifying, preserving, and testing of
evidence would be critical to the case, and LTC
Watson had an understanding and training in these
matters that laypersons did not. The defense
claimed that LTC Watson “would be going back into
that deliberation with an aura of expertise that no
other panel member would have because he would
be able to speak with authority about collecting

52a
evidence at a crime scene and what is the proper
procedure because he did so.” And:
he had some negative comments about
defense attorneys, specifically the way
defense attorneys approached law
enforcement witnesses on the stand
and that when defense attorneys would
ask questions that he viewed unfair,
based upon his prior knowledge of the
case, he held that against defense
attorneys, specifically about evidence
that may have not—would be
suppressed or otherwise not a part of
the case, that he viewed that it would
be on.
The military judge denied the challenge against
LTC Watson:
Status by itself is not a basis for a
challenge for cause. CAAF made it
clear that the Army, through its
regulations, may not exclude certain
groups of Soldiers from being eligible to
be detailed as court members; see
Bartlett, 66 M.J. 426. Therefore, a
current or former police officer is not

53a
per se a basis to challenge a member for
cause.
Lieutenant Colonel Watson’s training
years ago, which he had not used and
has not be refreshed, does not provide
a basis for a challenge for cause.
He is not an expert in crime scene
processing.
....
Lieutenant Colonel Watson may have
thought that some defense counsel
were good and some were not so good.
There is absolutely no evidence he
harbors any ill feelings against defense
counsel as a whole and absolutely no
evidence that he harbors any ill
feelings against defense counsel in this
case.
Lieutenant Colonel Watson made it
very clear he wants to hear all of the
evidence before he makes any decision
in this case on findings and sentencing,
if we get to sentencing.
Lieutenant Colonel Watson was very
candid and credible with his responses.

54a
The court has considered the implied
bias and, based on Lieutenant Colonel
Watson’s demeanor in court and his
responses, no reasonable person could
conclude that he is biased against any
party in this case. The court has
considered the liberal grant mandate.
This is not a close call; and, even under
that mandate, there is not a basis for a
challenge for cause. Accordingly, the
challenge for cause against Lieutenant
Colonel Watson is denied.
We conclude that the military judge’s findings of
fact with respect to LTC Watson are not clearly
erroneous. The military judge did not abuse his
discretion in denying the challenge for actual bias,
and LTC Watson’s inclusion would not have caused
the public to perceive Appellant’s panel as less than
fair and impartial.
Judgment
This Court has carefully considered all issues in
this case, including those we did not hear at oral
argument, and none of them provides a basis for
relief. The judgment of the United States Army
Court of Criminal Appeals is affirmed.

55a

56a
APPENDIX B
United States Court of Appeals
for the Armed Forces
Washington, D.C.
United States,
Appellee
v.
Timothy B. Hennis,
Appellant

USCA Dkt. No.
17-0263/AR
Crim.App. No.
20100304
ORDER

On consideration of Appellant’s petition for
reconsideration of this Court’s decision, United
States v. Hennis, __ M.J. __ (C.A.A.F. 2020), it is, by
the Court, this 9th day of April, 2020,
ORDERED:
That the petition for reconsideration is hereby
denied.
For the Court,
/s/ Joseph R. Perlak
Clerk of the Court
cc:

The Judge Advocate General of the Army
Appellate Defense Counsel (Hess)
Appellate Government Counsel (Rowley)

57a
APPENDIX C
UNITED STATES ARMY COURT OF
CRIMINAL APPEALS
Before the Court Sitting En Banc1
UNITED STATES, Appellee
v.
Master Sergeant TIMOTHY B. HENNIS,
United States Army, Appellant
ARMY 20100304
Headquarters, XVIII Airborne Corps and Fort
Bragg
Patrick J. Parrish, Military Judge
Colonel Thomas E. Ayres,
Staff Judge Advocate (pretrial)
Colonel Lorianne M. Campanella,
Acting Staff Judge Advocate (recommendation)
Colonel Paul S. Wilson,
Staff Judge Advocate (addendum)
1 Chief

Judge RISCH, Senior Judge MULLIGAN, Senior Judge
CAMPANELLA, Judge FEBBO, Judge CELTNIEKS, and
Judge WOLFE are taking no part in this case as a result of
their disqualifications.

58a
For Appellant: Lieutenant Colonel Jonathan F.
Potter, JA; Captain Ryan T. Yoder, JA (argued) 2;
Lieutenant Colonel Jonathan F. Potter, JA; Captain
Michael J. Millios, JA (on brief); Lieutenant Colonel
Jonathan F. Potter, JA; Captain Ryan T. Yoder, JA
(on brief in response to specified issues and on reply
brief in response to specified issues); Lieutenant
Colonel Jonathan F. Potter, JA; Captain Ryan T.
Yoder, JA (on reply brief).
For Appellee: Captain Jihan Walker, JA; Captain
Carling M. Dunham, JA (argued); Major A.G. Courie
III, JA; Major Janae M. Lepir, JA; Captain Carrie L.
Ward, JA (on brief); Colonel Mark H. Sydenham, JA;
Major A.G. Courie, III, JA; Captain Jihan Walker,
JA (on brief in response to specified issues).
6 October 2016
--------------------------------OPINION OF THE COURT
---------------------------------

2 The

court heard oral argument on 5 May 2016. At that time,
Chief Judge WILSON and Senior Judge HAIGHT were
members of this court; however, they took no part in this case
as a result of their disqualifications.

59a
PENLAND, Judge:
A
general
court-martial
with
enlisted
representation found appellant guilty, contrary to
his pleas, of three specifications of premeditated
murder, in violation of Article 118, Uniform Code of
Military Justice [hereinafter UCMJ], 10 U.S.C. §
918 (1956). The panel sentenced appellant to death,
a dishonorable discharge, forfeiture of all pay and
allowances, and reduction to E-1. We review this
case under Article 66, UCMJ.
Appellant has assigned forty-nine errors, some
of which we discuss in detail, none of which merit
relief. We have also reviewed the matters personally
raised by appellant pursuant to United States v.
Grostefon, 12 M.J. 431 (C.M.A. 1982), and they are
without merit. We specified and discuss three
additional issues, none of which merit relief.
BACKGROUND
The case stems from a triple homicide in
Fayetteville, North Carolina, occurring during the
hours of darkness between 9 and 10 May 1985. The
oldest victim, Mrs. KE, was married to Air Force
Captain GE, who was assigned to nearby Pope Air
Force Base, but, at the time of the murders, was
away on temporary duty at Maxwell Air Force Base,

60a
Alabama. Their five-year-old daughter, Miss KE,
and three-year-old daughter, Miss EE, were also
murdered. Their sole surviving child, Miss JE, was
left in her baby crib and discovered on 12 May 1985
by a law enforcement officer responding to a
neighbor’s report of hearing Miss JE’s cries from
within the house. Mrs. KE’s body was partially
naked and her wrists bore ligature marks; her
underwear had been cut from her body and was
discovered along with her jeans on the living room
floor among other evidence of a struggle. All victims
died from multiple stab wounds and cuts to their
necks; Miss EE was nearly decapitated. The autopsy
of Mrs. KE’s body revealed multiple intact
spermatozoa in her vagina.
A jury convicted appellant and sentenced him to
death for the murders in a 1986 North Carolina state
trial. On appeal, the Supreme Court of North
Carolina ordered a new trial, concluding the
prosecution had used excessively “gruesome” photos
of the victims in obtaining the conviction. State v.
Hennis, 323 N.C. 279, 372 S.E.2d 523 (1988). A jury
acquitted appellant in his second state trial in 1989.
Appellant resumed full active duty status, received
service credit for his civilian confinement, and
retired as a Master Sergeant (MSG) from the
Regular Army in 2004.

61a
Post-1989 advances in deoxyribonucleic acid
(DNA) analysis enabled state and military law
enforcement agencies to subsequently test the
recovered spermatozoa for the presence of DNA.
Multiple tests, results of which were ultimately
admitted into evidence at appellant’s court-martial,
established the near-statistical certainty that
appellant produced the sperm recovered from Mrs.
KE’s body.
With this new discovery, the convening
authority sent a 29 June 2006 memorandum to the
Assistant Secretary of the Army (Manpower and
Reserve Affairs) (ASA (M&RA)), requesting
“approval to order [appellant] to active duty in order
to facilitate courts-martial action.” In response, the
acting ASA (M&RA) issued a memorandum, with
the subject “Involuntary Order to Active Duty.” In
pertinent part, it stated: “Under the provisions of
Article 2(a)(4), Uniform Code of Military Justice, 10
U.S.C. § 688, and Army Regulation (AR) 27-10,
[Legal Services: Military Justice] paragraph 52(b)(3), I hereby order Master Sergeant (Ret.)
Timothy B. Hennis to active duty.”
Implementing the ASA (M&RA)’s decision and
order, the Army’s Human Resources Command
issued a 14 September 2006 order, noting

62a
appellant’s retention on active duty and directing
him to report to Headquarters, XVIII Airborne
Corps, in October 2006. Appellant complied and
remained on active duty with that unit through his
court-martial.
ASSIGNMENTS OF ERROR3
AND SPECIFIED ISSUES

I. WHETHER THE ARMY’S PROSECUTION
OF MASTER SERGEANT HENNIS AT THE
STATE OF NORTH CAROLINA’S REQUEST
VIOLATES THE PROHIBITION AGAINST
DOUBLE JEOPARDY AND THE DUE
PROCESS
CLAUSE
OF
THE
FIFTH
AMENDMENT, WAS A SHAM ENGINEERED
TO AVOID DOUBLE JEOPARDY, AND
CONSTITUTED A VIOLATION OF POSSE
COMITATUS.
Appellant asserts Army officials “engineered”
his court-martial as a “sham,” prosecuting him on
North Carolina’s behalf and creating a subterfuge

3 For

clarity we adopt the assignment of error numbers
appellant used in his brief.

63a
contrary to the Constitution’s Double Jeopardy
Clause. Our review of this case yields nothing to
support appellant’s argument, and we resolve the
issue against him for the reason succinctly
announced by our superior court in United States v.
Schneider, 38 M.J. 387, 391-92 (C.M.A. 1993) (“The
Double Jeopardy Clause does not bar one sovereign
from proceeding on a charge of which an accused has
been acquitted by another sovereign.”) (citing United
States v. Wheeler, 435 U.S. 313, 98 S. Ct. 1079, 55 L.
Ed. 2d 303 (1978); Bartkus v. Illinois, 359 U.S. 121,
79 S. Ct. 676, 3 L. Ed. 2d 684 (1959)).
Appellant also argues his court-martial violated
the Posse Comitatus Act (PCA), 18 U.S.C. § 1385
(2000), which states:
Whoever, except in cases and under
circumstances expressly authorized by the
Constitution or Act of Congress, willfully uses any
part of the Army or the Air Force as a posse
comitatus or otherwise to execute the laws shall be
fined under this title or imprisoned not more than
two years, or both.
In United States v. Thompson, 33 M.J. 218, 220
(C.M.A. 1991), our superior court addressed the
Department of Defense’s (DoD) implementation of
the PCA, which prohibited DoD law enforcement

64a
activities that were primarily motivated by a desire
to assist civilian law enforcement agencies, while
allowing DoD law enforcement activities “related to
enforcement of the Uniform Code of Military Justice
. . . .” (quoting 32 C.F.R. § 213.10(a)(2) (1982)).
Appellant’s argument lacks merit because, despite
his claims to the contrary, this case involves no
governmental subversion of the PCA, but rather a
lawful exercise of authority pursuant to the UCMJ
and federal law.

II — A. WHETHER THE COURT-MARTIAL
LACKED JURISDICTION TO TRY MASTER
SERGEANT HENNIS FOR THE CHARGED
OFFENSES
BECAUSE
HE
WAS
NOT
LAWFULLY ORDERED TO ACTIVE DUTY,
UNDER ARTICLE 2(A)(1), UCMJ, AND
WHETHER,
THEREFORE,
PERSONAL
JURISDICTION DID NOT ATTACH TO
MASTER SERGEANT HENNIS’ COURTMARTIAL
RENDERING
THE
COURTMARTIAL VOID.
To more fully consider this assigned error, we
specified and received briefs regarding a closelyrelated issue of personal jurisdiction: whether the
ASA (M&RA) possessed authority to order appellant

65a
to active duty under 10 U.S.C. § 688, where the
Secretary of the Army did not personally issue said
order. We took this approach considering the wellestablished principle that the lawfulness of an order
depends on, inter alia, issuance by competent
authority. United States v. Kisala, 64 M.J. 50, 52
(C.A.A.F. 2006).
This issue is the first of multiple jurisdictional
disputes in this case, with enduring principles
regarding the burden of proof and standard of review
that transcend each. “When challenged, the
Government must prove jurisdiction by a
preponderance of evidence.” United States v. Morita,
74 M.J. 116, 121 (C.A.A.F. 2015) (citing United
States v. Oliver, 57 M.J. 170, 172 (C.A.A.F. 2002)).
“When an accused contests personal jurisdiction on
appeal, we review that question of law de novo,
accepting the military judge’s findings of historical
facts unless they are clearly erroneous or
unsupported in the record.” United States v.
Melanson, 53 M.J. 1, 2 (C.A.A.F. 2000) (citing United
States v. Owens, 51 M.J. 204, 209 (C.A.A.F. 1999)).
Before trial, appellant moved to dismiss for lack
of jurisdiction, arguing he retired from the Army,
entered a reserve component status, and was not
lawfully called to active duty therefrom (App. Ex.

66a
VIII). On 28 April 2008, the military judge denied
appellant’s motion (App. Ex. LXIX) and found:
1. In June 2006 the General CourtMartial
Convening
authority
submitted a request through the
Criminal Law Division, Office of the
Judge Advocate General, to the Office
of the Assistant Secretary of the Army
(Manpower and Reserve Affairs) IAW
[in accordance with (IAW)] AR 27-10,
Chapter 5, for the purpose of obtaining
the approval to order the accused to
active duty from his retirement status
to face a potential court-martial. See
[Appellate Exhibit] AE IX and its
enclosures.
2. Shortly thereafter, the Acting [ASA
(M&RA)] approved that request and
ordered the accused to active duty. AE
IX, encl. 2.
3. The Government has shown that it
properly ordered the accused to active
duty for the purpose of prosecuting him
under the provisions of the [UCMJ].
4. Under the authority of Article 2,
UCMJ, the accused, a retiree, is subject

67a
to the UCMJ and may be prosecuted for
offenses committed while on active
duty or in a retired status.
5. Accordingly, the motion to dismiss
for loss of jurisdiction or, in the
alternative, to dismiss because the
Government failed to follow Army
regulations in recalling the accused is
DENIED.
Article 2(a)(1), UCMJ, which was in effect in
May 1985, states “[t]he following persons are subject
to this chapter: . . . other persons lawfully called or
ordered into, or to duty in or for training in, the
armed forces . . . .” While the UCMJ does not specify
who may issue such an order, 10 U.S.C. § 688,
assigns retiree recall authority to the service
secretaries:
(a) Authority. Under regulations
prescribed by the Secretary of Defense,
a member described in subsection (b)
may be ordered to active duty by the
Secretary of the military department
concerned at any time.
(b) Covered members. Except as
provided in subsection (d), subsection

68a
(a) applies to the following members of
the armed forces:
(1) A retired member of the Regular
Army, Regular Navy, Regular Air
Force, or Regular Marine Corps.
(2) A member of the Retired Reserve
who was retired under section 1293,
3911, 3914, 6323, 8911, or 8914 of this
title.
(3) A member of the Fleet Reserve or
Fleet Marine Corps Reserve.
(c) Duties of member ordered to active
duty. The Secretary concerned may, to
the extent consistent with other
provisions of law, assign a member
ordered to active duty under this
section to such duties as the Secretary
considers necessary in the interests of
national defense.
Not surprisingly, 10 U.S.C. § 3013, which vests
in the Secretary of the Army a broad landscape of
authorities
and
responsibilities,
specifically
authorizes the Secretary to delegate authorities to
subordinate Army officials:

69a
The Secretary of the Army may assign
such of his functions, powers, and
duties as he considers appropriate to
the Under Secretary of the Army and to
the Assistant Secretaries of the Army.
Officers of the Army shall, as directed
by the Secretary, report on any matter
to the Secretary, the Under Secretary,
or any Assistant Secretary.
10 U.S.C. § 3013(f) (2000).
Subsection (g)(3) of the statute further
authorizes the Secretary to “prescribe regulations to
carry out his functions, powers, and duties . . . .”
With this framework of legal authorities, we
address whether the ASA (M&RA) was empowered
to order appellant’s recall. Pursuant to United States
v. Paul, 73 M.J. 274, 278 (C.A.A.F. 2014) and United
States v. Ayers, 54 M.J. 85, 90 (C.A.A.F. 2000), we
take judicial notice of Department of the Army
General Order (DAGO) 2002-03, Assignment of
Functions
and
Responsibilities
Within
Headquarters, Department of the Army, dated 9
July 2002 (rescinded by DAGO 2012-1, dated 11
June 2012). Signed by the Secretary of the Army and
citing 10 U.S.C. § 3013 as authority, DAGO 2002-03

70a
describes and assigns, inter alia, functions to the
ASA (M&RA):
The [ASA (M&RA)] has the principal
responsibility for setting the strategic
direction and providing the overall
supervision for manpower, personnel,
and Reserve affairs across all the Army
components (Active, Guard, Reserve,
civilian and contractor). Among the
responsibilities of the ASA (M&RA)
are: . . . [o]verseeing the personnel
security, corrections, discipline, Office
of the Special Counsel investigations;
law enforcement; and military justice
matters in coordination with the Army
General Counsel. (Emphasis added).
In identifying the potential impact of this order,
appellant asserts it does not grant the ASA (M&RA)
the required authority to recall appellant: “[DAGO
2002-03] did not delegate authority specifically over
retirees. A retiree is not ‘Active,’ a member of the
‘Guard’ or ‘Reserve,’ and is not considered a ‘civilian’
or ‘contractor.’” We disagree with appellant’s narrow
reading of the order. First, the order establishes the
ASA (M&RA)’s responsibilities “across all the Army
components,” and we are unaware of any authority

71a
for appellant’s tacit corollary that his retirement
removed him completely therefrom. (Emphasis
added). We conclude the opposite, noting his
retirement order placed appellant in a control group
administered by the reserve component. Second and
finally, with his mandate to the ASA (M&RA) to
oversee military justice matters, we conclude the
Secretary enabled that assistant official to take all
actions otherwise reserved to the Secretary under
the UCMJ.
We also note the ASA (M&RA)’s citation to AR
27-10, para. 5-2(b)(3). This regulation was issued in
2005 “By Order of the Secretary of the Army,” over
the signature block of the Chief of Staff of the Army,
and signed as “Official” by the Administrative
Assistant to the Secretary of the Army. Paragraph
5-2(b)(3) states in pertinent part:
If necessary to facilitate courts-martial
action, retired soldiers may be ordered
to active duty. Requests for active duty
will be forwarded by electronic message
through the Criminal Law Division,
ATTN: DAJA-CL, Office of The Judge
Advocate General, HQDA to the Office
of the Assistant Secretary of the Army

72a
(Manpower and Reserve Affairs) for
approval.
Appellant argues the passage’s use of the word
“approval” means something less than the ASA
(M&RA)’s authority to actually order appellant to
active duty. Instead, appellant argues the regulation
gives the assistant secretary the authority to make
a recall recommendation to the Secretary of the
Army. As with DAGO 2002-03, we do not share this
narrow view of the regulation. Considering the two
documents together, we find the Secretary of the
Army authorized the ASA (M&RA) to call retirees to
active duty, therefore rendering him a competent
authority to recall appellant under 10 U.S.C. § 688
and Article 2(a)(1), UCMJ.
Beyond his argument regarding the limits of
DAGO 2002-03 and AR 27-10, appellant asserts his
recall from retirement under 10 U.S.C. § 688 was
defective as not “necessary in the interests of
national defense.” Congress empowered the
Secretary of Defense to implement the statute, and
appellant draws our attention to a contrast between
previous DoD implementation guidance, which
enumerated UCMJ proceedings as a permissible
recall purpose, and its implementation guidance in

73a
effect at the time of appellant’s recall, which is silent
on the topic.4
Appellant argues this contrast evinces the
judgment of the Secretary of Defense that UCMJ
proceedings fall short in justifying a conclusion that
such proceedings are “necessary in the interests of
national defense.” We disagree and instead find
nothing in the DoD guidance which prevented the
ASA (M&RA), acting as the designee of the
Secretary of the Army, from recalling appellant to
active duty in order to face court-martial charges.
We find no arbitrariness or capriciousness as
motivation for the ASA (M&RA)’s order as 10 U.S.C.
§ 688 provided an amply lawful purpose for
appellant’s recall.
Based on the foregoing, we conclude the
government proved personal jurisdiction under
Article 2(a)(1), UCMJ, by a preponderance of the
evidence.

4 See

Dep’t of Def. Dir. [hereinafter DOD Dir.] 1352.1,
Management and Mobilization of Regular and Reserve
Military Members (16 Jul. 2005) and DOD Dir. 1352.1 (2 Mar.
1990).

74a

II — B. WHETHER THE COURT-MARTIAL
LACKED JURISDICTION TO TRY MASTER
SERGEANT HENNIS FOR THE CHARGED
OFFENSES BECAUSE OF HIS BREAK IN
MILITARY SERVICE.
On appeal, appellant again argues a break in
service occurred between his 12 June 1989 discharge
and 13 June 1989 reenlistment, depriving the courtmartial of subject matter jurisdiction. The military
judge denied appellant’s similar motion to dismiss
without specifically concluding whether a break in
service occurred, but he wrote, “[a]ssuming
arguendo there was a break in service based on the
discharge certificate issued on 12 June 1989, Article
3(a), UCMJ, addresses the issue of revived
jurisdiction as it applies to offenses committed prior
to
1992.”
Reviewing
the
four
statutory
requirements, which we ultimately address below,
the military judge ruled “if there was a break in
service based on the discharge issued to the accused
on 12 June 1989, jurisdiction is revived under
Article 3(a), UCMJ.”
Appellant initially enlisted in the Regular Army
on 29 January 1981, agreeing to a four-year active
duty commitment. On 1 February 1984, he extended

75a
his Regular Army enlistment obligation for one year
in order to attend warrant officer training and flight
school; 28 January 1986 became the new date for his
expiration of term of service (ETS).
On 16 May 1985, appellant was arrested by
civilian authorities for murder and rape, and
remained in custody until 15 December 1985, when
he was released on bail. In July 1986, appellant was
convicted of murder and rape and sentenced to death
in North Carolina state court. On 6 October 1988,
the Supreme Court of North Carolina set aside his
conviction and authorized a new trial. Hennis, 323
N.C. at 287, 372 S.E.2d at 528. His retrial ended in
acquittal on 19 April 1989.
Appellant’s civilian pretrial confinement and
post-trial incarceration tolled the fulfillment of his
enlistment obligation; and, after his acquittal he
returned to duty at Fort Knox on 21 April 1989,
where he was previously assigned to the
installation’s Personnel Control Facility (PCF) after
his first civilian trial. On 22 May 1989, acting under
AR 630-10 (Update 13, dated 16 March 1988),
Absence Without Leave and Desertion, paragraph 18, appellant’s commanding general approved the
PCF commander’s recommendation to “reclassify . .
. as unavoidable” his absences from 16 May to 15

76a
December 1985 (initial arrest until release on bail)
and from 4 July 1986 to 19 April 1989 (post-trial
incarceration until release on acquittal). 5 Under
paragraph 1-8c, “[a] period of unauthorized absence
that is excused as unavoidable will be creditable for
all purposes.”
On 1 June 1989, appellant requested to reenlist
for four more years using Department of the Army
(DA) Form 3340-R, Request for Regular Army
Reenlistment or Extension. Block 2c of this
document contained 17 June 1989 as the date of his
then-current ETS, apparently adjusted in response
to his civilian confinement. Block 2d reflects two
enlistment extensions. The first, effective 1
February 1984 for twelve additional months,
corresponds with an extension document signed by
appellant on that date. The second extension,
effective 6 January 1986 for seven additional

5 Paragraph

1-8b states, in pertinent part: “[B]efore an
unauthorized absence may be excused as unavoidable, the
responsible commander must decide if the following occurred:
(1) The absence was not caused by the member’s own
misconduct. (2) The member acted as prudently and
responsibly as could be expected to avoid the absence. (3)
Representatives of the Army also acted as prudently and
responsibly as could be expected to avoid the absence.”

77a
months, has no corresponding extension request in
the record of trial and was apparently made in
response to the seven months appellant spent in
civilian pretrial confinement.
On 12 June 1989, the Army honorably
discharged appellant. On 13 June 1989, using
Department
of
Defense
Form
4,
Enlisted/Reenlistment Document, Armed Forces of
the United States (which bore the typewritten
words, “Immediate Reenlistment,” in the top
margin), appellant reenlisted for four more years.
Appellant remained on active duty in the Regular
Army until his retirement on 31 July 2004.6
Before we can reasonably apply the law to this
issue, we must accurately determine the necessary
facts; and, to some extent, one of them is not selfevident. This court “is required to conduct a de novo
6 Appellant

later requested the Army Board for Correction of
Military Records (ABCMR) correct certain aspects of his
service record, and on 7 August 1991, the ABCMR decided to
direct the following corrections: showing his promotion to Staff
Sergeant was effective 1 December 1988 with a date of rank of
4 November 1988; and, restoring an “appropriate amount of
leave as determined by DFAS and by allowing a 3 year period
in which to use the restored leave.” The ABCMR promulgated
its decision on 19 August 1991.

78a
review of the entire record of trial.” United States v.
Washington, 57 M.J. 394, 399 (C.A.A.F. 2002). Just
before appellant reenlisted on 13 June 1989, what
was his ETS date in light of the commanding
general’s 22 May 1989 decision? One could perhaps
conclude it was 17 June 1989, as the DA 3340-R
showed, particularly where there is no evidence of
appellant’s disputing it when he requested to
reenlist. Alternatively, the documented ETS date
was simply incorrect, in light of the plain and, in our
judgment, self-executing “creditable for all
purposes” language in AR 630-10, paragraph 1-8b.
We conclude the latter, for the first view would
effectively enable a soldier and his chain of
command to incorrectly establish a term of service
inconsistent with controlling Army policy. For these
reasons, we find that, immediately before the
reenlistment in question, appellant’s correct ETS
date was—at the latest, applying both enlistment
extensions—27 August 1986.
These facts lead us to examine the impact of our
superior court’s decisions and legislative changes to
the UCMJ as they relate to two issues: whether
appellant’s military status was terminated before
his June 1989 reenlistment, resulting in a break in
service; and, if terminated, whether the Army lost
authority to subject him to court-martial.

79a
Considering appellant’s ETS was 27 August
1986, our resolution of the first issue is partly
informed by United States ex rel. Hirshberg v. Cooke,
336 U.S. 210, 69 S. Ct. 530, 93 L. Ed. 621 (1949),
which held a servicemember’s honorable discharge,
followed the next day by reenlistment, divested the
United States of court-martial jurisdiction for
crimes committed during the previous enlistment
period. However, we recognize our superior court’s
decision in United States v. Clardy, which
distinguished
Hirshberg
and
examined
jurisdictional issues where a service member was
prosecuted for offenses “committed shortly before
[he] had been discharged from a prior enlistment for
the purpose of immediate reenlistment and [that]
were not in the category of offenses as to which
military jurisdiction was preserved by Article 3(a),
UCMJ.” 13 M.J. 308, 309, 311 (C.M.A. 1982).
Focusing on whether Clardy had shed his
military status, the majority quoted Colonel William
Winthrop’s, Military Law and Precedents (2d ed.
1920 reprint):
[I]t is the opinion of the author that, in
separating in any legal form from the
service an officer or soldier or
consenting to his separation therefrom,

80a
and remanding him to the civil status
at which the military jurisdiction
properly terminates, the United States
. . . must be deemed in law to waive the
right to prosecute him before a courtmartial for an offence previously
committed but not brought to trial. In
this
view,
a
subsequent
reappointment or re-enlistment into the
army would not revive the jurisdiction
for past offences, but the same would be
properly considered as finally lapsed.
Clardy, 13 M.J. at 309 (Emphasis in original.).
The majority further reasoned:
Colonel Winthrop’s remark . . . would
be consistent with a view that, where a
servicemember is discharged prior to
the expiration of his enlistment for the
specific
purpose
of
immediate
reenlistment, he is never remanded ‘to
the civil status,’ so he can be tried for
offenses committed in the earlier
enlistment.
Id. at 310 (Emphasis added.).
In an explanatory footnote, the court wrote:

81a
This type of discharge is now often
referred to as a “short-term discharge”
-- i.e., a discharge given to a
servicemember
even
before
he
completes his obligated term of service,
which is granted for the mutual
convenience of the servicemember and
the Government in order to allow him
to reenlist immediately and thus
remain on active duty.
Id. at n4.
Affirming this court’s decision to set aside the
findings of guilty of the crimes that the soldier had
committed in his previous enlistment, Clardy
prospectively established the short-term discharge
exception to a jurisdictional bar based on a break in
service. However, this exception was narrow:
[W]e do not question that under
Hirshberg military jurisdiction is
terminated by a discharge at the end of
an enlistment or period of obligated
term of service even though the
servicemember immediately reenters
the service. This break in “status,”
irrespective of the length of time

82a
between discharge and reenlistment, is
sufficient to terminate jurisdiction.
Id. at 316 (footnote omitted) (Emphasis in original).
Following his acquittal and release from
incarceration, appellant served continuously on
active duty on active duty until 12 June 1989. We
further find as fact that, the next day, appellant
continued to maintain significant indicia of military
status and reenlisted. Until 22 May 1989,
appellant’s post-acquittal military service was
pursuant to his contractual enlistment, the
fulfillment of which had been tolled during his
civilian
confinement.
However,
once
his
confinement-related absence was excused on 22 May
1989, appellant’s ETS date reverted to 27 August
1986 (at the latest). Therefore, from 22 May until 12
June 1989, appellant served on active duty beyond
the “period of obligated service” required by his
enlistment. We further find appellant’s discharge
appeared to be, as a matter of fact, solely for the
purposes of immediate reenlistment; however, as a
matter of law under Clardy, we cannot characterize
appellant’s discharge as “short-term,” where it
occurred after his contractual service obligation
expired. We therefore find appellant’s military

83a
status terminated—albeit
before his reenlistment.7

briefly—immediately

Our resolution of this first question, however, is
not dispositive, for we must consider whether
subject matter jurisdiction was nonetheless
preserved under the version of Article 3(a), UCMJ,
applicable to the case. In response to Hirshberg,8
Congress passed legislation codified at 10 U.S.C. §
803(a) (1950):9
Subject to section 843 of this title
(article 43) [statute of limitations], no
person
charged
with
having
committed, while in a status in which
7 Considering

this finding, it is unnecessary to consider the
effect of any statutory time limit, under 10 U.S.C. § 651 (1976),
on appellant’s initial enlistment term.
8 In

United States v. Gallagher, 7 U.S.C.M.A. 506, 509, 22
C.M.R. 296, 299 (C.M.A. 1957), our superior court wrote, “[w]e
have not the slightest doubt but what Congress passed this
statute for the principal purpose of covering the situation
brought about by the decision in [Hirshberg].” In support of this
observation, the court provided detailed excerpts from the
associated legislative history.
9 Congress

amended the statute in 1992, removing the five-year
confinement and “cannot be tried” in civilian courts provisions.
Pub. L. 102-484, div. A, title X, § 1067, Oct. 23, 1992.

84a
he was subject to this chapter, an
offense
against
this
chapter,
punishable by confinement for five
years or more and for which the person
cannot be tried in the courts of the
United States or of a State, a Territory,
or the District of Columbia, may be
relieved from amenability to trial by
court-martial by reason of the
termination of that status.
Appellant argues Article 3(a), UCMJ, does not
confer jurisdiction, because he “could have been
tried in a U.S. state, territory, or the District of
Columbia. In fact, he was tried twice by North
Carolina.” According to appellant, the “more logical
and appropriate definition of ‘cannot be tried’ is
‘could not have been tried.’” Appellant writes, “the
CAAF in Willenbring also reiterated that Congress’
intent behind Article 3(a) was meant to only confer
‘jurisdiction to serious offenses that could not
otherwise be tried.’” (internal quote from
Willenbring v. Neurauter, 48 M.J. 152, 161 (C.A.A.F.
1998)) (Emphasis added by appellant).
Essentially, appellant argues we should replace
Article 3(a)’s present tense “cannot” with the past
tense “could not.” However, these words are not

85a
fungible. Describing “cannot” as “[t]he negative form
of can,” the American Heritage Dictionary of the
English Language (Third Edition, 1992) defines the
present tense verb “can” as, inter alia, “possession of
a specified power, right, or privilege.” The same
dictionary describes “could” as the “[p]ast tense of
can . . . [u]sed to indicate ability, possibility, or
permission in the past.”10
When analyzing the jurisdictional disputes in
this case, we recognize “[a] court-martial organized
under the laws of the United States is a court of
special and limited jurisdiction.” Runkle v. United
States, 122 U.S. 543, 555, 7 S. Ct. 1141, 30 L. Ed.
1167, 22 Ct. Cl. 487 (1887). Had Congress intended
for Article 3(a), UCMJ, to be applied with a view
toward a state or federal court’s past ability to try a
10 In

Willenbring, at the time of preferral, one might have said,
“The government could have tried the accused in a federal
district court within the statute of limitations under 18 U.S.C.
§ 3282, but because that time has expired, now it cannot.”
Similarly, at the time of appellant’s court-martial—and today,
for that matter—one might have said of the prospects of a
North Carolina trial, “The state could have, and did, prosecute
appellant previously; the state cannot do so today, because of
the constitutional protection against double jeopardy.” These
hypothetical statements illustrate the fundamentally different
meanings of “could not” and “cannot.”

86a
case, we are confident it would have used the “could
not have been tried” phrase—or an equivalent
variant—for which appellant advocates. Instead, the
statute is worded in a manner which requires us to
evaluate whether such courts “cannot.”
We return to the Willenbring decision in
resolving this question against appellant. In that
case, the accused was charged with rapes occurring
on a federal enclave in the United States. However,
at the time of his court-martial, prosecution in
federal district court was barred by the following
statute of limitations:
Except as otherwise expressly provided
by law, no person shall be prosecuted,
tried, or punished for any offense, not
capital, unless the indictment is found
or the information is instituted within
five years next after such offense shall
have been committed.
Willenbring, 48 M.J. at 176 (quoting 18 U.S.C. §
3282 (1994)) (Emphasis in original).
Focusing on the effect of a statute of limitations,
our superior court wrote, “a statute of limitations
does not establish a defense to the merits of a charge;
rather, it is a limitation on the power of a prosecutor

87a
to bring charges and on the power of a court to try a
case.” Id. (citing Waters v. United States, 328 F.2d
739, 743 (10th Cir. 1964)). After discussing the
practically, if not legalistically, jurisdictional effect
of a statute of limitations, the court noted the
absence of the word “jurisdiction” from the law now
in question:
[E]ven though Congress specifically
used the word “jurisdiction” at several
points in the drafting of other aspects
of Articles 2 and 3, it did not use that
word in the Article 3 criteria limiting
court-martial jurisdiction over priorservice offenses, which it could have
done by restricting military trials to
cases outside the “jurisdiction” of
civilian courts. Instead, the statute
referred to cases that “cannot” be tried.
Willenbring, 48 M.J. at 177.
This observation squarely addresses appellant’s
argument that Article 3(a), UCMJ, only allows
court-martial jurisdiction where a state or federal
court lacks its own jurisdiction to adjudicate the
case. The statute is not so limited. Of course the bar
to Willenbring’s civilian prosecution was different
from the one here, but any distinction between the

88a
two works to appellant’s detriment, because his
constitutional double jeopardy protection against
further state prosecution is at least as powerful as,
and perhaps more powerful than, another’s benefit
under a statutory limitations period.11
For these reasons, we find by a preponderance of
the evidence that despite any break in service
created by appellant’s discharge and reenlistment,
the version of Article 3(a), UCMJ, in effect at the
time of his court-martial provides jurisdiction over
the offenses of which he was found guilty.

II — C. THE GOVERNMENT FAILED TO
PROVE SUBJECT MATTER JURISDICTION
OVER THE OFFENSES BECAUSE THE

11 On

remand, the trial judge determined no break in
Willenbring’s service occurred. On appeal of his subsequent
conviction and sentence, our court found jurisdiction was based
on his continuous military service, further determining “we
need not consider whether the criteria of the applicable version
of Article 3(a), UCMJ, have been met.” United States v.
Willenbring, 56 M.J. 671, 676 (Army Ct. Crim. App. 2001)
(citing Willenbring, 48 M.J. at 175). Our superior court
summarily affirmed. United States v. Willenbring, 57 M.J. 321
(C.A.A.F. 2002), cert. denied , 537 U.S. 1112, 123 S. Ct. 904,
154 L. Ed. 2d 785 (2003).

89a
ALLEGED OFFENSES WERE NOT SERVICE
CONNECTED.
The Supreme Court overturned the serviceconnection
requirement
for
court-martial
jurisdiction in Solorio v. United States, 483 U.S. 435,
107 S. Ct. 2924, 97 L. Ed. 2d 364 (1987). Citing
Justice Stevens’s concurring opinion in Loving v.
United States, 517 U.S. 748, 774, 116 S. Ct. 1737,
135 L. Ed. 2d 36 (1996), appellant asserts Solorio
was limited to non-capital cases: “Solorio’s review of
the historical materials would seem to undermine
any contention that a military tribunal’s power to
try capital offenses must be as broad as its power to
try noncapital ones.”
Appellant also cites United States v. Gray, 51
M.J. 1, 11 (C.A.A.F. 1999), a capital case in which
our superior court recognized Justice Stevens’s
concurrence but declined to decide the question of
Solorio’s reach. Instead, our superior court
determined it was unnecessary to do so because,
assuming arguendo Solorio left intact the serviceconnection jurisdictional requirement in capital
courts-martial, the facts in Gray satisfied it.
Justice Stevens’s separate concurrence in
Loving does not control the result here. We perceive

90a
nothing in the Solorio majority opinion which limits
its holding to non-capital cases. Considering the
holding therein—that court-martial jurisdiction
depends on whether the accused “was a member of
the Armed Services at the time of the offense
charged,” Solorio, 483 U.S. at 451—we can identify
no principle of law to support appellant’s tacit
argument that it must specifically identify classes of
cases to which it extends.
The following passage from the Loving majority
further informs our opinion on the topic:
In 1950, Congress confronted the
problem of what criminal jurisdiction
would be appropriate for Armed Forces
of colossal size, stationed on bases that
in many instances were small societies
unto themselves. Congress, confident
in the procedural protections of the
UCMJ,
gave
to
courts-martial
jurisdiction of the crime of murder. Cf.
Solorio, supra, at 450-451 (Congress
may extend court-martial jurisdiction
to any criminal offense committed by a
service member during his period of
service). It further declared the law
that service members who commit

91a
premeditated and felony murder may
be sentenced to death by a courtmartial. There is nothing in the
constitutional scheme or our traditions
to prohibit Congress from delegating
the
prudent
and
proper
implementation of the capital murder
statute to the President acting as
Commander in Chief.
Loving, 517 U.S. at 768-69.
While recognizing the passage is dicta, we note
the Supreme Court in Loving cited Solorio but did
not take the opportunity to qualify a service
member’s jurisdictional eligibility for capital
punishment
with
any
service-connection
requirement. Therefore, we hold, in accordance with
Solorio and Loving, an accused’s military status at
the time of the offense under the UCMJ is the sole
criterion for establishing subject matter jurisdiction
in a court-martial, capital or otherwise.

III. THE EGREGIOUS DELAY FROM MASTER
SERGEANT HENNIS’ ACQUITTAL IN STATE
COURT IN 1989 TO THE ARMY’S PREFERRAL
OF CHARGES IN 2006 VIOLATED MSG
HENNIS’ DUE PROCESS RIGHTS.

92a
Denying appellant’s similarly grounded motion
before trial, the military judge found, inter alia, the
following facts:
There is no evidence that the
Government,
intentionally
or
otherwise, used the time from the
acquittal in state court in 1989 to the
preferral of these offenses on 10
November 2006 to gain some sort of
tactical advantage. Evidence of the
Army’s good faith in this process is that
the accused’s command held in
abeyance the execution of his
administrative discharge for a civilian
conviction in 1986 pending appellate
review. That appellate review ended in
a
reversal
and
the
accused’s
subsequent acquittal in state court.
The Army acted reasonably in
accepting the results of the civilian
justice system in 1989 and allowing the
accused to continue with his military
career. There is no evidence the Army
became involved in investigating this
case after the acquittal in 1989 until
after the local civilian authorities
provided it with the new DNA evidence

93a
test results in 2006 during its cold case
review. The military authorities at Fort
Bragg proceeded in a timely manner
after receiving that new evidence.
To obtain relief for pre-preferral delay under the
Fifth Amendment Due Process Clause, which grants
protections beyond an applicable statute of
limitations, an accused must show the “prosecutor
intentionally delayed the indictment [here,
preferral] to gain a tactical advantage and that the
[accused] incurred actual prejudice.” United States
v. Reed, 41 M.J. 449, 452 n.1 (C.A.A.F. 1995)
(quoting United States v. Byrd, 31 F.3d 1329, 1339
(5th Cir.1994)).
Citing United States v. Lovasco, 431 U.S. 783, 97
S. Ct. 2044, 52 L. Ed. 2d 752 (1977) and United
States v. Marion, 404 U.S. 307, 92 S. Ct. 455, 30 L.
Ed. 2d 468 (1971), the military judge concluded
appellant had not met his burden to establish a due
process violation and denied the motion to dismiss.
Appellant does not argue the military judge abused
his discretion, which is the correct standard for our
review of this issue. Reed, 41 M.J. at 453 (Sullivan,
C.J., dissenting) (citing United States v. Fuzer, 18
F.3d 517, 519 (7th Cir. 1994)). See also United States
v. Sherlock, 962 F.2d 1349, 1354 (9th Cir. 1992), cert.

94a
denied sub nom. Charley v. United States, 506 U.S.
958, 113 S. Ct. 419, 121 L. Ed. 2d 342 (1992). The
military judge’s findings of fact were not clearly
erroneous, and his application of the applicable law
was correct. We hold the military judge did not
abuse his discretion in denying appellant’s motion to
dismiss.

IV. THE MILITARY JUDGE’S DENIAL OF
EXPERT
ASSISTANCE
IN
TESTING
EVIDENCE
POSSESSED
BY
THE
GOVERNMENT DENIED MSG HENNIS HIS
RIGHT TO PRESENT A DEFENSE.
On 27 April 2009, appellant filed a Motion to
Compel Appointment of Experts and/or Equal
Access to Evidence or for Appropriate Relief. Despite
its title, the motion itself provided few examples of
evidence to which appellant sought access by two
requested experts, Dr. EB and Mr. PB. Appellant did
specifically mention in Appellate Exhibit 154 his
desire to gain access to anonymous “Mr. X” letters,
in which the writer suggested another person
committed the crimes:
These letters were analyzed by
government experts using DNA and
non-DNA analysis. The results do not

95a
connect MSG Hennis as the author.
Yet, the government is denying access
by the defense experts to these
potentially exculpatory letters.
Despite the motion’s vagueness, multiple
enclosures thereto provided a clearer picture of what
appellant wanted to analyze.12 For example, in his

12 Defense-requested

items, listed by Cumberland County
Sheriff’s Office evidence voucher numbers:
22 - Plastic bag of fibers from [Miss KE’s] left hand
24 - Plastic bag of nail clippings from [Miss KE’s] left hand
25 - Plastic bag of nail clippings from [Miss KE’s] right
hand
26 - Plastic bag of fibers from [Miss KE’s] mouth
28 - Plastic bag of nail clippings from [Miss EE’s] left hand
29 - Plastic bag of nail clippings from [Miss EE’s] right
hand
30 - Plastic bag from [Miss EE] containing hair from body
and clothing
33 - Brown bag containing pubic hair from [Mrs. KE]
36 - Cardboard container containing vaginal smears of
[Mrs. KE] by medical examiner’s office
37 - Cardboard container containing anal and oral smear
from [Mrs. KE] by medical examiner’s office

96a

38 - Yellow envelope containing vaginal swabs of [Mrs. KE]
39 - Small box of oral swabs from [Mrs. KE]
40 - Clear plastic bag containing left hand fingernail and
fibers from [Mrs. KE]
41 - Clear plastic bag containing right hand fingernail and
fibers from [Mrs. KE]
42 - Clear plastic bag containing hair and fibers from back
of [Mrs. KE]
60 - Yellow envelope containing hair from foot of bed in
master bedroom
62 - Yellow envelope containing hair from blue cover in
master bedroom
63 - Yellow envelope containing hair from chest of [Mrs.
KE]
64 - Yellow envelope containing hair from outside door of
master bedroom
66 - Yellow envelope containing hair from leg of [Mrs. KE]
67 - Yellow envelope containing hair on carpet beside [Miss
EE’s] body
68 - Yellow envelope containing hairs from between [Miss
EE’s] legs on carpet
69 - Yellow envelope containing hairs from [Miss EE’s]
groin
71 - Yellow envelope containing hair from pillow from first
bedroom

97a

72 - Yellow envelope containing hair from bed near [Miss
KE] in first bedroom
82 - Brown paper bag containing four envelopes of drain
pipe parts and a glass jar of sink contents
83 - Brown paper bag containing five envelopes of drain
parts and hair with one glass jar of water from drain
84 - Brown bag containing three envelopes of drain pipe
parts, one connect pipe, and two glass jars with drain
water
88 - Brown bag of three envelopes containing vacuum
particles from living room carpet
89 - Brown paper bag of three envelopes containing
vacuum particles from master bedroom carpet
100 - Yellow envelope containing hair from master
bedroom sink’s countertop
101 - Yellow envelope containing white bath sponge with
hair on same
102 - Yellow envelope containing bar of soap with hair on
same
103 - Yellow envelope containing paper tissue from trash
can in master bedroom with hair on same
111 - Yellow envelope containing eight latent lift cards
lifted at crime scene 5/29/85
112 - Yellow envelope containing three latent lift cards
lifted at crime scene 5/22/85

98a
25 March 2009 letter requesting appointment and
funding of Dr. EB, a DNA expert, civilian defense
counsel wrote:
A complete list of items to be
forensically analyzed, whether by DNA
analysis or other analysis, is attached.
Some of the items have been analyzed
by the government and some have not.
Part of the purpose of analyzing items
that have not previously been
examined is investigatory, i.e., to
determine whether other suspects or
third parties were present at the crime
scene and potentially involved in the
crimes . . . . This list is not exhaustive
as [the requested expert] has indicated
that further consultation may disclose
that additional items should be
examined.

114 - Brown paper bag containing hair collected from
[family] living room and known head hair samples of Mr.
JR, Ms. JC, and Mr. BW
115 - Clear plastic bag containing sixty-four latent lifts and
eight photo copies of Mr. X letters
[104] - Original Mr. X letters and envelopes

99a
Civilian defense counsel attached and similarly
referred to this list of items in a 6 April 2009 letter
requesting appointment and funding of Mr. PB, a
criminalistics expert, “mean[ing] fiber, hair,
fingerprint and document analysis.”
In an Article 39(a), UCMJ, session on 8 May
2009, the military judge heard parties’ arguments on
the motion; no witnesses testified. In response to the
military judge’s observation that the defense had
apparently not used the experts after the convening
authority appointed them, civilian defense counsel
explained, “we were basically waiting for the
government to complete their testing and to have all
of the evidence back at this location so that we could
send it off to our experts at one time.”
Seeking to clarify the proposed responsibilities
of Dr. EB and Mr. PB, the military judge asked
about the scope of work for Dr. DK, another defense
expert. Civilian defense counsel explained, “[Dr.
DK’s] focus was on examining the lab work
performed by the government experts. So we were
not bringing him on board--we did not request him
for the purpose of analyzing any evidence.” Defense
counsel then stated: “Dr. [EB] . . . is the one who is
actually going to do an analysis on the evidence. So

100a
they are not duplicating their efforts. They’re
working in completely different areas.”
The military judge and civilian defense counsel
had the following exchange:
MJ: But the government has already
provided Dr. [DK]?
CDC: Right. And there are no issues
about Dr. [DK]. Now, with Dr. [DK],
though, where his role comes in is that
one of the reasons that we did not
specifically identify what items we
wanted tested is because--or reanalyzed by Dr. [EB] is because we
wanted Dr. [DK’s] input after looking
at the lab results by [United States
Army
Criminal
Investigation
Laboratory] USACIL or whatever labs-the [State Bureau of Investigation]
SBI lab, whatever labs the government
used--we wanted Dr. [DK’s] input in
terms of his recommendations of what
items we should send off for analysis.
MJ: So you are only going to send off for
analysis those items which Dr. [DK]
suggests that you do?

101a
CDC: Dr. [DK] or one of our other
experts. He was one person who
provided input to us, and he did not
complete his work until January of this
year.
MJ: So Dr. [DK] has examined all of the
evidence, and he completed his work in
January?
CDC: Yes, Your Honor.
MJ: And he has made certain
recommendations as to items which he
believes should be retested or tested-either tested anew or tested which
wasn’t tested originally?
CDC: Yes, Your Honor. We also--we
have been provided a number of--we’ve
been provided an investigator, Mr.
[TVO]. We’ve also been provided
another crime scene expert. We have
basically asked our--those experts who
have already been provided to us for
their input as well, based on their
expertise and experience. So you see, as
an attachment to our request for Dr.
[EB] and for Mr. [PB], a list of exhibits
that we want to send off for testing.

102a
Those exhibits were created based on
the inputs of our other confidential
consultants.
[. . .]
MJ: As I understand it, the defense
theory is that someone else raped and
murdered these individuals?
CDC: Exactly, Your Honor.
MJ: And it’s not a case of there was any
consensual sex at all; there was never
any sex and so someone else had raped
[Mrs. KE] and killed her and her two
children?
CDC: Yes, Your Honor . . .
In an 11 May 2009 ruling which granted the
motion in part and denied it in part, the military
judge found:
As set forth in the enclosures to the
appellate exhibits, the government
originally granted the defense request
for the appointment of Dr. [EB] as a
forensic serology/DNA analyst and Mr.
[PB] as a forensic criminalist. The
government
rescinded
those
appointments after the government

103a
believed the defense was not utilizing
their expert services. The government
later re-appointed Dr. [EB] as an
expert consultant; however, the
government limited Dr. [EB’s] access
only to certain evidence.
The defense has shown, and the
government initially conceded, that the
requested
expert
assistance
is
necessary.
The defense requests the court order
the government to provide access to the
evidence set out in enclosure 1 to AE
154. The defense has had access to
inspect the requested evidence located
in the law enforcement evidence locker.
The defense is essentially requesting
the court to order the evidence be sent
to the defense experts for inspection
and testing at the defense expert’s lab.
The evidence consists of essentially
three groups.
[1] Evidence which was tested and
inculpates the accused. The defense
has shown how further testing of that

104a
evidence is necessary
preparation of its case.

for

the

[2] Evidence which was tested and
exculpates the accused because it does
not link the accused to the crime scene.
Those test results allow the defense to
argue to the court members the
exculpatory nature of that evidence.
The defense has not shown how
additional testing by defense experts of
that established exculpatory evidence
will materially add to the preparation
of the defense case.
[3] Evidence which was not analyzed by
government experts. The failure by the
government to test some items seized
from the crime scene necessarily allows
the defense to argue that absence of
evidence exculpates the accused. The
defense has not shown how testing of
that type of evidence will materially
add to the preparation of the defense
case.
The defense motion is granted in part
and denied in part:

105a
[1] The government will arrange for the
expert consultant services of Dr. [EB]
and Mr. [PB]. Those experts will be a
part of the defense team with the same
confidentiality as any other member of
the defense team.
[2] The government will arrange for the
delivery of the [vaginal smears from
Mrs. KE, vaginal swabs from Mrs. KE,
left hand fingernail and fibers from
Mrs. KE, right hand fingernail and
fibers from Mrs. KE, 64 latent lifts and
8 photo copies of Mr. X letters, original
Mr. X letters and envelopes] to the
defense expert’s lab . . .
[3] The motion to provide all of the
other evidence listed in enclosure 1 to
AE 154 to the defense expert’s lab is
denied. If the defense is able to show
how further inspection and possible
testing of the evidence described in
[subparagraphs 2 and 3] above is
material to the preparation of its case,
the court is willing to reconsider its
ruling.

106a
On 10 July 2009, the defense filed a motion to
continue the court-martial until 11 January 2010,
“in order to allow the defense sufficient time to
conduct DNA analysis of evidence now in the
possession of the government and engage in trial
preparation.” The defense also wrote that the
evidence regarding which the military judge granted
testing in his 11 May 2009 ruling had been provided
to Dr. EB and Mr. PB for analysis. The defense
stated its “inten[t] to revisit and justify additional
testing and analysis.” However, Dr. EB’s work was
pending completion, and the defense continued:
Without his consultation and analysis,
the defense is unable to proceed at this
time on three motions: due process,
former jeopardy and third party
exculpatory evidence, not to mention
an anticipated motion for additional
laboratory analysis.
On 28 July 2009, the military judge ordered the
court-martial continued until February 2010. On 3
September 2009, civilian defense counsel filed a
motion requesting additional expert funding for Dr.
EB, writing, inter alia: he had been unable to
complete the testing and consultation services
previously ordered by the military judge; and, the

107a
convening authority denied additional funding to
facilitate consultation. Civilian defense counsel also
wrote that Dr. EB had not been able to forensically
examine the Mr. X letters before exhausting the
previously ordered funding.
The military judge held an Article 39(a), UCMJ,
session on 9 September 2009 to address, inter alia,
the defense’s request for additional funding. Defense
counsel explained he was working with Dr. [EB] to
not only examine the evidentiary items which he had
received, but also to develop one of multiple
“affidavits from several experts supporting . . .
additional testing.” Referring to a future Article
39(a), UCMJ, session scheduled for 29 September
2009, defense counsel continued:
Those 10 [additional] hours are for
consultation with Dr. [EB] to fully
understand what he’s done so far,
prepare an affidavit to submit to the
court that says--from an expert that
says, “Hey, here are some things that
were not tested but in my experience
should be tested, and here’s how they
will help the case. Here’s how they are
material to the preparation of the
case,” which is what the court at least

108a
alluded to in its order and its statement
regarding potential reconsideration.
That’s what the defense is trying to do
was to give the court, as promptly as
possible, that material so that it could
rule.
On 10 September 2009, the military judge
ordered, inter alia, additional funding for Dr. EB’s
DNA expert consultation. As foreshadowed by the
previous day’s motion session, the defense filed
another motion, dated 25 September 2009, seeking
the military judge “to order the government to fund
additional DNA analysis and to order that the
government provide the defense equal access to
evidence . . . .” The defense additionally wrote:
Upon further consultation with Dr.
[EB] and Mr. [LR], the defense crime
scene analyst and reconstructionist,
the defense hereby renews the motion
for equal access to evidence and
funding in the amount of $20,000 for
examination of evidence and additional
DNA testing.
The motion included subsequent declarations
signed by Mr. LR and Dr. EB and requested the
military judge to allow ex parte defense submissions,

109a
“if the proffered declarations are found to be
inadequate . . . .”
Mr. LR’s declaration contained, inter alia,13 the
following:
A Crime Scene Analyst, when
employed as a defense consultant, often
does more than analyze items of
evidence or even simply analyze items
that have been subjected to analysis by
government experts. The analyst
consults with defense counsel as part of
the investigative team, with the goal of
locating, identifying, and sampling
items of evidence to determine whether
bloodstains, hair, fibers, fingerprints,
shoeprints, handwriting, or other
physical evidence exists that can be
used to identify individuals involved in

13 The

declaration included “a three level priority list of
evidence . . . and type of significant findings to be examined . .
. .” The list contained 147 line items, ranging from the vaginal
swab obtained from the autopsy of [Mrs. KE’s] body to four
toboggans and duffle bag fibers obtained from appellant’s
residence. At the subsequent Article 39(a) session, civilian
defense counsel informed the military judge that the defense
sought access to examine and test this broader list.

110a
the crime or present at the crime scene
and patterns of activity at the crime
scene or at other locations relevant to
the commission of the crime.... Thus,
these services are more comprehensive
than simply performing a laboratory
analysis.
Based on my experience, it is not
unusual for government analysts to
mishandle or miss sources of relevant
evidence seized at a crime scene or
other locations. This evidence can be
exculpatory. I also realize that the
defense often has access to information
not known by the government. That is
why confidentiality is important. Using
information from defense counsel or
other members of the defense team, I
often examine or sample items of
evidence that are not analyzed by
government experts, because they may
be relevant to a defense theory that is
not
held
by
the
government.
Additionally, in the course of
consulting with the defense team, it
has not been uncommon that in the
course of performing my services, other

111a
items of evidence than those originally
identified become important . . . .14
Dr. EB’s declaration contained, inter alia, the
following:
At this point, I have independently
analyzed certain items of evidence
already analyzed by government
experts. My confidential report of this
work is dated July 22, 2009. I have not
yet
analyzed
what
has
been
characterized as the “Mr. X” letters and
envelopes. I also understand that the
convening authority disapproved a
defense request for me to examine and

14 Mr.

LR would testify later at trial as a defense witness and,
while the contents of his testimony were unknown to the
military judge when he ruled on the motion, it is not irrelevant
to our appellate review. Called by the defense and recognized
as an expert in forensic crime scene analysis, Mr. LR said he
focused on the blood, fiber, hair and fingerprint analyses—not
DNA. He further testified that the law enforcement agencies
“processing this reportedly did a good job. I haven’t seen all the
paperwork that would have been involved.” He responded,
“No,” in response to a question from the panel whether his
review of the case yielded “anything out of the ordinary based
on the standards that were applicable in 1985?”

112a
analyze other items of evidence deemed
relevant to defense counsel. This
affidavit justifies my access to other
items of evidence deemed relevant for
examination and potential DNA
analysis by defense counsel.
[. . .]
It is my understanding that the
government does not challenge my
credentials or expertise, they simply
seek to deny the defense access to
certain items of evidence for the
purpose of my examination and
analysis. Therefore, my comments
below address the reasons for requiring
access to the disputed items of
evidence.
A forensic serologist, when employed as
a defense or prosecution consultant in
a criminal case, often does more than
analyze items of evidence that have
been subjected to analysis by
government experts. The serologist
consults with defense counsel, with the
goal of locating, identifying and
sampling items of evidence to

113a
determine whether biological material
exists that can be used to identify
individuals involved in the crime or
present at the crime scene or at other
locations relevant to the commission of
the crime. Expert serologists may also
prepare reports to aid defense counsel
in identifying who was present at the
crime scene, the association of one
individual with another at the crime
scene or to develop a more
comprehensive understanding of the
series of events at the crime scene.
Thus, these services are more
comprehensive than simply performing
a laboratory analysis . . . .
Based on my experience, it is not
unusual for government analysts to
miss sources of relevant biological
matter seized at a crime scene or other
locations. This evidence can aid in
identifying who was at the crime scene.
I also realize that the defense may have
access to information not known by the
government. Using information from
defense counsel, I often examine or
sample items of evidence that are not

114a
analyzed by government experts,
because they may be relevant to a
defense theory. Additionally, in the
course of consulting with the defense
counsel, other items of evidence than
those originally identified become
relevant . . .
In this case, it is my understanding
that MSG Hennis was previously tried
twice for the same offenses for which he
is currently charged. Furthermore,
over the years multiple experts have
investigated this case and analyzed
evidence from the crime scene.
According to defense counsel, no one
has been able to prove whether there
were two or more perpetrators in this
case. Importantly, defense counsel
believe no forensic evidence has
established that MSG Hennis was ever
physically present in any of the rooms
where the murders occurred. Finally,
defense counsel state that no physical
evidence from the crime scene was ever
located in or on property possessed by
MSG Hennis. Given this context and in
light of their duty to provide effective

115a
assistance, it is critical that the defense
attorneys receive broad latitude in
their investigation of the extent [sic]
physical evidence. This investigation
includes the confidential investigation
of biological evidence from the crime
scene and perhaps other locations that
defense counsel believe may reveal the
identity of perpetrators not revealed or
considered by the government’s
investigation.
In my judgment defense counsel
should be given access to appropriate
items of physical evidence for
examination and potential DNA
testing. The evidence defense counsel
deems necessary to provide effective
assistance to their client has
apparently already been specified.
Defense counsel is in the best position
to identify such evidence because they
are the ones with the most complete
knowledge of the case history . . . .
On 1 October 2009, the military judge heard
argument in an Article 39(a), UCMJ, session, which
began with civilian defense counsel indicating that

116a
the motion constituted a request to reconsider his 11
May 2009 ruling, supra. Civilian defense counsel
also stated he was now seeking access to additional
items, listed in an attachment to Mr. LR’s
declaration. After the military judge confirmed with
government counsel that its DNA analysis of the
vaginal swabs was “[t]he only forensic evidence”
linking appellant to the crime scene and that
fingerprints, footprints, hair, fibers and blood
excluded him, civilian defense counsel argued:
Your Honor, in that regard, obviously
there are two ways--there are a couple
of different ways to defend a case. One
is to hold the government to its burden
of proof and to say that--and argue just
those points that were made through
the questioning with the trial counsel.
Another way to defend a case is to
prove that someone else could have
committed the crime--for the defense to
put on affirmative evidence to show
that someone else was present at the
crime scene and, therefore, is the
potential perpetrator.
[. . .]

117a
[I]f you find the same DNA evidence in
one room and the same DNA into [sic]
another room and you find more of it
and, if at some point, some of it can be
shown to have originated from sperm
and it’s not the accused’s sperm, then
that is very strong exculpatory
evidence at that point. But as it sits
right now, without our experts being
able--either of our experts--both our
DNA expert and our non-DNA expert
being able to look at that evidence, then
you’ve essentially tied one hand behind
our backs as defense counsel whereas
the government has freedom to test
and examine all of the evidence.
The military judge and civilian defense
counsel later had the following
exchange:
MJ: Let’s assume for the moment that
they analyze the hair and determine
they can do the DNA testing. If the
testing that’s been done already
excludes the accused as the contributor
of that hair, how does further testing
make that even more exculpatory?

118a
CDC: Further examination, Your
Honor, may lead to DNA analysis,
which may lead to a DNA profile, which
through CODIS [Combined DNA Index
System] and other databases, may
point to someone else who committed
the crime . . . .
MJ: In order to build a potential DNA
profile?
CDC: That’s correct, Your Honor. And,
furthermore, if you test a hair and you
can get a DNA reading on it and then
you test a towel and you get the same
DNA reading on the towel, and now you
have two items of evidence that connect
another person to the crime scene. And
if the towel is a towel that has the blood
of the victims on it, then that would be
pretty significant evidence, Your
Honor. So you may not have identified
exactly who that person is, but now you
have put together some pretty strong
and powerful circumstantial evidence
to show that it was not Sergeant
Hennis . . . .
[. . .]

119a
MJ: It might be helpful if I were to
know the results of your expert’s
analysis of the DNA swab and smear in
order to put your argument in context.
CDC: Your Honor, I will say right now
it’s totally irrelevant to this issue. First
of all, we have been limited in how we
can connect that information with
other information from the crime scene
and in consultation with our experts.
And so one aspect of this is that semen
was found in these vaginal swabs
inside [Mrs. KE’s] body, but you don’t
know where you go with that
information.
MJ: Well, if for instance, the experts
who analyzed the DNA evidence came
to opposite conclusions as to who
contributed the DNA sample that
might put things in a different context.
[. . .]
MJ: My concern is, Mr. Spinner, that
the evidence is--or lack of--either there
is evidence or there’s lack of evidence
both of which are exculpatory for the
accused; and you’ve said that you wish

120a
to examine and then perhaps test the
evidence to develop a potential DNA
profile of someone else who may have
contributed-CDC: Who may have committed the
crime or then assisted in some way.
MJ: Yes. But you can’t cite me any case
law that says you have a right to
develop this potential DNA profile.
CDC: Yes, Your Honor. I have. I’ve
cited [United States v. McAllister, 55
M.J. 270 (C.A.A.F. 2001)] and [United
States v. Walker, 66 M.J. 721 (N.M. Ct.
Crim. App. 2008)]. And those cases
don’t say the defense does not have a
right to test other items; but they do
say DNA is powerful evidence, it’s
unique evidence, it provides us things
that we can do today that other types of
forensic testing cannot do . . . .
MJ: And McAllister was assistance to
test the items that were admitted in
court?
CDC: Right, Your Honor. But there’s
nothing in McAllister inconsistent with
what I’m arguing here today.

121a
Arguing in opposition, government counsel
expressed its view that the defense conceded Mrs.
KE had been raped and murdered. This argument
prompted civilian defense counsel to respond that
whether she had been raped, an alleged aggravating
factor, was a matter “in contest.” Government
counsel continued, later indicating that four other
persons of interest, Mr. WHH, Mr. PC, Mr. BWW,
and Mr. JR, had provided buccal swabs, DNA
analysis of which excluded them as contributors of
the semen on the vaginal smear. Ultimately,
government counsel concluded his argument by
agreeing with the defense motion only to the extent
it would allow the defense expert to analyze the Mr.
X letters.
In rebuttal, responding to government counsel’s
argument that the defense could not cite a case
supporting its motion, civilian defense counsel
referred to the earlier state proceedings in which the
trial court granting defense expert access to
evidence obtained during the original investigation
but not otherwise tested. The defense did not argue
for permission to submit matters ex parte, instead
relying on its brief. Aside from the declarations
described above, the defense offered no matters with
its motion indicating the government’s forensic
analysis in this case was faulty.

122a
The military judge denied the defense motion on
13 October 2009, finding and concluding inter alia:
The defense request amounts to a request for the
court to reconsider its [11 May 2009 ruling] which,
in part, denied expert assistance to analyze and test
certain items. This defense motion also expands
upon the prior defense motion...and now includes all
the items of evidence set out in [Mr. LR’s
declaration]. . . .
The defense has access to all the evidence set out
in [Mr. LR’s declaration]. What defense is more
specifically requesting is for the court to order the
government to fund a defense expert to analyze the
evidence in [Mr. LR’s declaration] in an effort to
develop a potential DNA profile of the person or
persons who were the contributors of biological
matter on the evidence in an effort to identify the
actual perpetrator(s). It is unclear how a specific
person could be identified without comparing the
results to a known DNA sample. There is no proffer
that the test results would indicate when the
evidence which the defense requests to be analyzed
had been left in the house rented by the [E] family.
The accused has the right to necessary expert
assistance. He does not have the right to
unrestricted expert assistance. See United States v.

123a
Gray, 51 M.J. 1 (C.A.A.F. 1999) and United States v.
Garries, 22 M.J. 288 (C.M.A. 1986).
Under Rule for Court Martial 701(a)(2)(A) the
government shall permit the defense to inspect inter
alia tangible objects “which are within the
possession, custody, or control of military
authorities, and which are material to the
preparation of the defense or are intended for use by
the trial counsel as evidence in the prosecution casein-chief at trial, or were obtained from or belong to
the accused.”
The defense has had the opportunity to examine
and conduct independent DNA testing on the
physical, linchpin, evidence the government intends
to offer at trial. See United States v. Walker, 66 M.J.
721 (N.M. Ct. Crim. App. 2008), United States v.
McAllister, 55 M.J. 270 (C.A.A.F. 2001), and United
States v. McAllister, 64 M.J. 248 (C.A.A.F. 2007).
The government has previously tested some of
the requested items. The results of those tests
conducted by the government experts exclude the
accused as the contributor of any biological matter
on that evidence. Those test results are, therefore,
exculpatory for the accused. While the government
indicates that it does not intend to use those items

124a
in its case-in-chief, the defense may use those items
and test results in its case. The defense has not
shown how further testing of items which are
already exculpatory for the accused is material to
the preparation of the defense.
The other items requested by the defense to be
analyzed by its own experts which were not
previously tested by government experts are
necessarily exculpatory for the accused without any
further testing because the trial counsel are
precluded from arguing those non-tested items
incriminate the accused in anyway. The defense has
not shown how testing of those items which are
already exculpatory for the accused is material to
the preparation of the defense.
The defense cites no authority for the position
that the accused is entitled to government funded
expert assistance to analyze items which are already
established as exculpatory. The defense has not met
its burden to show why it is necessary for the court
to order the government to fund DNA analysis on
the requested items. Accordingly, the defense
motion is denied. (Internal paragraph markings
omitted).
“We review a military judge’s decisions on
requests for expert assistance for abuse of

125a
discretion.” McAllister, 55 M.J. at 275 (citing United
States v. Short, 50 M.J. 370, 373 (C.A.A.F. 1999),
cert. denied, 528 U.S. 1105, 120 S. Ct. 843, 145 L. Ed.
2d 712 (2000)). In McAllister, DNA analysis of
genetic material taken from a victim’s fingernails
became the government’s “linchpin” evidence, but
the accused was denied the opportunity to subject it
to renewed testing by a competent defense expert.
Relying on the principle that an accused “must
demonstrate the necessity for” expert assistance, our
superior court concluded the trial judge abused his
discretion by denying the requested testing. Id. at
275 (quoting United States v. Garries, 22 M.J. 288,
291 (C.M.A. 1986), cert. denied, 479 U.S. 985, 107 S.
Ct. 575, 93 L. Ed. 2d 578 (1986)).
We distinguish appellant’s case from McAllister,
for the military judge here granted the defense
request to facilitate renewed testing on the only
forensic evidence which linked appellant to the
murder scene. In other words, his decision was
McAllister-compliant. Appellant urged at trial and
renews the argument on appeal that McAllister is
not limited to an accused’s opportunity to examine
and test inculpatory evidence; instead, appellant
insists McAllister reinforces the right to do so with
all evidence when it will aid the preparation of the
defense. We agree in principle, but appellant’s case

126a
causes us to recall the fundamental showing he must
make in requesting expert assistance: “that a
reasonable probability exists that (1) an expert
would be of assistance to the defense and (2) that
denial of expert assistance would result in a
fundamentally unfair trial.” United States v. Lloyd,
69 M.J. 95, 99 (C.A.A.F. 2010) (quoting United
States v. Freeman, 65 M.J. 451, 458 (C.A.A.F.
2008)).15
Appellant’s case is more analogous to Lloyd,
where defense counsel requested expert assistance
in blood spatter analysis, in order to defend a service
member charged in connection with a bar fight
involving four other people. By fight’s end, three of
them had stab wounds, and Lloyd, whose shirt bore
multiple blood stains, was charged as the culprit.
After the convening authority denied the defense
request for expert assistance, the defense renewed

15 The

first factor involves a more specific three-part analysis:
(1) why the expert is needed; (2) what the expert would
accomplish for the accused; and, (3) why defense counsel is
unable to gather and present the evidence that the expert
would be able to develop. United States v. Gonzalez, 39 M.J.
459, 461 (C.M.A. 1994).

127a
the request with the military judge, writing, inter
alia:
Depending on a number of factors
which the defense intends to pursue
through an expert, blood may spatter a
significant distance from a stab wound.
For this reason, presence of an alleged
victim’s blood on the clothing may be
far less significant than intuition, or
even theories the government intends
to explore, suggests. To mount an
effective defense, the defense must
understand the physics of bloodstain
patterns to either rule out or present
such a theory. This is crucial to testing
the government’s theory of the case and
for the presentation of evidence on
behalf of SrA Lloyd.
Id. at 98.
Affirming the service appellate court’s decision,
our superior court observed, “[d]ue to the different
factual circumstances, particularly the fact that the
evidence at issue implicated the ‘linchpin’ of the
government’s case, McAllister I lends little support
for Lloyd’s position.” Id. at 100.

128a
Considering the defense’s decision here not to
proffer specific alternate theories in this case—
contrast the defense approach in Lloyd, including
specifically naming another person as the one
potentially responsible for the stab wounds—we
conclude McAllister lends even less support.
Appellant only offered the general hypothesis that
additional forensic testing could potentially disclose
a DNA profile, an investigative lead which could
again potentially lead to identifying another person
who was perhaps in the E family home at some
unknown point in time. We share the position which
our superior court described under the unique
factual circumstances in Gray: “In our view,
appellant has confused his right to necessary
investigative assistance with an unrestricted right
to search for any evidence which might be relevant
in his case.” Gray, 51 M.J. at 31 (Emphasis in
orginal.). We conclude the military judge was well
within the bounds of reasonable discretion in
denying the defense request to examine and test
items of evidence beyond those described in his 11
May 2009 order.

V. THE MILITARY JUDGE ABUSED HIS
DISCRETION
WHEN
HE
DENIED
PRODUCTION
OF
NECESSARY
AND

129a
RELEVANT
WITNESSES
WHO
WERE
CRITICAL TO A THIRD PARTY CULPABILITY
DEFENSE.
On 13 January 2010, the defense moved the trial
court to compel production of Mr. WHH, Mr. GS, and
Ms. MK. The motion proffered the following:
[Mr. WHH] - Will testify he lived on
Hawfield Drive with [Mr. GS], near the
[KE] residence. Stated in previous
interview that scratches on his face
around the time of the murders were as
a result of a single black male trying to
steal his bicycle, which differs from
what he told his girlfriend. Moved from
Fayetteville shortly after the murders.
Refused to give hair, fingerprint, and
handwriting samples in 1989. Written
summaries of witness interviews from
Mr. [WHH] are attached as Enclosure
9.16
[Ms. MK] - Will testify to the following:
She was a Winn-Dixie employee and
16 The

enclosure is comprised of multiple summaries of
conversations between law enforcement investigators and Mr.
WHH in the summer of 1989.

130a
she dated [Mr. WHH] in 1985 and,
around the time of the [E family]
murders, [Mr. WHH] had scratches on
his face. He told her that “two or three
black guys jumped him and beat him
up.” He later denied ever having the
scratches. [Mr. WHH] had financial
problems at the time of the murders
and asked to be transferred to Raleigh,
NC shortly after the murders. A
written summary of a witness
interview from Ms. [MK] is attached as
Enclosure 5.17
[Mr. GS] - Roommate of [Mr. WHH]
and owner of a light-colored work van
that resembled one seen outside of the
[E family] home on the night of the
murders.
On 20 January 2010, the military judge
held an Article 39(a), UCMJ, session to
17 The

enclosure is comprised of a single summary of a
conversation between law enforcement investigators and Ms.
MK in the summer of 1989. The summary does not indicate, as
suggested in the motion, that Mr. WHH denied having
scratches; however, the defense did state at the motion hearing
that the defense team had also spoken with her.

131a
address, inter alia, this defense motion.
Asked to explain the need for Ms. MK’s
testimony, the defense indicated she
would “emphasize the inconsistency
over time that [Mr. WHH has] said
different things.” The military judge
and defense counsel had the following
exchange:
MJ: I assume that your position is that
Mr. [WHH] is a suspect?
IMC: It is.
MJ: And that’s why you want Ms. [MK]
to testify about Mr. [WHH] because you
think he’s a suspect?
IMC: Yes, Your Honor. And you asked
me my reply regarding the DNAexclusion argument? I would note that
the DNA is just one piece of forensic
evidence and that, in the defense’s
view, it does not identify who the killer
was in this case.
MJ: OK. And how do you come to the
conclusion that Mr. [WHH] is a
suspect?

132a
IMC: It again, sir, is because of
proximity-MJ: What, what’s the proximity? You
say around the time. I don’t know what
that means.
IMC:
With--okay--I
was
proximity in terms of location.

going

MJ: Okay.
IMC: Okay. Let me give you both, Your
Honor.
MJ: But you said around the times Mr.
[WHH] had scratches on his face. I
don’t know what around the time
means. That could be weeks or it could
be months. I don’t know what that
means.
IMC: Well, the statement from [Ms.
MK] is that she recalls it happening
around that time, and I don’t have days
or weeks. But that’s what her
recollection is, that she recalls the time
of the [E family] murders and that at
that time or around that time that he
had scratches. He had various

133a
explanations and then later denied
that the scratches ever took place.
MJ: Well, how does that make him a
suspect of three murders?
IMC: Because the defense anticipates
there will be some conversation and
testimony in the government’s case
regarding the violence at the murder
scene and that wounds to your face
certainly are relevant in contrast to
Master Sergeant Hennis who the next
day is at a PT run and has no scratches,
no signs of distress, no physical signs
whatsoever.
MJ: So anybody in or around May 1985
who had scratches on his face would be
a suspect?
IMC: Well, there’s more, Your Honor.
[. . .]
IMC: [I]t’s in the proffer regarding the
van. It’s in the proffer of Mr. [GS] that
he was the owner of such a van. Mr.
[GS] was [Mr. WHH’s] roommate.
[. . .]

134a
MJ: How does that make Ms. [MK] a
necessary witness?
IMC: . . . Ms. [MK] is a witness as to the
scratches she observed and what [Mr.
WHH] told her regarding those
scratches and how that story changed.
Regarding the defense request to
compel production of Mr. WHH, the
following exchange occurred:
MJ: Okay. Mr. [WHH]? Anything to
add there, Defense?
IMC: Not beyond what we’ve already
discussed, Your Honor.
MJ: It’s your theory that he’s a suspect?
IMC: Yes, sir.
[. . .]
MJ: What about the government’s
proffer that the DNA evidence or the
DNA sample from Mr. [WHH] excludes
him as the donor of the semen?
IMC: Your Honor, there is--again, the
defense would argue that that is not
the only bit of relevant forensic
evidence in this case. There is forensic

135a
evidence at the crime scene--at the
crime scene, but has never been linked
and indeed the accused has been
excluded as a link.
MJ: Does it link to Mr. [WHH]?
IMC: Mr. [WHH] to my knowledge has
never been tested on fingerprints.
MJ: So it doesn’t link to Mr. [WHH]?
IMC: I don’t know, Your Honor.
MJ: And you say he moved from
Fayetteville, shortly after the murders.
What does that mean?
IMC: I beg-MJ: Last time you said shortly was
months. So I don’t know what this
means.
IMC: Let me double check, Your Honor.
I believe its months again.
Regarding the defense request to
compel production of Mr. GS, the
following exchange occurred:
MJ: Mr. [GS]?

136a
IMC: We’ve addressed, Your Honor, the
defense’ belief that Mr. [GS] is relevant
because, as a neighbor of the [E family]
and a roommate of Mr. [WHH], he
owned a light-colored van that matches
the description that was seen close to
outside the [E family] residence.
MJ: What do you expect him to say?
You haven’t given a synopsis of what
you expect him to say, just that you say
he’s a roommate.
IMC: . . . He will testify that he was a
roommate of [Mr. WHH] and that he
was the owner of a light-colored van.
MJ: And you expect--because you think
Mr. [GS] is a suspect?
IMC: I don’t know whether we believe
him to be a suspect.
MJ: Well, didn’t--what about the
government’s DNA testing that
excludes Mr. [WHH] as a donor of the
semen?
IMC: Well, again, Your Honor, we’re
rehashing old ground but the DNA test,
in the defense’s view, is not dispositive.

137a
In its attempt to put on a defense for
Master Sergeant Hennis, it’s going to
introduce relevant evidence and argue
all reasonable inferences regarding
that evidence. Whether or not Mr.
[GS’s] DNA evidence matches that-MJ: Well, not Mr. [GS’s]--Mr. [WHH’s].
IMC: I apologize. Are we going back to
Mr. [WHH], sir?
MJ: No, but you said that Mr. [GS] is
not a suspect. You said that he was a
roommate of Mr. [WHH]?
IMC: Yes, sir.
MJ: And that he owned a light-colored
van that apparently resembled one
seen outside the [E family] residence.
You have indicated that Mr. [WHH]
perhaps is a suspect?
IMC: Yes, sir.
MJ: The government proffers that the
DNA sample from Mr. [WHH] excludes
him as a donor of the semen.
IMC: And as we discussed with the
discussion of Mr. [WHH], there’s other

138a
forensic evidence to the defense’s
knowledge -- including fingerprints,
hair analysis--that has not excluded
Mr. [WHH]. And again, Your Honor,
the relevance is that the defense does
not buy the government’s version that
even if there is a DNA match with
Master Sergeant Hennis, that is
dispositive of who is the murderer.
On 26 January 2010, the military judge
denied the portions of the defense
motion regarding Ms. MK, Mr. WHH,
and Mr. GS, and ruled as follows:
[Mrs. MK]: She will testify that she
dated Mr. [WHH] in 1985 and he had
scratches on his face around the time of
the [KE] murders. While the defense
theory is that Mr. [WHH] is a suspect
in the [KE] murders, the defense
proffered no evidence to support that
theory or that Mr. [WHH] in any way
resembles the person seen near the [E
family] residence at the time of the
murders. The DNA sample provided by
Mr. [WHH] excludes him as the donor
of the semen found at the crime scene.
The defense made no proffer that the

139a
DNA testing is inaccurate. The defense
has failed to show that Ms. [MK] is a
relevant and necessary witness. The
motion to order the production of Ms.
[MK] is denied.
[Mr. WHH]: His testimony is related to
Ms. [MK’s] testimony. Mr. [WHH] had
scratches on his face around the time of
the [E family] murders. While the
defense theory is that Mr. [WHH] is a
suspect in the [E family] murders, the
defense proffered no evidence to
support that theory or that Mr. [WHH]
in any way resembles the person seen
near the [E family] residence at the
time of the murders. The DNA sample
provided by Mr. [WHH] excludes him
as the donor of the semen found at the
crime scene. The defense made no
proffer that the DNA testing is
inaccurate. The defense has failed to
show that Mr. [WHH] is a relevant and
necessary witness. The motion to order
the production of Mr. [WHH] is denied.
[Mr. GS]: Mr. [GS] was the roommate
of Mr. [WHH]. He will testify that Mr.
[WHH] owned a light-colored work van

140a
similar to one seen outside the [E
family] home on the night of the
murders. While the defense theory is
that Mr. [WHH] is a suspect in the [E
family] murders, the defense proffered
no evidence to support that theory or
that Mr. [WHH] in any way resembles
the person seen near the [E family]
residence at the time of the murders.
The DNA sample provided by Mr.
[WHH] excludes him as the donor of
the semen found at the crime scene.
The defense has made no proffer that
the DNA testing is inaccurate. Since
there is no evidence connecting Mr.
[WHH] to the crime scene, the
relevance of the color of his van is not
the least bit clear. The motion to order
the production of Mr. [GS] is denied.
In United States v. McElhaney, our superior
court succinctly re-stated the standards regarding
production of witnesses:
Article 46, UCMJ, 10 [U.S.C.] § 846, provides all
parties to a court-martial with “equal opportunity to
obtain witnesses and other evidence in accordance
with such regulations as the President may

141a
prescribe.” Under [R.C.M.] 703(b)(1), Manual, supra,
“each party is entitled to the production of any
witness whose testimony on a matter in issue on the
merits or on an interlocutory question would be
relevant and necessary.” See also [Military Rule of
Evidence] 401. A military judge’s ruling on a request
for a witness is reviewed for abuse of discretion.
United States v. Rockwood, 52 [M.J.] 98, 104
([C.A.A.F.] 1999). The decision on a request for a
witness should only be reversed if, “on the whole,”
denial of the defense witness was improper. United
States v. Ruth, 46 [M.J.] 1, 3 ([C.A.A.F.] 1997). We
will not set aside a judicial denial of a witness
request “unless [we have] a definite and firm
conviction that the [trial court] committed a clear
error of judgment in the conclusion it reached upon
a weighing of the relevant factors.” United States v.
Houser, 36 [M.J.] 392, 397 ([C.M.A.] 1993), quoting
Judge Magruder in The New York Law Journal at 4,
col. 2 (March 1, 1962).
Factors to be weighed to determine whether
personal production of a witness is necessary
include: the issues involved in the case and the
importance of the requested witness to those issues;
whether the witness is desired on the merits or the
sentencing portion of the case; whether the witness’s
testimony would be merely cumulative; and the

142a
availability of alternatives to the personal
appearance of the witness, such as depositions,
interrogatories, or previous testimony. United States
v. Tangpuz, 5 [M.J.] 426, 429 ([C.M.A.] 1978); Ruth,
supra at 4. Timeliness of the request may also be a
consideration
when
determining
whether
production of a witness is necessary. R.C.M.
703(c)(2)(C); United States v. Reveles, 41 [M.J.] 388,
394 ([C.A.A.F.] 1995).
54 M.J. 120, 126-27 (C.A.A.F. 2000).
We understand a person accused of a crime may
obtain production of relevant evidence tending to
show that another person may have committed the
charged crime instead. The right to obtain and
present such “third party culpability” evidence is an
important component of an accused’s right to
present a defense. The military judge determined
the proffered testimony was not relevant and
necessary. Relying heavily on the treatment of third
party culpability evidence in Holmes vs. South
Carolina, 547 U.S. 319, 327, 126 S. Ct. 1727, 164 L.
Ed. 2d 503 (2006), appellant now asserts the
military judge’s determination was unsound. We
disagree.

143a
In Holmes, the defendant was convicted of, inter
alia, murder and sentenced to death. At trial, the
defendant was prohibited from offering evidence
from multiple witnesses who would have testified
about seeing another named person in the victim’s
neighborhood on the morning she was attacked. The
defendant also sought to call four additional
witnesses who would either: testify that the same
third person admitted the defendant was actually
innocent; or, testify that the same third person
admitted he was the actual culprit. Arrayed against
the defendant, however, were several items of
inculpatory forensic evidence, buttressed in multiple
respects by DNA analysis.
Affirming the trial court’s decision to exclude the
third party culpability evidence, South Carolina’s
Supreme Court held “where there is strong evidence
of an appellant’s guilt, especially where there is
strong forensic evidence, the proffered evidence
about a third party’s alleged guilt does not raise a
reasonable inference as to the appellant’s own
innocence.” Holmes, 547 U.S. at 324 (citing State v.
Holmes, 361 S.C. 333, 342-43, 605 S.E.2d 19, 23-24
(2004)).
Reversing in a unanimous opinion, the Supreme
Court provided examples of unconstitutional

144a
evidentiary rules, stricken because of their arbitrary
nature and effect. The court continued to describe
the balanced approach which trial judges must use
in ruling on admissibility of third party culpability
evidence:
A specific application of this principle
is found in rules regulating the
admission of evidence proffered by
criminal defendants to show that
someone else committed the crime with
which they are charged. See, e.g., 41
C.J.S., Homicide § 216, pp 56-58 (1991)
(“Evidence tending to show the
commission by another person of the
crime charged may be introduced by
accused when it is inconsistent with,
and raises a reasonable doubt of, his
own guilt; but frequently matters
offered in evidence for this purpose are
so remote and lack such connection
with the crime that they are excluded”);
40A Am. Jur. 2d, Homicide § 286, pp
136-138 (1999) (“[T]he accused may
introduce any legal evidence tending to
prove that another person may have
committed the crime with which the
defendant is charged . . . . [Such

145a
evidence] may be excluded where it
does not sufficiently connect the other
person to the crime, as, for example,
where the evidence is speculative or
remote, or does not tend to prove or
disprove a material fact in issue at the
defendant’s trial” (footnotes omitted)).
Such rules are widely accepted, and
neither petitioner nor his amici
challenge them here.
Id. at 327.
Finding the state supreme court’s approach
arbitrary, illogical and, therefore, unconstitutional,
the court wrote:
The rule applied in this case is no more
logical than its converse would be, i.e.,
a rule barring the prosecution from
introducing evidence of a defendant’s
guilt if the defendant is able to proffer,
at a pretrial hearing, evidence that, if
believed, strongly supports a verdict of
not guilty. In the present case, for
example, petitioner proffered evidence
that, if believed, squarely proved that
[a named third person], not petitioner,
was the perpetrator. It would make no

146a
sense, however, to hold that this proffer
precluded the prosecution from
introducing its evidence, including the
forensic evidence that, if credited,
provided strong proof of petitioner’s
guilt.
Id. at 330.
Appellant now describes the military judge as
falling “into the same trap [as] in Holmes, excluding
the introduction of evidence simply because it did
not necessarily square on all fours with a piece of the
forensic evidence in the case.” Our assessment is
different. The military judge considered that DNA
analysis excluded Mr. WHH as the source of sperm
obtained from one of the murder victims, but this
consideration was one of several. Had the military
judge considered only this DNA result, he would
have erred under Holmes. However, he went beyond
the government’s evidence, pressing defense counsel
for any information that could fairly be described as
surpassing speculation and constituting probative
evidence to support a theory that Mr. WHH, worthy
of suspicion as a culpable third party in the defense’s

147a
estimation,18 was responsible for the murders.
Holmes is an important reminder of what should be
a self-evident principle—the admissibility of defense
evidence cannot depend on the admissibility of
government evidence. However, it leaves intact an
appellant’s burden to establish the relevance and
necessity of a requested witness’s testimony. The
military judge’s conclusion that the defense did not
fulfill this burden was reasonable and not an abuse
of discretion.

VI. THE MILITARY JUDGE ERRED IN
DENYING THE DEFENSE A NEW TRIAL
PREDICATED ON THE GOVERNMENT’S
FAILURE TO DISCLOSE THE NORTH
CAROLINA
“SWECKER/WOLF”
REPORT,
IMPEACHMENT EVIDENCE REQUESTED
PURSUANT TO A SPECIFIC DEFENSE

18 Interestingly,

the defense team suggested a named nearby
neighbor, not Mr. WHH, possessed motive and opportunity to
commit the murders. According to another theory, a named
person, who was involved in illegal drugs with one of the E
family’s babysitters, could have exacted vengeance upon the E
family in retaliation for a botched drug deal involving the
babysitter. The defense attributed neither of these motives, or
any, to Mr. WHH.

148a
DISCOVERY REQUEST THAT WOULD HAVE
LIKELY
CAST
DOUBT
ON
THE
PROCEEDINGS.
The panel sentenced appellant to death on 15
April 2010. On 15 October 2010, the defense filed a
“Motion for Appropriate Relief - Motion for a
Mistrial/Motion for a New Trial and Request for
Post-Trial 39(A).” The basis for the motion was a
report released on 18 August 2010 by the North
Carolina
Attorney
General,
entitled
“An
Independent Review of the SBI Forensic
Laboratory” (“Swecker/Wolf report”). The motion
cited the report’s finding that Ms. BBD
“misidentified or incompletely discussed blood
evidence in twenty-four (24) cases.” It also states
that “[t]his information was not provided to the
Defense prior to, or during, trial in U.S. v. Hennis.”
The military judge held a post-trial Article 39(a),
UCMJ, session on 21 January 2011 and heard the
parties’ arguments on the motion. He ruled on 27
January 2011, finding:
a. Ms. [BBD] worked in the Forensic
Biology Section of the State Bureau of
Investigation (SBI) Crime Laboratory
where she analyzed certain evidence in
the course of the investigation in this

149a
case. Ms. [BBD] was qualified at trial
as a Government expert in forensic
serology. Ms. [BBD’s] testimony
included such matters as blood
evidence, blood samples, vaginal
swabs, luminol testing, and luminol
photographs.
b. The North Carolina Attorney
General commissioned an independent
review
of
the
activities
and
performance of the Forensic Biology
Section of the SBI Crime Laboratory in
March, 2010, by Mr. Chris Swecker and
Mr. Michael Wolf, hereinafter referred
to as the Swecker/Wolf report. The
North Carolina Attorney General
commissioned the independent review
based on a case completely unrelated to
the Hennis case. The Swecker/Wolf
report focused on the policies,
procedures, and practices of the
Forensic Biology Section of the SBI
Crime Laboratory between January
1987 and January 2003. The completed
Swecker/Wolf report was released on
18 August 2010. While Ms. [BBD] and
her work product were not the basis for

150a
commissioning
the
independent
review, Ms. [BBD’s] work was reviewed
by the commission because she had
been an employee at the SBI Crime
Laboratory during a portion of the time
on which the Swecker/Wolf report
focused its review of the SBI Crime
Laboratory.
c. The Swecker/Wolf report, attached to
AE 531, reviewed cases unrelated to
the Hennis investigation. The report
speaks for itself so there is no need to
summarize
its
findings
or
recommendations. However, it is
important to note paragraph 9 in its
Summary Findings: “No evidence was
found that laboratory files or reports
were concealed or evidence deliberately
suppressed. Anyone with access to the
lab
notes
could
discover
the
discrepancies and omissions in this
report.” The Defense had full access to
all of the lab files and reports done by
Ms. [BBD] in her evaluation of
evidence in the Hennis investigation.
d. Ms. [BBD] testified that her
analysis of the blood evidence and

151a
blood samples obtained during the
investigation did not connect MSG
Hennis to the crime scene. Ms. [BBD]
testified she did not detect any blood on
any evidence seized from MSG Hennis’
car or from his quarters. Ms. [BBD]
testified she detected a blood smear on
a wall at approximately her shoulder
height in the hallway of the crime
scene. Ms. [BBD] is considerably
shorter than MSG Hennis. Ms. [BBD]
testified she detected a partial print at
the crime scene using luminol testing.
It was beyond her expertise to
determine the shoe size of the print. A
Defense expert testified, in his opinion,
the shoe print was smaller than the
shoe size of MSG Hennis. Ms. [BBD’s]
testimony was actually exculpatory for
MSG Hennis. A defense counsel, in
effect, conceded this during closing
argument when he said that,
concerning blood evidence, “[Ms. BBD]
could have been a witness for the
defense.” ROT at 6564.
e. The Defense had evidence available
at trial to use in an attempt to impeach

152a
Ms. [BBD] based on her work in an
unrelated case. See AE 119. The
Defense chose not to use that potential
impeachment evidence. The court
reasonably infers the Defense made a
tactical decision not to attempt to
impeach Ms. [BBD] because doing so
would likely have undermined the
Defense argument that she “could have
been a witness for the defense” because
of the exculpatory nature of her expert
testimony.
f. There is no allegation the Defense
was denied access to any of the
laboratory files, reports, or test results
done by Ms. [BBD] in the Hennis case.
Unlike some of the files reviewed in the
Swecker/Wolf report, it is important to
note that the defense had access to all
of Ms. [BBD’s] laboratory files and
notes concerning the testing she
conducted in the Hennis investigation.
Ms. [BBD] did not testify concerning
any of the DNA analysis done in this
case as she is not a DNA expert. While
Ms. [BBD] did testify that a vaginal
slide contained sperm, the presence of

153a
sperm was corroborated by several
other expert witnesses. The Defense
had its own forensic experts. It is
significant that the Defense has not
alleged that Ms. [BBD’s] analysis of the
evidence in this case was wrong or
misleading.
g. The evidence concerning Ms. [BBD’s]
work product in other unrelated cases
discovered after the trial is not
substantive evidence addressing the
guilt or innocence of MSG Hennis. This
recently obtained evidence may have
been used for what value it may have
served as potential impeachment of
Ms.
[BBD].
Assuming,
without
deciding, the matter contained in the
Swecker/Wolf report was subject to
discovery, the value of the recently
obtained
potential
impeachment
evidence is, at best, de minimis by
itself, and even less valuable when
considered in connection with the
exculpatory nature of Ms. [BBD’s]
testimony and all other pertinent
evidence.

154a
h. A military judge may declare a
mistrial, as a matter of discretion,
when such action is manifestly
necessary in the interest of justice
because circumstances cast substantial
doubt on the fairness of the
proceedings. See R.C.M. 915(a). The de
minimis value of the recently obtained
potential impeachment evidence does
not cast substantial doubt on the
fairness of the proceedings. A mistrial
is viewed as a drastic remedy reserved
for those cases in which it is necessary
to avoid a miscarriage of justice. See
United States v. Garces, 32 M.J. 345
(C.M.A. 1991); [United States] v.
Fisiorek, 43 M.J. 244 (C.A.A.F. 1995).
The court specifically finds the lack of
this recently obtained potential
impeachment evidence of de minimis
value for use at trial was harmless
beyond a reasonable doubt and did not
cause a miscarriage of justice.
Accordingly, the motion for a mistrial is
denied.
i. The defense moves for a new trial in
the event the court denies the motion

155a
for a mistrial. There is a three part test
to be used to determine if a request for
a new trial should be granted. See
United States v. Bacon, 12 M.J. 489
(C.M.A. 1982); United States v.
Williams, 37 M.J. 352[,] 356 (C.M.A.
1993). Assuming, without deciding, the
defense meets the first two prongs of
the test that is, the files from Ms.
[BBD’s]
unrelated
cases
“were
discovered since the trial” and they
“could not have been discovered by the
[accused] at the time of trial by the
exercise of due diligence,” the defense
fails to meet the third prong of the test
which is this “newly discovered
evidence, if considered by the courtmartial in light of all other pertinent
evidence, would probably produce a
substantially more favorable result for”
the accused. See United States v.
Williams, supra at 356.
j. The Defense cites United States v.
Webb, 66 M.J. 89 (C.A.A.F. 2008) in
support of its motion. The potential
impeachment evidence of the observer
for the urinalysis test in Webb, whose

156a
testimony was inculpatory, was much
more
significant than potential
impeachment evidence for Ms. [BBD]
whose testimony was exculpatory for
the accused. It is important to note that
while the court in Webb found that the
trial judge did not abuse her discretion
in ordering a new trial, the court in
Webb did not find that a new trial was
actually
required.
This
court
specifically finds the de minimis value
of the recently obtained potential
impeachment evidence concerning Ms.
[BBD’s] work product in cases
unrelated to the accused would not
have probably produced a substantially
more favorable result for the accused in
light of all other pertinent evidence
presented at trial which includes, but is
not limited to, the results of the DNA
testing done by experts other than Ms.
[BBD], and particularly in light of the
exculpatory nature of Ms. [BBD’s]
testimony. Furthermore, lack of this
recently
obtained
potential
impeachment evidence for use at trial
did not prejudice MSG Hennis. If

157a
anyone concludes there was any
prejudice to MSG Hennis, any alleged
prejudice was harmless beyond a
reasonable doubt. Accordingly, the
motion for a new trial is denied.
We review a military judge’s ruling on a petition
for a new trial for an abuse of discretion. United
States v. Rios, 48 M.J. 261, 268 (C.A.A.F. 1998). In
United States v. Johnson, our superior court
restated the standards for evaluating petitions for
new trial:
Article 73, UCMJ, 10 U.S.C. § 873
(2000), allows petitions for new trials
“on the grounds of newly discovered
evidence or fraud on the court.”
Implementing this UCMJ provision,
Rule for Courts-Martial (R.C.M.)
1210(f)(2) [] provide[s] . . . :
(2) Newly discovered evidence. A new
trial shall not be granted on the
grounds of newly discovered evidence
unless the petition shows that:
(A) The evidence was discovered after
the trial;

158a
(B) The evidence is not such that it
would have been discovered by the
petitioner at the time of trial in the
exercise of due diligence; and
(C) The newly discovered evidence, if
considered by a court-martial in the
light of all other pertinent evidence,
would probably produce a substantially
more favorable result for the accused.
61 M.J. 195, 198 (C.A.A.F. 2005).
The military judge’s findings of fact were well
supported by the evidence and the parties’
submissions on the motion, including the
Swecker/Wolf report. We consider Ms. BBD’s
testimony predominantly exculpatory; as the main
witness regarding the presence or absence of blood,
she testified about the lack of such evidence linking
appellant to the crime. Though her testimony
included a description of intact spermatozoa on
forensic slides derived from Mrs. KE’s autopsy, hers
was only one of multiple similar findings regarding
that evidence. Assuming arguendo the Swecker/Wolf
report would have achieved appellant’s desired
effect of impeaching Ms. BBD, we consider the
implications: the exculpatory nature of her
testimony diminished, to appellant’s detriment; and,

159a
the inculpatory nature of her testimony perhaps
somewhat diminished, given the multiple witness
accounts of the presence of spermatozoa and
resultant DNA analysis. The military judge
remained well within the bounds of reasonable
discretion in denying appellant’s motion for a new
trial, for the newly discovered evidence did not bring
with it the “[probability to] produce a substantially
more favorable result for the accused.” Id.

VII — A. THE MILITARY JUDGE’S DENIAL
OF DEFENSE COUNSEL’S PROPOSED VOIR
DIRE AND THE SUBSEQUENT LIMITATION
OF THE SCOPE AND NATURE OF VOIR DIRE
DEPRIVED
MSG
HENNIS
OF
HIS
CONSTITUTIONAL RIGHT IN A DEATH
PENALTY CASE TO EXERCISE HIS RIGHT
TO CHALLENGE FOR CAUSE PROSPECTIVE
AND BIASED PANEL MEMBERS AND
EXERCISE PEREMPTORY CHALLENGES.
In his brief, appellant asserts:
Throughout the individual voir dire of
the prospective panel members,
defense counsel attempted to use the
Colorado Method of Capital Voir Dire
(Colorado Method), the most widely

160a
accepted method of voir dire in a capital
case, but was repeatedly undercut by
the
military
judge’s
frequent
interruptions, inconsistencies in his
rulings on the “appropriateness” of voir
dire
questions,
attempted
rehabilitation of panel members, and
ultimately, the truncation of the
defense voir dire. (Footnote omitted).
We appreciate appellate defense counsel’s
citation to Matthew Rubenstein’s, Overview of the
Colorado Method of Capital Voir Dire,19 for it offers
an excellent survey of the technique. However, when
we compare roughly 2,000 pages of voir dire
transcript in this case to the method’s principles,
appellant’s argument is unpersuasive, for it is
difficult to imagine a defense voir dire more strictly
adherent to the Colorado Method. We recognize the
Colorado Method is not the standard for assessing
the sufficiency of voir dire; we briefly focus on it,
however, to illustrate our conclusion after reviewing
this record that the military judge’s involvement did
not prevent the defense from using it.

19 34-Nov

Champion 18, Capital Resource Center (2010).

161a
The right to voir dire is a component of the
constitutional right an impartial jury, which the
Supreme Court announced in Wainwright v. Witt:
“the proper standard for determining when a
prospective juror may be excluded for cause because
of his or her views on capital punishment . . . is
whether the juror’s views would ‘prevent or
substantially impair the performance of his duties
as a juror in accordance with his instructions and his
oath.’” 469 U.S. 412, 424, 105 S. Ct. 844, 83 L. Ed. 2d
841 (1985) (quoting Adams v. Texas, 448 U.S. 38, 45,
100 S. Ct. 2521, 65 L. Ed. 2d 581 (1980)). In Morgan
v. Illinois, our nation’s highest Court wrote of the
intertwined nature of the right to jury trial and voir
dire:
The Constitution, after all, does not
dictate a catechism for voir dire, but
only that the defendant be afforded an
impartial jury. Even so, part of the
guarantee of a defendant’s right to an
impartial jury is an adequate voir dire
to identify unqualified jurors.
504 U.S. 719, 729, 112 S. Ct. 2222, 119 L. Ed. 2d 492
(1992) (citing Dennis v. United States, 339 U.S. 162,
171-72, 70 S. Ct. 519, 94 L. Ed. 734 (1950) and

162a
Morford v. United States, 339 U.S. 258, 259, 70 S.
Ct. 586, 94 L. Ed. 815 (1950)).
Appellant now asserts the military judge
arbitrarily intervened in voir dire and constrained
the defense from asking constitutionally-required
questions.20 We understand voir dire is important in

20 The

military judge allowed, inter alia, the following
questions during voir dire:
If evidence shows the accused committed the premeditated
murders of a mother and two of her daughters, would you
automatically vote to impose the death penalty?
If the accused--if you find the accused guilty of
premeditated murders of a mother and two of her
daughters, would you automatically vote to impose the
death penalty?
Can you fairly consider a life sentence if the evidence
shows the accused committed the premeditated murders of
a mother and two of her daughters?
Would you automatically reject a life sentence if the
evidence shows the accused committed the premeditated
murders of a mother and two of her daughters?
If you find the accused guilty, would you automatically
impose a death sentence no matter what the facts of this
case were?
Have you given much thought to the death penalty before
being notified as a court member? Can you fairly consider

163a
any panel case, particularly so in one with the
possibility of capital punishment. However, we do
not share appellant’s criticism of the military judge’s
involvement, mindful of his “responsibility to
remove prospective jurors who will not be able
impartially to follow the court’s instructions and
evaluate the evidence . . . .” Morgan, 504 U.S. at 730
(quoting Rosales-Lopez v. United States, 451 U.S.
182, 188, 101 S. Ct. 1629, 68 L. Ed. 2d 22 (1981)
(plurality opinion)). Further considering the
discretion with which trial judges are entrusted in
supervising voir dire, we conclude the military

all of the evidence before reaching your determination of a
sentence?
Can you fairly consider all of the sentencing alternatives,
if the accused were convicted of premeditated murder, to
include life and death?
What types of extenuation and mitigation evidence would
you want to see from the defense?
Would you automatically reject a life sentence for a
premeditated murder?
Do you believe the death sentence or death penalty must
be imposed for all premeditated murders?
Would you automatically reject a life sentence for
premeditated murder regardless of the facts and
circumstances in a case?

164a
judge’s regulation thereof was appropriate and not
an abuse of discretion.

VII — B. THE MILITARY JUDGE, BY FAILING
TO DISMISS THREE PANEL MEMBERS FOR
CAUSE BASED ON ACTUAL BIAS AND
IMPLIED
BIAS
MANIFESTED
BY
A
PREDISPOSITION TO ADJUDGE DEATH, AN
INELASTIC
OPINION
AGAINST
CONSIDERING MITIGATING EVIDENCE ON
SENTENCING, VISCERAL REACTIONS TO
THE CHARGED ACTS, PRECONCEIVED
NOTIONS OF GUILT, AND A BIAS TOWARD
DEFENSE COUNSEL DENIED MSG HENNIS A
FAIR TRIAL.
Appellant asserts the military judge erred in
denying his causal challenges against Lieutenant
Colonel (LTC) B, Major (MAJ) W and LTC W. Before
analyzing appellant’s arguments regarding each,
which analyses include rather lengthy excerpts from
their individual voir dire, we restate the relevant
legal principles associated with the right to an
impartial factfinder, “the sine qua non for a fair
court-martial.” United States v. Wiesen, 56 M.J. 172,
174 (C.A.A.F. 2001) (quoting United States v.
Modesto, 43 M.J. 315, 318 (C.A.A.F. 1995)).

165a
“The proper standard for determining when a
prospective juror may be excluded for cause because
of his or her views on capital punishment . . . is
whether the juror’s views would ‘prevent or
substantially impair the performance of his duties
as a juror in accordance with his instructions and his
oath.’” Morgan, 504 U.S. at 728 (quoting
Wainwright, 469 U.S at 424).
“Actual bias is personal bias that will not yield
to the military judge’s instructions and the evidence
presented at trial.” United States v. Woods, 74 M.J.
238, 243 (C.A.A.F. 2015) (quoting United States v.
Nash, 71 M.J. 83, 88 (C.A.A.F. 2012)). Our
evaluation of implied bias has a slightly different
focus, based on an “objective test” and “the
consideration of the public’s perception of fairness in
having a particular member as part of the courtmartial panel.” Woods, 74 M.J. at 243 (quoting
United States v. Peters, 74 M.J. 31, 34 (C.A.A.F.
2015)).
“A military judge’s ruling on a challenge for
cause is reviewed for an abuse of discretion. Military
judges are afforded a high degree of deference on
rulings involving actual bias. This reflects, among
other things, the importance of demeanor in
evaluating the credibility of a member’s answers

166a
during voir dire. By contrast, issues of implied bias
are reviewed under a standard less deferential than
abuse of discretion, but more deferential than de
novo.” Woods, 74 M.J. at 243 (quoting United States
v. Downing, 56 M.J. 419, 422 (C.A.A.F. 2002)).
“[T]he burden of establishing grounds for a
challenge for cause rests upon the party making the
challenge.” United States v. Wiesen, 57 M.J. 48, 49
(C.A.A.F. 2002) (citing R.C.M. 912(f)(3), United
States v. New, 55 M.J. 95, 99 (C.A.A.F. 2001); United
States v. Rolle, 53 M.J. 187, 191 (C.A.A.F. 2000);
United States v. Warden, 51 M.J. 78, 81 (C.A.A.F.
1999); and United States v. Giles, 48 M.J. 60, 63
(1998)). However, “military judges must follow the
liberal-grant mandate in ruling on challenges for
cause . . . .” Wiesen, 56 M.J. at 174 (quoting United
States v. Daulton, 45 M.J. 212, 217 (C.A.A.F. 1996)
and United States v. White, 36 M.J. 284, 287 (C.M.A.
1993)).
We now address seriatim the individual voir dire
and causal challenges of LTC B, MAJ W and LTC W.

167a
A. LIEUTENANT COLONEL B21

DC: One of the things that we had talked about
yesterday was, of course, a situation where if you
were to consider the case of a premeditated murder
of children and, in the case where there is a
premeditated murder that has been proven beyond
a reasonable doubt of children, that you indicated
that you would not consider life imprisonment to be
an appropriate punishment for the premeditated
murder of children . . . .
LTC B: Okay.
[. . .]
DC: . . . My understanding of your answer
yesterday was that in the case of premeditated
murder of innocent children, you believe that life
imprisonment was not an appropriate punishment
21 In

group voir dire, LTC B responded negatively when the
defense asked, “[D]o you agree with this statement if someone
is convicted of premeditated murder of children they should be
given the death penalty?” He then responded positively when
asked by defense counsel, “Do you agree with the statement
that life in prison is not really punishment for premeditated
murder of children?”

168a
for that crime, is that--am I misstating what you
said?
LTC B: No. You are not misstating me. That is
correct.
DC: Okay. And so I wanted to make sure that I
understood what was it about that situation that
caused you to have that belief?
LTC B: Well, I am a father first and foremost;
and I love my kids like most of us do.
DC: Certainly.
LTC B: And because kids bring a great deal of
innocence to their being, to take-to premeditate and
to actually take a child’s life is unforgiveable in my
mind.
DC: Certainly. And again, that’s all we are
asking for is what your personal beliefs are; and
again, nobody is criticizing that obviously. So, with
regard to that, the fact that it was--an innocent child
has been murdered and it was done by premeditated
murder, that just simply overrides anything else
with regards to the appropriateness of punishment
for children--appropriateness of the punishment of
death?

169a
LTC B: I would be willing to listen to any other
type of feedback. I have my personal belief, but that
doesn’t mean that I would necessarily strongly stand
on it from the standpoint of not listening to anything
else, but I would be willing to take other types of
information in the event that I am selected and there
are other panelists that have other opinions that
differ from mine.
DC: Okay. And I certainly respect that; but as I
understand you though it is that your belief is--as
you sit here, is that that is just--that life
imprisonment would not be an appropriate
punishment for someone who had with
premeditation killed innocent children, meant to do
it, did do it, killed innocent children, that just simply
wouldn’t be an appropriate punishment.
LTC B: As I sit here and I think about it, to be
honest with you, for someone who fits that category
to actually execute them or however way that they
are terminated--their life is terminated, it kind of
frees them from not having to think about it for the
rest of their lives-DC: Okay
LTC B: --as I think about it.

170a
[. . .]
TC: . . . Sir, as has been discussed already and
as I said yesterday when I was talking to the group,
the law in this case that will be given to you for
consideration at the end of the case will come from
the military judge. Do you understand that, sir?
LTC B: Yes.
[. . .]
TC: And so the military judge is going to tell you
at the end of this case that if a person is convicted of
premeditated murder, under the circumstances that
are presented in this case--if convicted of
premeditated murder by a unanimous vote, then
there are two possible sentences that you could
adjudge: one is confinement for life and the other is
the death penalty.
So with that understanding, sir, do you
understand that there are two choices that you
would have?
LTC B: Yes.
TC: Sir, will you be able to fairly and fully
consider both of those choices?
LTC B: Yes.

171a
TC: Sir, and in that consideration, will you be
able to consider not only the aggravating evidence
that is presented -- the facts of the case, the crimes-but also any mitigation, extenuating circumstances,
anything else that may be presented by the defense?
Will you be able to consider all of that, sir?
LTC B: Absolutely.
TC: And give full and fair consideration to all of
that?
LTC B: Yes.
TC: And, sir, you understand that, as far as the
timing of it, that you are not allowed to decide until
you have heard all of that evidence, to include the
mitigation and extenuation?
LTC B: I understand.
[. . .]
MJ: [Lieutenant Colonel B], you indicated that
you had learned of some--had learned of some things
from the media but had not paid much attention to
it. Can you set--will you be able to set that aside and
base your decisions based solely on what you hear in
the courtroom and the law as I instruct you and the
argument that you hear from counsel?

172a
LTC B: Yes, sir.
MJ: Okay. Now, with regards to some questions
by counsel, you indicated that--as the scenario put
forth to you by counsel with the premeditated
murder of young children, you indicated that life is
not appropriate. You also indicated that, sitting here
today, that imposing the death penalty may free that
person from having to think about that for the rest
of his life.
With those two statements, sir, if you believe
that life is not appropriate, does that mean that you
automatically have to vote for the death penalty if
you were to sit on a panel where two little girls were
the victims of premeditated murder?
LTC B: Sir, let me clarify. My initial--the
emotional portion within me as a father, I initially
said life wouldn’t be appropriate. Now, as I sat here
and I was thinking about it, I had also indicated that
to take someone’s life as a result of premeditation in
the murder would free them from having to be
reminded of it for the rest of their lives. So, simply
what I am saying, sir, is that I would be openminded. I know what my views are, but I would be
open-minded to listen to other panelists.

173a
MJ: Are you open-minded to be persuaded by
other panel members to what an appropriate
sentence should be if you were required to decide on
an appropriate sentence in this case?
LTC B: In terms of persuaded, sir?
MJ: Well, there will be a--you will be instructed,
if we get to sentencing, that you should discuss
appropriate--discuss sentencing and some people
during that may have differences of opinions. Those
with differences of opinions will likely discuss the
individual opinion.
LTC B: Right, sir.
MJ: And likely, you know, try to tell other people
why they believe his particular opinion is correct,
not using any coercion at all-LTC B: Right, sir.
MJ: --but just trying to explain, “Well, this is
why I think it’s right.” But are you willing to listen
to what others have to say on that matter, if we get
to sentencing, before you draw any conclusions to
what you believe an appropriate sentence is?
LTC B: Yes, sir. I would.

174a
MJ: Now, when you have these two divergent
statements with the understandable, emotional
response, I have two children, two little girls are
dead at the hands of premeditated murder; and then
you say, well also executing that person may then
free that person from having to think about that the
rest of his life. So can you envision then that, not
knowing what the evidence is--but can you consider
and envision that life might be appropriate
depending on whatever the evidence is that comes
out?
LTC B: Yes, sir.
MJ: So, when you say that life is not appropriate
for this type of offense, please again explain to me
whether that was your initial reaction or whether
that is something that you concluded after giving
some thought to it?
LTC B: That was the initial reaction, sir,
because I am a father.
Defense counsel challenged LTC B for cause,
citing implied bias and the liberal grant mandate.
The military judge and the defense had the following
exchange:
DC: . . . With regards to his views on
the death penalty, again, he was

175a
another panel member who in general
voir dire indicated that life in prison
was not an appropriate punishment for
a premeditated murder of children.
When questioned about that, he had
very firm opinions that said it was
based upon his reaction, stating that he
is a father, and that killing a child-taking a child’s life is unforgiveable.
That this was an emotional issue with
him; that it is his personal belief; that
it is one that, while he would listen to
others, he is not really open to
persuasion; that this is the appropriate
punishment. Further, and I believe
most critically, he would believe that
the imposition of the death penalty
would be the appropriate punishment
because it would “free the person to
think about”—”free the person from
having to think about it for the rest of
their life.”
Obviously an imposition of a death
penalty essentially-- and not to be glib
about it--because it would be good, it
would release them from having that
burden for the rest of their lives is an

176a
inappropriate reason to impose the
death penalty. And we believe it would
be an illegal reason to impose the death
penalty, i.e., making a moral decision
that it’s going to be good for them.
MJ: Well, I got the impression from
[LTC B] when he said, “The death
penalty may free that person to have to
think about it the rest of their life,” as
a reason not to impose the death
penalty--that is the way I interpreted
his response.
DC: Your Honor, I read that as being
that it was the reason to impose the
death penalty is that it would--and in
either event, it would still be an
inappropriate
sentencing
consideration. But the way that it was-the context in which the question was
asked, it was asked as to why he
believed the death penalty was
appropriate for the premeditated
murder of children; and he said it
would free that person. I believe that’s
an
inappropriate
sentencing
determination on the death penalty--

177a
the application of the death penalty in
the premeditated murder of children.
And further, quite frankly, it comes
down to the fact that he obviously had
and expressed very strong personal
beliefs that he simply--while he would
consider as far as listening--and he put
it in terms of listening to other panel
members--he made it very clear that he
was not open to persuasion, that this
was something that he believed and
that there was no--unlike another-there was no wavering in that decision.
So we believe that because of that
deeply held personal belief, that [LTC
B] should be excused.
Denying the challenge, the military judge
reasoned:
MJ: [Lieutenant Colonel B], he is
clearly willing--excuse me--his initial
reaction to the nature of the charged
offenses was an understandable
visceral reaction. Members are not
expected or required to react in a
robotic manner. He is clearly willing to
give his decisions a lot of thought. He

178a
does not have a kneejerk reaction to
impose a certain sentence. [LTC B]
made it clear, in an extremely credible
manner, that he is willing to listen to
all of the evidence and will consider the
full range of punishments.
[Lieutenant Colonel B] does not believe
the death penalty must be imposed. In
fact, in response to a defense question
in comparing a life sentence to the
death penalty, [LTC B] believes a life
sentence may in some ways be more of
a punishment than the death penalty
because a death sentence will then free
the person from having to think about
it for the rest of his life. [Lieutenant
Colonel B] is not unalterably in favor of
imposing the death penalty.
Viewing all of [LTC B’s] responses as a
whole, a reasonable person would not
conclude that he is biased under the
implied bias standard. The liberal
grant standard does not warrant
granting the challenge; therefore, the
challenge for cause is denied.

179a
We shall not second-guess the military judge’s
assessment of LTC B as credible; nothing in the
record of trial undermines it. The military judge
considered the liberal grant mandate. In light of
LTC B’s multiple commitments to consider all
evidence in mitigation, any lawful sentence and the
views of fellow members, we conclude the military
judge did not err in denying the challenge against
him.22

B. MAJOR W23

22 Our

superior court recently emphasized that a member’s
incorrect—and uncorrected—belief regarding a relevant legal
principle is a basis for exclusion. United States v. Rogers, 75
M.J. 270, 271 (C.A.A.F. 2016). Appellant’s case is
distinguishable, for LTC B’s statement that execution would
“free [a murderer] from having to be reminded of it” does not
constitute an opinion that a life sentence is more severe than
the death penalty. Lieutenant Colonel B’s voir dire fully
demonstrated his understanding that the death penalty is the
most severe sentence under the law.
23 In

group voir dire, MAJ W responded negatively when the
defense asked, “[D]o you agree with this statement if someone
is convicted of premeditated murder of children they should be
given the death penalty?” He responded positively when asked
by defense counsel, “Do you agree with the statement that life

180a
TC: . . . Could you tell us what your views are of
the death penalty?
MAJ W: I do believe that the death penalty is a
viable option for anyone who’s committed and found
guilty of an egregious crime. I think the question
was asked yesterday about children and my views
towards that.
TC: Right.
MAJ W: And I think it would be a little more
difficult for me to, you know being the father of four
small children under the age of 10--to have their
lives cut short, I think that would--it would be hard.
I mean, I could be fair and objective; but I think that
it would be something that I would consider.
TC: Yes, sir. But you said that you believe that
you could be fair and objective?
MAJ W: Yes.
TC: Sir, is there any crime that you could think
of--to include the premeditated murder of children,
is there any crime that you can think of for which

in prison is not really punishment for premeditated murder of
children?”

181a
you would automatically vote for the death penalty
with no other considerations?
MAJ W: Automatically with no other
considerations? You know, I would have to hear the
evidence and hear what the circumstances were.
You know, I understand in our nation we have the
option of life in prison or the death penalty, but I
think the decision on that would have to be made
based on all the evidence at hand. Again, now I think
it is a viable option; but it would be dependent on,
you know, what the circumstances were--intent, and
premeditation and those sorts of things.
So, I mean, I try, you know being a commander
for 7 years, I have tried very hard to be fair when I
administer UCMJ; hear both sides of every story. I
understand
that
there
are
extenuating
circumstances in some cases. So I try to be very
objective and very fair and open about those sorts of
things. But I can’t think of absolutely automatically
death penalty, I would have to hear all of the
evidence.
[. . .]
TC: If the defense presents--if they do--they have
no burden to present anything of course.

182a
MAJ W: Right.
TC: But if they were to present any extenuation
or mitigation, would you be able to also consider that
in determining a punishment?
MAJ W: Oh, absolutely.
[. . .]
TC: --you will be instructed that if the accused
has been found guilty of premeditated murder by a
unanimous vote of all of the members of the panel-MAJ W: Right.
TC: --by a unanimous vote, and the conviction is
for premeditated murder, you will then be instructed
that you have two choices as to punishment: one is
for confinement for life, the other is the death
penalty.
MAJ W: Uhm-hmm [indicating an affirmative
response.]
TC: Do you understand that you would have
those two choices?
MAJ W: Yes.

183a
TC: And, sir, do you also understand that there
is no presumption in favor of either of those two?
MAJ W: Correct.
TC: So with that understanding, would you be
able to fairly and completely consider the possibility
of either of those?
MAJ W: Yeah, absolutely. I mean, that would be
in the second phase, and I would worry about that
when I got there.
TC: Right.
MAJ W: But once I get into the second phase,
then I know that we will be briefed by the military
judge on what our options are.
[. . .]
TC: And now can you assure us that you will be
able to follow those instructions?
MAJ W: Absolutely.
TC: So, if the military judge tells you that you
must consider all mitigation and extenuation
evidence in addition to everything else, you will be
able to follow that?

184a
MAJ W: Absolutely.
[. . .]
DC: One of the things that I just want to cover is
to put you in a perspective of a case involving--that
you have been selected for a panel, as a military
court-martial panel. This hypothetical case--it’s not
this case. It’s not any particular case, but it’s a
hypothetical case where you have the responsibility
to sentence an accused who has been convicted by
proof beyond a reasonable doubt, by a unanimous
decision, of premeditated murder.
MAJ W: Uhm-hmm [indicating an affirmative
response.]
DC: Specifically premeditated murder of a
mother and two children, okay?
MAJ W: Yes.
DC: Now, in that situation we have also, as a
panel in this case, found that the case did not
involve--there weren’t any facts involving, for
example, self-defense. There was no self-defense.
There was no heat of passion, no provocation. These
were innocent people that were murdered--the
victims that were murdered. There wasn’t any
mistaken identity. There’s no accident. There’s no

185a
defense of others. None of those things are present.
All that was present was a clear finding of proof
beyond a reasonable doubt of premeditated murder,
i.e., there’s a specific intent to kill. There’s an
opportunity to consider that act and it was
premeditation--premeditated murder and that was
proved beyond a reasonable doubt.
Now, sitting in a panel where there’s been a
finding of premeditated murder of a mother and two
children, what is your feeling of the death penalty as
the appropriate penalty for that guilty murderer?
MAJ W: Again, it is an option. It is a legal option.
It is, at that point in the game, when we move into
the sentencing phase and we receive the instructions
from the military judge, that I think it would
certainly be an option.
DC: Okay, now you understand that the military
judge is not going to give you any instructions as to
how you should consider whether death is
appropriate or not?
MAJ W: Uhm-hmm [indicating an affirmative
response.]
DC: That is entirely up to a panel member and
their own personal moral judgment. The judge will

186a
never give you a checklist or never give you law that
says that you must or must not vote for death. Okay.
That is a personal judgment. Now, in the context of
that personal judgment, what is it that--and
remember there’s no provocation, intent is proven-it’s beyond a reasonable doubt, that there was an
intent to kill and there was the actual killing of a
mother and two innocent children. What else would
be important to you in making that decision?
MAJ W: As far as the death penalty-DC: Yes.
MAJ W: --what else?
DC: Yes, as far as the death penalty being
important?
MAJ W: Well, again, it’s like what I mentioned
earlier, it’s the circumstances that lead up to it. I
mean, certainly murder is probably in my mind one
of the most heinous crimes there is and life in prison
versus the death penalty is--that both are viable
options for sentence. However, I think what would
sway me one way or the other are the circumstances
around it.
DC: Okay.

187a
MAJ W: The premeditation would be part of it;
perhaps the ferocity of it or whatnot, you know; and
for me personally, I mean having, you know, four
children of my own under the age of 10, you know,
the killing of children would be difficult, would make
me think of the death penalty; but at the end, it
would depend on all of the evidence and the
circumstances behind it.
DC: Okay. And by circumstances behind it, just
so I understand what you are talking about, you
talked about premeditation--obviously you would
want to know that it was a premeditated killing?
MAJ W: Yes.
[. . .]
DC: . . . [Y]ou believe that the finding or part of
that consideration that would be important would be
the premeditation, the finding of premeditation?
MAJ W: Part of it would be the premeditation,
part of it would be the evidence that’s presented. I
mean, you know, if it’s beyond a reasonable doubt,
they are found guilty, and there’s a unanimous jury
that says, yes, absolutely this person did this-DC: Right.

188a
MAJ W: --I would definitely look personally I
would look at all of the evidence and try to keep it
as--to be as objective as possible.
DC: Okay.
MAJ W: But I certainly think premeditation and
the ferocity and those sorts of things would play into
my mind.
DC: Okay. And when we talk about the
circumstances, I understood you were talking about,
like, the acts of the violence in the offense itself; is
that what you are referring to or is there something
else?
MAJ W: No, that is what I am referring to.
DC: And so the events that lead up to the act of
violence and the nature of that violence and whether
it was accompanied by the necessary premeditated
intent, that is what you are talking about as to the
factors you would consider as to whether you
determine death is the appropriate punishment?
MAJ W: I believe so, yes.
DC: Is there anything else that would be
important to you personally?
MAJ W: To consider death as an option?

189a
DC: Yes.
MAJ W: I think, I mean, those are the major
things. I mean, it is a viable option of the death
penalty; and I think what would probably sway me
more towards that is the premeditation part and the
ferocity of it. You know, I think that would be one of
the things that I would consider.
DC: Okay. So as I understand and just so I can
get it clear in my mind is that if you were to find
beyond a reasonable doubt--you and a panel
unanimously determine beyond a reasonable doubt,
that there was premeditated murder of children-MAJ W: Uhm-hmm [indicating an affirmative
response.]
DC: --and that it was done in a violent way, with
just great disregard for all human life. And it was
done in a violent way that was upon those children,
that that would be a case where you are inclined to
view death as the appropriate punishment for that
crime?
MAJ W: That is correct.
[. . .]

190a
DC: . . . [W]hen we had the discussion about-first of all, in a case obviously not everybody as I
indicated yesterday, not everybody has the same
views, and we would expect that of panel members.
MAJ W: Right.
DC: And some people have different views, based
upon their own personal background and their own
personal situation; and of course, you indicated
earlier that this is an especially difficult thing, when
we are talking about the death penalty, for you
because of the fact that you have children-MAJ W: Uhm-hmm [indicating an affirmative
response.]
DC: --and that is something that’s on your mind.
And so that is a different case, obviously, than a
murder of an adult which I believe you indicated
would not present as much of a moral difficulty for
you as it does with children?
MAJ W: I think that’s a true statement.
DC: Okay.
MAJ W: I don’t think that the murder of children
automatically would make it a death-penalty

191a
offense, but it would definitely sway me to consider
it more.
DC: Okay. And one of the other aspects of that,
of course, is the discussion about--you said
considering the nature of the offense, the
premeditation, and so forth. Now, again, you
understand that even before a panel would be
permitted to even consider death as a possible
punishment, there would have to be a finding of
guilty beyond a reasonable doubt of premeditated
murder?
MAJ W: Right.
DC: Okay. And that if there was no finding of
premeditated murder, then there would never be a
consideration of death as a potential sentence. Do
you understand that?
MAJ W: Yes.
DC: And within the context of that though, you
had indicated that not only that the premeditation
was important but also the circumstances
surrounding the offense itself?
MAJ W: Uhm-hmm [indicating an affirmative
response.]

192a
DC: And correct me if I am wrong, but I
understood you to say that that’s your--that’s the
important factors to you in consideration of death as
an appropriate punishment?
MAJ W: Yeah, if--hypothetically, if it was a
unanimous decision that there was guilt beyond a
reasonable doubt and the death penalty was an
option, yes, I would weigh many factors into it and
one of them is the premeditation. As I said, one of
them would be the ferocity of the crime; and you
know those would be primarily, you know, what I
would be looking at.
DC: Okay. And in order to explain or to make
sure we understand your views, what other things
might be of importance to you?
MAJ W: For?
DC: In making a consideration, along with those
factors, what other things might be important to you
with regards to the imposition or decision as to
whether death or life in prison is the appropriate
punishment?
MAJ W: I think one thing that would be
important to me is remorse. You know, in part of my
job when I, you know, see patients, I have seen

193a
people have--you know, do things and, you know,
have affairs or whatnot that they have admitted to
and they have no remorse over it. Other people are
devastated, and I know that there are different
personalities of people in the world. I know there’s
different ways people think and act and do, but I
think remorse would be one of those factors too. DC:
And if you were--are there any other factors that
come to mind that you would consider important?
MAJ W: Well, I mean, it was mentioned earlier,
the background of the person. If a person would
have--I mean, I would consider the background of a
person. You know, we mentioned that, you know,
perhaps if they have had a long crime record of, you
know, serious crimes and stuff like that and then
murder was brought on there. Would that play a
factor? Possibly, but it would really depend on the
circumstances behind it.
DC: Okay. And in that respect, if you were to-you know again, in the case of premeditated murder
of children done in a violent way, if you were to
receive information about the person’s background
that wasn’t necessarily negative but was favorable,
i.e., they lived life without committing any crime or
violent crimes up to the point of the offenses

194a
themselves. Would that be something that you
would consider important?
MAJ W: I would consider it, but it would really
depend on--you know, it would depend on the
circumstances honestly in my mind. Good people can
sometimes snap and do horrible things; but if people,
you know, got out with an honorable discharge a lot
of people get out with an honorable discharge. If
someone was a, you know, hero or whatever, you
know, that might play into it; but really it’s the facts
at hand of the case that is important to me. You
know, so I would consider it, but I don’t think the
background would sway me one way or another
towards or against the death penalty. But again, it
would really depend in my mind what background
information is presented.
DC: Okay. In my hypothetical situation and I
would draw you back to it again-MAJ W: Uhm-hmm [indicating an affirmative
response.]
DC: --I had told you that, you know, it was
premeditated murder, a finding beyond a reasonable
doubt of children was done without any finding of-there wasn’t any mental health issues, there’s no
defenses, there’s no raising of insanity, and there’s

195a
no alcohol or drug involvement. All of those things
were eliminated prior to a finding of premeditated
murder. Okay?
MAJ W: Okay.
DC: With that understanding, is that what you
were talking about with regards to the background
that you know, absent that kind of background, that
your starting point or your inclination is that death
would be the appropriate punishment for the
murder of a child?
[. . .]
MJ: Before we get to that question, let me ask
you a question, [MAJ W].
MAJ W: Yes, sir.
MJ: Based on the scenario by defense counsel
that you, in fact, found someone guilty in a
unanimous decision of this murder he has described
including two little children. Are you going to make
up your mind as to what is an appropriate sentence
that should be imposed before you hear all of the
evidence that would be presented on sentencing?

196a
MAJ W: No, sir. I would wait to hear all of the
evidence before I would make up my mind on
anything.
MJ: Okay. With that in mind, [DC], you may
continue.
DC: [MAJ W], without making up your mind,
would you, under those circumstances where there’s
a finding beyond a reasonable doubt, et cetera, and
none of those defenses are present and it’s a heinous
crime, and the murder of two children—
MAJ W: Uhm-hmm [indicating an affirmative
response.]
DC: --would you be in a position, just in your
processing of starting at a position where you are
inclined to say death is the right answer and then
look for mitigation factors, is that how you would
approach it?
MAJ W: Most likely, yes.
DC: One of the things that we had touched a
little bit on yesterday, but I want to just cover it a
little more in depth with you personally-MAJ W: Okay.

197a
DC: --one is that--and I think that you
understand that the law never requires anyone, any
particular panel member to vote for death.
MAJ W: Uhm-hmm [indicating an affirmative
response.]
DC: And you would agree with that?
MAJ W: I would.
DC: And that the judge nor any law that he
would read you or any requirement of anything that
you would receive in this court would ever require
you or any other member to vote for death.
MAJ W: Okay.
DC: And that the decision as to whether the
appropriate punishment for a qualified offense is life
or death is a personal one, one that is individual to
each juror. Do you understand that?
MAJ W: I do.
DC: And that the decision to extend mercy or to
find or not find a mitigation factor is sufficient to
give a vote of life, is personal to each individual
panel member?
MAJ W: Correct.

198a
DC: Okay. And that a panel member could
decide to vote for life based upon something that
they heard in the courtroom or something that they
brought in with them. Does that make sense?
MAJ W: It does.
DC: Their own personal sense of what is right,
what is moral, what is merciful, what is just can be
anything that is either presented in a courtroom or
brought in by that person. Does that make sense
also?
MAJ W: Yeah, it does.
DC: And that once a person makes that decision,
that panel member or that person is entitled to have
that decision respected. Would you agree with that?
MAJ W: I would.
DC: So that when you would make a decision
about your own personal moral judgment, you would
expect that your opinion would be respected by
others, would you not?
MAJ W: I would.
DC: And if somebody else expressed an opinion
or didn’t express any opinion at all but voted in that
regard, you would respect their opinion, correct?

199a
MAJ W: Absolutely, sir.
DC: And when the individual who is making that
personal moral judgment you would expect that they
wouldn’t be subjected to any bullying or intimidation
to try and change their personal moral views, would
you?
MAJ W: No, sir. I wouldn’t have trouble with
anybody here.
DC: Well, I’m not talking about you. But you
wouldn’t expect that they would. In fact, you
wouldn’t tolerate it, would you?
MAJ W: No, sir.
DC: And you wouldn’t allow anybody to attempt
to bully or intimate you to change your own personal
moral view?
MAJ W: No, sir.
DC: Likewise the understanding that you
wouldn’t necessarily be required or wouldn’t feel
required to explain your personal moral judgment to
anybody, would you?
MAJ W: No, sir.

200a
DC: And you wouldn’t expect anybody to explain
their own personal judgment once they make that
moral decision themselves, would you?
MAJ W: Correct.
[. . .]
TC: [Major W], just a very quick follow-up. With
regard to the questions about the hypothetical that
was posed earlier when the defense counsel was
talking to you, you understand that that is just a
hypothetical?
MAJ W: Yes.
TC: And you understand, as we discussed earlier
when I was up here talking to you, that you are to
wait and weigh the facts that are presented in court?
MAJ W: Correct.
TC: And you agreed earlier when I was asking
you questions that you would, in fact, wait until
everything is presented?
MAJ W: Yeah, absolutely.
TC: And that you would follow the instructions
from the military judge in determining an
appropriate sentence?

201a
MAJ W: Absolutely.
TC: And that you would be able to--in fact, let me
ask you again, can you assure the court that you will
be able to consider everything that’s presented by
both sides in reaching a conclusion?
MAJ W: Yes, I can.
TC: And with regard to the background of the
accused, I think there were some questions about
good stuff and bad stuff that may be presented as to
the background of the accused. You don’t know, at
this point, what those facts are?
MAJ W: No, I do not.
TC: So is it possible for you to evaluate how
much weight you would give to the accused’s
background at this point?
MAJ W: I mean at this point I can’t hypothesize
what I don’t know. So I don’t know. I mean, I know
a little bit about this case from, you know, the paper
but not enough to go into any kind of intelligent
discussion.
TC: So it’s impossible for you to do that at this
point?

202a
MAJ W: Right. You know, what happens in here
is what I’ll base all of my judgment and my
deliberation on.
TC: Okay. And you will keep an open mind until
the end?
MAJ W: Absolutely.
The defense challenged MAJ W for cause, “based
upon implied bias standard as well as the baseline
of the liberal grant mandate.” The defense
emphasized MAJ W was the father of four children,
and his statement that he would consider, inter alia,
the “ferocity of the crime” in considering the
appropriate punishment for premeditated murder.
The defense also emphasized MAJ W’s statement
that in a case involving the premeditated murder of
children, he would “start at the death penalty and
would need to be presented some sort of mitigation
to convince him otherwise. That is a clear statement
of a burden-shifting requirement . . .”
Describing MAJ W as “very credible,” the
military judge denied the challenge, reasoning:
MJ: . . . While he believes the death
penalty is an option for an egregious
crime, and the decision becomes more
difficult when children are the victims,

203a
he is clearly willing to hear all of the
evidence, to include the background of
the accused, before making a decision.
He could not think of a case in which he
would automatically impose the death
penalty. While he is willing to consider
all the evidence, he cannot say at this
point, and is not expected to be able to
say, how much weight he would give to
any particular evidence. As he said, he
cannot hypothesize what he does not
know.
Now, in response to the graphic
scenario presented by the defense
counsel, [MAJ W] said he may start
with the death penalty; however, he is
not unalterably in favor of the death
penalty. And, as he said, he could not
think of any case in which he would
impose the death penalty.
In light of all of his answers, it is clear
that [MAJ W] has not made up his
mind as to an appropriate sentence.
And, based on all of his responses, a
reasonable person would not conclude
that he is biased.

204a
The liberal grant mandate does not
warrant a challenge for cause and,
therefore the challenge for cause is
denied.
We shall not second-guess the military judge’s
assessment of MAJ W as credible; nothing in the
record of trial undermines it. The military judge
considered the liberal grant mandate. Where a panel
member demonstrates an “inelastic disposition
concerning an appropriate sentence,” the military
judge should grant that challenge. United States v.
Clay, 64 M.J. 274, 276 (C.A.A.F. 2007). However,
MAJ W’s voir dire revealed no fixed or “inelastic”
disposition “regarding” punishment. In light of MAJ
W’s multiple commitments to consider all evidence
in mitigation, any lawful sentence and the views of
fellow members, we conclude the military judge did
not err in denying the challenge against him.24

24 Considering

Walton v. Arizona, 497 U.S. 639, 650, 110 S. Ct.
3047, 111 L. Ed. 2d 511 (1990), we find unpersuasive
appellant’s argument that MAJ W’s views inappropriately
shifted the burden to present mitigation evidence. (“So long as
a State’s method of allocating the burdens of proof does not
lessen the State’s burden to prove every element of the offense
charged, or in this case to prove the existence of aggravating
circumstances, a defendant’s constitutional rights are not

205a

C. LIEUTENANT COLONEL W25
Lieutenant Colonel W described his previous
experience as a civilian law enforcement officer, and
the defense asked him about his assessment of
defense attorneys:
DC: As a result of that aspect of your
career, meaning the help and assisting
and processing of a crime scene, do you
ever recall being called as a witness
with regards to a crime scene that you
had processed or evidence that you had
helped process?
LTC W: Yes. I’ve been to hearings; but
on the major crime scenes, no, I wasn’t
called as a witness.

violated by placing on him the burden of proving mitigating
circumstances sufficiently substantial to call for leniency.”)
(rev’d on other grounds, Ring v. Arizona, 536 U.S. 584, 122 S.
Ct. 2428, 153 L. Ed. 2d 556 (2002)).
25 In

group voir dire, LTC W responded negatively when
defense counsel asked, “[D]o you agree with this statement if
someone is convicted of premeditated murder of children they
should be given the death penalty?”

206a
DC: So you’ve been--with regard to, for
example, maybe some sort of
suppression hearing or some other type
of evidentiary hearing, prior to a trial
you may have been called?
LTC W: Yes.
[. . .]
DC: . . . In your time as a law
enforcement officer, did you have
regular contact with prosecuting
attorneys?
LTC W: Yes, on occasion.
DC: And it would be, obviously, on
cases that you had worked, made an
arrest or made some other type of
evidence that they needed to talk with
you?
LTC W: That’s it.
DC: Did you come in contact with
defense attorneys?
LTC W: Yes.
DC: In general, what was your
impression
over
the
years
of
prosecuting attorneys in general?

207a
LTC W: Good.
DC: Okay. And what was your opinion
or what kind of impression was left to
you of the defense attorneys that you
came in contact with?
LTC W: The ones I came in contact
with, some good, some not so good.
DC: Okay. What was it about that that
left you with an impression of some of
them that wasn’t so good? What kind of
things were left with you in your mind?
LTC W: When I was an arresting officer
and I was the one that was sitting on
the stand, the defense--mainly on DUI
cases just the way the defense handled
officers as witnesses.
DC: And what was it about--I know it’s
been a long time, but what was it about
the way the officers were treated that
struck you as leaving a negative
impression in your mind about defense
attorneys?
LTC W: I think the defense had a lot of
latitude--were allowed a lot of latitude
in some of the cases.

208a
DC: By latitude, I’m not sure I
understand what you mean in that
context.
LTC W: I guess, maybe with the line of
questioning or the inferences that they
were making toward the officer. I’ll use
my experiences. On DUI cases, I saw a
handful of times that I had made
arrests and maybe the Intoxilyzer
results weren’t admissible at the time.
So the jury couldn’t see the results of
the Intoxilyzer. So, as somebody that
was trained by the state on DUI
detection, there was a lot of questions
that were brought up about my
expertise as somebody that can make
decisions on DUI detection. So it would
bring a lot of doubt into the jury on my
abilities as an officer and other officers,
the same thing.
DC: And so I understand, because of
your knowledge of the case, you felt
there was some unfairness in the
system as far as what they allowed the
defense attorney to ask and didn’t
allow the prosecutor to ask?

209a
LTC W: I think that what they were
allowed to ask was fine, it was just the
way it was shaped with the jury and
what was not allowed as evidence was
some of the things that didn’t sit well
with me at that time.
The defense challenged LTC W for cause, citing
implied bias and the liberal grant mandate with
respect to his experience as a law enforcement
officer. Then, focusing on his voir dire answers
regarding
defense
attorneys,
the
defense
additionally asserted actual bias:
[Lieutenant Colonel W] stated that
while he had an unfailingly good view
of prosecuting attorneys--he didn’t
have anything negative to say about
them--he had some negative comments
about defense attorneys, specifically
the way defense attorneys approached
law enforcement witnesses on the
stand and that when defense attorneys
would ask questions that he viewed
unfair, based upon his prior knowledge
of the case, he held that against defense
attorneys, specifically about evidence
that may have not--would be

210a
suppressed or otherwise not a part of
the case, that he viewed that it would
be on. No such--obviously, no such
negative views toward prosecutors.
Finding LTC W “very candid and credible,” the
military judge denied the challenge and addressed
this point:
[Lieutenant Colonel W] may have
thought that some defense counsel
were good and some were not so good.
There is absolutely no evidence he
harbors any ill feelings against defense
counsel as a whole and absolutely no
evidence that he harbors any ill
feelings against defense counsel in this
case.
We shall not second-guess the military judge’s
credibility assessment of LTC W; nothing in the
record of trial undermines it. The military judge
considered the liberal grant mandate. Additionally,
nothing indicates that LTC W’s opinions of
individual defense attorneys in particular civilian
proceedings somehow caused him to develop a
stereotypical view of defense counsel, and we
conclude the military judge did not err in denying
the challenge against him.

211a

VII — C. THE MILITARY JUDGE ERRED IN
FAILING TO SUA SPONTE VOIR DIRE AND
REMOVE THE PANEL MEMBER WHO,
BEFORE THE CONCLUSION OF THE
GOVERNMENT’S CASE ON FINDINGS,
ASKED DETECTIVE [JW], A GOVERNMENT
WITNESS, “WHAT DO YOU THINK SGT [SIC]
HENNIS’S MOTIVE WAS?”
Detective JW, of the Cumberland County
Sheriff’s Office, testified during the government’s
case. After his testimony, but before excusing him
from the stand, the military judge—as is customary
and allowed in military trials—asked the members
whether they had any questions. Colonel (COL) CT
wrote the proposed question of which appellant
complains.
The parties reviewed COL CT’s proposed written
question, and defense counsel wrote on the question
form, “Obj[ection] calls for speculation.” The military
judge did not allow the question, and the trial
continued. Appellant did not request voir dire or any
other follow-up regarding this proposed question.
Now, appellant argues the military judge “erred
in failing to voir dire and ultimately remove” COL
CT. Relying heavily on United States v. Nash, 71

212a
M.J. 83, (C.A.A.F. 2012), he argues COL CT’s
question established actual bias. Alternatively,
appellant asserts the question constituted evidence
of implied bias. Without restating the standards
surrounding each basis for exclusion, described
supra, we reject both arguments.
We recognize the military judge’s authority to
question and, if necessary, remove a panel member
even without a party’s request to do so. Rule for
Courts-Martial 912(f)(4) provides: “Notwithstanding
the absence of a challenge or waiver of a challenge
by the parties, the military judge may, in the interest
of justice, excuse a member against whom a
challenge for cause would lie.” (Emphasis added); see
also United States v. Strand, 59 M.J. 455, 458
(C.A.A.F. 2004) (“It is clear that a military judge
may excuse a member sua sponte.”).
The standard of review for a case under these
facts is unclear. In Strand, our superior court stated
that a “judge’s decision whether or not to excuse a
member sua sponte is subsequently reviewed for an
abuse of discretion,” but then held “[s]ince the judge
did not abuse his discretion, there was no plain
error.” Id. at 458, 460. Applying the most rigorous
standard of review applicable to questions of
member bias—more deferential than de novo, but

213a
less deferential than abuse of discretion, under
Woods—we hold the military judge did not err by not
questioning or removing COL CT.
We regard COL CT’s question as an effort to
probe the strength of the government’s case, not a
premature conclusion that appellant was guilty.
Finding no actual bias or a violation of R.C.M.
912(f)(1)(M), we address whether COL CT should
have been excused for implied bias under R.C.M.
912(f)(1)(N). We review this issue through the eyes
of the public and ask whether his question regarding
motive undermined the public’s perception or
appearance of fairness of the military justice system.
See United States v. Townsend, 65 M.J. 460, 463
(C.A.A.F. 2008).
Noting the defense’s emphasis in its closing
argument on appellant’s apparent lack of motive, we
return to our observation that trial defense counsel
did not object to COL CT’s continued service on the
panel after reading his proposed question. From
these facts, we infer the trial defense team may have
perceived COL CT as potentially receptive to that
aspect of the defense case and, therefore, wanted
him to remain on the panel. In our view, no member
of the public could reasonably conclude that COL

214a
CT’s question indicated a lack of fairness in the
proceedings.

VII — D. THE VARIABLE SIZE OF THE
COURT-MARTIAL PANEL CONSTITUTED AN
UNCONSTITUTIONAL
CONDITION
ON
MASTER
SERGEANT
HENNIS’S
FUNDAMENTAL RIGHT TO CONDUCT VOIR
DIRE AND PROMOTE AN IMPARTIAL
PANEL.
Considering the record of trial and matters
asserted in the parties’ briefs, we conclude this
assignment of error merits neither discussion nor
relief.

VIII — A. TRIAL COUNSEL’S REPEATED AND
IMPROPER COMMENTS AND ARGUMENTS
PREJUDICED MASTER SERGEANT HENNIS’
RIGHT TO A FAIR TRIAL.
In his brief, appellant organizes his allegations
regarding government counsel’s comments into four
groups, which we address seriatim:

215a

A. “Trial counsel made highly prejudicial, belligerent
remarks toward MSG Hennis’ defense counsel.”
Appellant focuses on several of government
counsel’s comments during his rebuttal findings
argument, including remarks describing the
defense’s closing argument as “monstrous” and
“evil.” We do not condone them; however, their
context is relevant. See Darden v. Wainwright, 477
U.S. 168, 179, 106 S. Ct. 2464, 91 L. Ed. 2d 144
(1986). In his closing argument, civilian defense
counsel said, inter alia, the following:
[I]n your deliberations, you are to rely
on your knowledge of human nature
and the ways of the world. One of the
ways of the world and one of the things
that we know about human nature is
that things can occur spontaneously
and for no significant reason. A young
Soldier [appellant] whose wife had just
had a baby recently; a Captain’s wife
[Mrs. KE] while the Captain has been
away for a long time. All I’m asking is:
Is it possible that something occurred
independent
of
the
murders,
independent of the night of the 9th of

216a
May that can answer the unanswered
questions?
[. . .]
I want you to consider that the
government has created an inference
by their own argument that . . .
[appellant] went to the [E family]
home, seeking sex with [Mrs. KE].
Listen to me close right now--what I’m
about to say--and I’m going to repeat it.
The evidence in this case--if he were
charged with adultery--and let’s just
take away the murders. Let’s just focus
on the DNA. That evidence could
support an argument of adultery.
Adultery could be --could have occurred
in this case.
[. . .]
You have to ask yourselves, if you take
that evidence and if the rational
hypothesis is that some form of
consensual sex occurred within 2 days
or 3 days of the murders, then that
explains
how
it
[appellant’s
spermatozoa] was found because there
is no date/time stamp. Has the

217a
government disproven that beyond a
reasonable doubt? Does the evidence
take you beyond adultery to murder?
After the defense’s closing argument, the
military judge convened an Article 39(a), UCMJ,
session at the government’s request. Referring to a
previous Article 39(a), UCMJ, session on 8 May
2009, discussed supra, regarding assignment of
error IV, government counsel argued that civilian
defense counsel had represented to the court that no
sex, consensual or otherwise, had occurred. Relying
on United States v. McKeon, 738 F.2d 26 (2d Cir.
1984), the government then asked to re-open its case
and offer a portion of the previous Article 39(a),
UCMJ, transcript against appellant as an adoptive
admission. The military judge denied the request
and recalled the members to hear government
rebuttal, which included the following:
Now, you saw evil and you hear an evil
argument this morning. It’s not enough
that [Mrs. KE] was murdered. The
defense wants you to believe she
cheated on you, [GE]. She committed
adultery. That’s what the defense
wants you to believe. That is a vile,
disgusting, offensive argument. The

218a
defense said you don’t know [Mrs. KE].
There’s a reason for that, because
[appellant] killed her 25 years ago. You
can’t know her now, can you? Not
unless you can pray and talk to her in
your prayers. Unless you can hold a
séance, you can’t know her because
she’s been dead for 25 years.
[. . .]
And there is absolutely no evidence
whatsoever before you that [appellant]
had consensual sex with [Mrs. KE].
That is a vile, disgusting argument;
and it is designed to try to plant doubt.
It is designed to get you off the ball, to
get you off the game. It gets you so
shook up about the “should have, could
have, would have” world that criminals
live in to prey on some sort of doubt
that’s not reasonable but anything is
possible so that you can get away from
the main facts of this case . . . . When
you’re desperate, you got to go for the
Hail Mary.
Because the defense did not object to this portion
of government counsel’s argument, we review for

219a
plain error. “Plain error occurs when (1) there is
error, (2) the error is plain or obvious, and (3) the
error results in material prejudice to a substantial
right of the accused.” United States v. Fletcher, 62
M.J. 175, 179 (C.A.A.F. 2005) (citing United States
v. Rodriguez, 60 M.J. 87, 88-89 (C.A.A.F. 2004)). The
government urges in its brief that these remarks
were a fair commentary on the defense argument
and not an impermissible critique of defense counsel.
Under the circumstances here, this distinction is
unpersuasive. We note and do not condemn
government counsel’s argument to the military
judge during the Article 39(a), UCMJ, session that
civilian defense counsel’s argument, in light of his
previous representation to the court, was an
example of “sharp practices.” However, government
counsel’s subsequent characterization of the defense
argument as “monstrous,” “evil,” “vile,” and
“disgusting” constituted plain and obvious error.
Despite these remarks, we conclude under the
circumstances of this case they did not materially
prejudice appellant’s right to a fair trial. In cases of
improper argument we assess whether prejudice
exists by examining and balancing three factors: (1)
the severity of the misconduct, (2) the measures
adopted to cure the misconduct, and (3) the weight
of the evidence supporting the conviction. Fletcher,

220a
62 M.J. at 184; see also United States v. Frey, 73 M.J.
245, 249 (C.A.A.F. 2014); United States v. Halpin, 71
M.J. 477, 480 (C.A.A.F. 2013) (applying the same).
Under the first Fletcher factor, we note the
objectionable statements were isolated and not a
predominant part of government counsel’s
argument. Under the second factor, while the
military judge did not intervene sua sponte, he did
instruct the members that counsel’s arguments were
not evidence, instead charging the panel to “base
your determination of the issues in this case on the
evidence as you heard it and the law as I instruct
you.” Turning to the third factor, the evidence
against appellant was strong: a witness identified
him as the person parked near the E family home at
midday on 9 May 1985; a witness identified him as
the person he saw leaving the E family home in the
early morning hours of 10 May 1985; another
witness identified him as the person she saw at an
automated teller machine (ATM), at the same time
and place where the E family’s missing card was
used after the murders; multiple witnesses
described appellant burning a substantial fire in a
barrel at his home for several hours on 11 May 1985;
and, DNA analysis identified appellant as the source
of the sperm obtained from Mrs. KE’s body. We are
confident the weight of the government’s evidence

221a
“reduced the likelihood that the [panel’s] decision
was influenced by argument.” Darden, 477 U.S. at
182.

B. “Trial Counsel instructed the panel that they were
the conscience of the Army and they needed to send
the world a message, compared motive to terrorist
attacks, and improperly vouched for the reliability of
the DNA.”
Responding to the defense’s emphasis in closing
argument on appellant’s apparent lack of motive,
government counsel rebutted with several rhetorical
questions, including: “Why would someone fly a
plane into a building? Why would someone take a
weapon in a military installation and start firing it?”
The defense did not object. Government counsel
later said, “the Army believes in DNA.” The military
judge sustained the defense’s objection to this
statement. Then, saying “DNA is good enough” to
verify the identity of a deceased person, government
counsel rhetorically asked, “why is DNA not good
enough to identify a murderer?” The defense did not
object. Later, government counsel argued:
[Civilian defense counsel] talked about
the conscience of the Army. You are the

222a
conscience of the Army.26 Well, let me
tell you something. Verdicts in courtsmartial around the world send a
message, and they reflect how our
Army, our military values things. What
is acceptable behavior and what is
unacceptable behavior.
The defense objected, citing “the appearance of
unlawful command influence.” The military judge
sustained the objection, instructing government
counsel to refrain from mentioning “Army Values.”
We perceive no plain or obvious error in
government counsel’s “conscience of the Army”
remark; indeed, it appears trial counsel was merely
restating the defense’s innocuous characterization of
the panel. We also find no plain or obvious error in
government counsel’s reference to various purposes
for DNA analysis.
We do, however, find plain and obvious error in
government counsel’s comparison of this case to one
in which a terrorist flies a plane into a building or

26 In

his closing argument, civilian defense counsel said to
members, “[C]ollectively you represent . . . the conscience of the
Army . . .”

223a
an active shooter targets a military installation.
Counsel may urge a factfinder to draw inferences
based only on the evidence at hand and the law
applicable to the case. In this instance, government
counsel strayed from that basic principle, and the
military judge should have intervened. Applying
Fletcher again, we conclude these remarks of this
type were isolated and note the military judge’s
instruction regarding the limited purpose of
counsels’ arguments. Finally, considering the
strength of the evidence supporting the findings, we
are confident these remarks did not sway the panel’s
deliberations.
Assuming arguendo government counsel created
an appearance of unlawful command influence by
conflating the members’ verdict and “Army Values,”
we find the military judge properly remedied it with
his ruling on the defense objection. We also find
sufficient the military judge’s sustaining the defense
objection to government counsel’s argument that
“the Army believes in DNA.” We further note, with
respect to these two matters, the defense neither
requested a curative instruction nor moved for a
mistrial.

C. “Trial counsel made derogatory comments

224a
concerning [appellant’s]
present mitigation.”

fundamental

right

to

During the sentencing case, the defense
admitted multiple photographs of appellant and his
family members. In sentencing argument,
government counsel, the following occurred:
TC: Consider the aggravation in this
case up against the mitigation and
extenuation. Consider what you heard
yesterday. And I ask you this, how dare
they ask you to look at pictures of
[appellant] opening presents with his
kids in front of a Christmas tree?
DC: Objection, Your Honor.
MJ: Members, the defense is allowed
to present matters in extenuation and
mitigation. You must give them due
consideration. You may proceed.
TC: How dare they ask you--they’re
allowed and you can consider it and
should give it its appropriate weight.
How dare they ask you to look at
pictures of [appellant] sitting on the
couch reading a book to his kids?
(Emphasis added.)

225a
We held in United States v. Carr, “it is
inappropriate that any party to a court-martial
should be allowed to profit, directly or indirectly, by
argument on findings or sentence regarding an
exercise of a constitutionally protected criminal due
process right.” 25 M.J. 637, 639 (A.C.M.R. 1987).
“Whether there has been improper reference to an
accused’s invocation of his constitutional rights is a
question of law that we review de novo.” United
States v. Moran, 65 M.J. 178, 181 (C.A.A.F. 2007)
(citing United States v. Alameda, 57 M.J. 190, 198
(C.A.A.F. 2002)). We find government counsel’s use
of the phrase, “how dare they,” improperly derogated
appellant’s right, guaranteed by the Sixth and
Eighth Amendments to the Constitution, to present
extenuation and mitigation evidence. Noting the
defense did not object after government counsel’s
second and third use of this phrase, we nonetheless
find such use plainly and obviously improper.
Evaluating prejudice in the context of this
constitutional error, we note the exacting standard
announced by our superior court:
“[B]efore a federal constitutional error
can be held harmless, the court must be
able to declare a belief that it was
harmless beyond a reasonable doubt.”

226a
This will depend on “whether there is a
reasonable
possibility
that
the
evidence [or error] complained of might
have contributed to the conviction.”
Moran, 65 M.J. at 187, (quoting Chapman v.
California, 386 U.S. 18, 24, 87 S. Ct. 824, 17 L. Ed.
2d 705 (1967) (internal citation omitted) (emphasis
added)). This principle applies with equal force to a
presentencing hearing.
First, we observe government counsel’s poor
phraseology occurred during a brief portion of a
nineteen-page sentencing argument which was
otherwise proper, focusing on the relative weight
which the government argued the panel should give
the evidence in aggravation, extenuation and
mitigation. We also note the military judge’s
multiple and clear instructions, including his sua
sponte instruction described supra, emphasizing
appellant’s right to present evidence in extenuation
and mitigation and the members’ duty to consider it.
Finally, the properly-admitted aggravation evidence
in this case was exceptionally strong, depicting the
calculated and brutal slaying of multiple victims,
two of whom were defenseless young children. We
are convinced beyond a reasonable doubt that

227a
government counsel’s erroneous argument was
harmless.

D. “Trial counsel asked the panel to place themselves
in the shoes of the victims and victims’ relatives.”
Relying primarily on United States v.
Shamberger, 24 C.M.A. 203, 1 M.J. 377, 51 C.M.R.
448 (C.M.A. 1976), and its prohibition of “Golden
Rule” arguments which seek to place the factfinder
in the position of a victim, appellant complains of
additional lines of government argument on findings
and sentencing. For example, government counsel
said the following of Mrs. KE during rebuttal
findings argument:
You have to think, what’s going on in
her mind? “Oh my God, my husband’s
[sic] not here. Help is not on the way.
I’ve got to protect my children. Do
anything you want to me, but save my
children. I will submit. I’ll do anything,
but please save my children.”
Appellant now argues government counsel erred
in asking the panel to “imagine” several aspects of
the murder scene. For example, the following
occurred during sentencing argument:

228a
TC: Imagine the mental anguish of
[Mrs. KE]. There was no forced entry in
the house but, at a certain point, once
the accused was inside there, probably
using the dog to gain entry--something
about the dog somehow gaining entry
into the house. At a certain point, [Mrs.
KE] had to realize that she was in
trouble. Imagine the mental anguish of
this woman, 120 or so pounds, and this
6-foot-4 man in her house now with her
three small daughters there and her
husband definitely not coming home,
away at school. Imagine the mental
anguish as that situation develops.
And she was eventually bound and she
was eventually raped. Imagine the
fear-DC: Objection, Your Honor. He is
inappropriately attempting to place the
panel in--it’s an improper argument.
MJ: You may not place the members
into the shoes of the victims.
TC: Yes, Your Honor. The fear that
[Mrs. KE] must have felt for her

229a
children, knowing that they were just a
room away is extreme mental anguish.
When you’re considering pain and
suffering, remember the defensive
wounds that [Miss KE] had on her body
and that [Mrs. KE] had on her body.
Remember the details presented by the
medical examiners about the injuries
suffered by the children, the physical
attacks on the children.
You’ll have the autopsy reports. You
have those in evidence, one each for the
three victims. And you had the
testimony from the medical examiners.
They talked extensively, as the reports
do, about the wounds, the stabbings;
each child stabbed 10 times, [Miss EE]
with 5 of those stabbings in the back.
None of those wounds caused instant
death. There was pain, and there was
suffering by each of those victims.
We don’t know in that master bedroom
which--between [Miss EE] and [Mrs.
KE]--which was killed first. We don’t
know. But either scenario is almost too
horrific to imagine. Either little [Miss

230a
EE] was murdered first while her
mother was bound and forced to watch,
or [Mrs. KE] was murdered first in
front of her 3-year-old child.
And little [Miss KE] in her bed down
the hall under her blanket--age 5, at
the age where your parents tell you
monsters aren’t real. And when you’re
5 and you lay in bed and you close your
eyes and hide under the blanket
thinking I can’t see them so they can’t
see me. Imagine the screams.
There can be no doubt that there was
pain and suffering by all three of these
victims, emotional and physical.
Neither these arguments nor the others of which
appellant now complains violated the “Golden Rule”
principle. We so conclude, noting our superior court’s
observation in United States v. Baer, 53 M.J. 235,
238 (C.A.A.F. 2000):
[W]e also recognize that an argument
asking the members to imagine the
victim’s fear, pain, terror, and anguish
is permissible, since it is simply asking
the members to consider victim impact
evidence. See, e.g., United States v.

231a
Holt, 33 M.J. 400, 408-409 ([C.M.A.]
1991). Logically speaking, asking the
members to consider the fear and pain
of the victim is conceptually different
from asking them to put themselves in
the victim’s place. See United States v.
Edmonds, 36 M.J. 791, 793 ([A.C.M.R.]
1993).
Under the circumstances of this case, including
the lone surviving child’s testimony at trial that she
had no memories of her mother or sisters, we
conclude government counsel fairly and properly
asked the members to consider and “imagine” the
victims’ emotional and physical pain and suffering
at appellant’s hands. We further find government
counsel’s arguments regarding the impact on other
surviving family members consistent with the cases
cited supra.

VIII — B. THE MILITARY JUDGE ABUSED
HIS DISCRETION WHEN HE PERMITTED
THE
GOVERNMENT
TO
ADMIT
AGGRAVATION EVIDENCE IN VIOLATION
OF THE FIFTH AND EIGHTH AMENDMENTS
TO THE UNITED STATES CONSTITUTION.

232a
Considering the record of trial and matters
asserted in the parties’ briefs, we conclude this
assignment of error merits neither detailed
discussion nor relief. The aggravation evidence
admitted in this case was well within the
constitutional safeguards described in Payne v.
Tennessee, 501 U.S. 808, 111 S. Ct. 2597, 115 L. Ed.
2d 720 (1991).

VIII — C. THE MILITARY JUDGE ERRED
WHEN HE DENIED MASTER SERGEANT
HENNIS’ MOTION TO SET ASIDE THE
CAPITAL
REFERRAL
DUE
TO
THE
DESTRUCTION OF OVER THREE YEARS OF
INMATE RECORDS.
Considering the record of trial and matters
asserted in the parties’ briefs, we conclude this
assignment of error merits neither discussion nor
relief.

VIII — D. THE MILITARY JUDGE ERRED
WHEN HE INSTRUCTED THE PANEL THAT
THEY NEEDED TO CONTINUE TO VOTE
UNTIL THEY REACHED EITHER ELEVEN
VOTES FOR LIFE OR FOURTEEN VOTES
FOR DEATH.

233a
During sentencing deliberations, the panel
members submitted the following question to the
military judge:
If there is one person who votes against
the death penalty does that mean that
all other votes are for a life sentence?
i.e. does this automatically fulfill a
confinement
for
life
sentence
considering
a
3/4
concurrence
(understanding para. 3, pg 21)?27
After granting a recess in the panel’s
deliberations, the military judge heard extensive

27 The

parenthetical phrase referred to the portion of the
written sentencing instructions, informing the panel that a
three-fourths concurrence was required in order to sentence
appellant to confinement for life.

234a
argument28 from the parties regarding the correct
response.29

28 The

defense correctly noted to the military judge that the
Military Judge’s Benchbook states that only one vote may be
taken on the death penalty. Dep’t of Army, Pam 27-9, Legal
Services: Military Judges’ Benchbook [hereinafter Benchbook]
para. 2-7-18 n.1 (1 Jan. 2010). This Benchbook provision is
incorrect as a matter of law. See R.C.M. 1006(d)(3)(A).
29 Urging

the military judge to ask the members whether they
had voted on the death penalty so that he might then instruct
them that only one vote thereon was allowed, the trial defense
team relied heavily on the following passage from United
States v. Simoy, 50 M.J. 1, 2 (C.A.A.F. 1998):
In order for the death penalty to be imposed in the
military, four gates must be passed:
(1) Unanimous findings of guilty of an offense that
authorizes the imposition of the death penalty, R.C.M.
1004(a)(2);
(2) Unanimous findings beyond a reasonable doubt that an
aggravating factor exists, R.C.M. 1004(b)(7);
(3) Unanimous concurrence that aggravating factors
substantially outweigh mitigating factors, R.C.M.
1004(b)(4)(C); and
(4) Unanimous vote by the members on the death penalty,
RCM 1006(d)(4)(A). See Loving v. Hart, 47 M.J. 438, 442
(1998).

235a
Ultimately,
instruction:

he

provided

the

following

You need a required concurrence for
any proposed sentence; unanimous for
death, three-quarters or 11 votes for a
life sentence. If you vote on a proposed
sentence or sentences without arriving
or reaching the required concurrence,
you should repeat the process of
discussion, proposal of sentence or
sentences, and then voting.
We review de novo an allegation that the
military judge erred in instructing the members.
United States v. Behenna, 71 M.J. 228, 232 (C.A.A.F.
2012). “In regard to form, a military judge has wide
discretion in choosing the instructions to give but
has a duty to provide an accurate, complete, and
If at any step along the way there is not a unanimous
finding, this eliminates the death penalty as an option.
The defense argued the last quoted sentence establishes that
only one vote may be taken on the death penalty. We disagree,
for the appellate issue in Simoy was the order in which
members must vote on proposed sentences, not the members’
authority to repeat the process in the absence of a required
concurrence. We perceive no conflict between Simoy and
R.C.M. 1006(d)(3)(A).

236a
intelligible statement of the law.” Id. Indeed, the
military judge’s instructions on voting procedure
was correct. Under Article 52(b)(1), UCMJ, “No
person may be sentenced to suffer death, except by
the concurrence of all the members of the courtmartial present at the time the vote is taken.” Under
Article 52(b)(2), UCMJ, “No person may be
sentenced to life imprisonment . . . except by the
concurrence of three-fourths of the members present
at the time the vote is taken.” R.C.M. 1006(d)(4)(A)
and R.C.M. 1006(d)(4)(B) essentially repeat these
statutory provisions, and R.C.M. 1006(d)(5) further
requires: “When a mandatory minimum is
prescribed under Article 118 the members shall vote
on a sentence in accordance with this rule.” Under
R.C.M. 1006(d)(3)(A):
All members shall vote on each
proposed sentence in its entirety
beginning with the least severe and
continuing, as necessary, with the next
least severe, until a sentence is adopted
by the concurrence of the number of
members required under subsection
(d)(4) of this rule. The process of
proposing sentences and voting on
them may be repeated as necessary

237a
until a sentence is adopted. (Emphasis
added.).
We conclude the military judge’s instructions
were correct. We additionally conclude, contrary to
appellant’s argument and brief, the military judge
committed no error in denying the defense’s request
to respond to the members’ question by asking
whether they had voted on a sentence.

VIII — E. THE PANEL PRESIDENT FAILED
TO
ANNOUNCE
THE
AGGRAVATING
FACTORS THAT IT FOUND TO SUPPORT
THE DEATH SENTENCE BEFORE THE
COURT ADJOURNED.
At approximately 1450 on 15 April 2010, the
members returned from deliberations with their
sentence. The military judge reviewed the sentence
worksheet, which is Appellate Exhibit 515, and
found, “[i]t appears to be in proper form.” After
returning the worksheet to the members, the
military judge asked the panel president to
announce the sentence. The president did so,
announcing that the members unanimously
concurred in sentencing appellant to reduction to E1, forfeiture of all pay and allowances, a
dishonorable discharge, and death. The panel

238a
returned the sentencing worksheet to the military
judge, who adjourned the court-martial at 1452.
At 1701 on 15 April 2010, the military judge
called the court to order; the members were present.
The military judge informed the panel that he
“neglected to have the President read certain
matters that should have been read.” He then
returned the sentencing worksheet to the panel
president, with the following instructions:
Sir, what actually must be read, in
addition to--you don’t need to reread
the sentence, sir, but I need to have you
read:
On page 1, subparagraphs 1 and 2
under (a)(1);
On page 2, subparagraphs 1 and 2
under (a)(2);
On page 3, subparagraphs 1 and 2
under (a)(3); and
On page 4, subparagraph 1.
The panel president then announced the
members’ unanimous findings “that the following
aggravating factor[s] [have] been proven beyond a
reasonable doubt:”

239a
Having been found guilty of the
premeditated murder of Mrs. [KE], a
violation of the UCMJ, Article 118(1),
you have been found guilty in the same
case of additional violations of the
UCMJ,
Article 118(1), in
the
premeditated murders of Miss [KE]
and Miss [EE].
[. . .]
That the premeditated murder of Mrs.
[KE], a violation of the UCMJ, Article
118(1), was committed while you were
engaged in the commission of rape.
[. . .]
That the premeditated murders of Mrs.
[KE], Miss [KE] and Miss [EE],
violations of the UCMJ, Article 118(1),
were preceded by the intentional
infliction of substantial physical harm
or prolonged, substantial mental or
physical pain and suffering to the
victims.
Master Sergeant Timothy B. Hennis, it
is my duty as President of this courtmartial to inform you that, having
considered all the matters in

240a
mitigation and extenuation and all the
matters in aggravation, this courtmartial, in closed-session and upon
secret, written ballot, unanimously
finds that any extenuating or
mitigating
circumstances
are
substantially outweighed by the
aggravating circumstances, including
the aggravating factors specifically
found by the court and listed above.
The president returned the sentencing
worksheet to the bailiff, who handed it to the court
reporter, and the military judge adjourned the courtmartial at 1704.
Under R.C.M. 1004(b)(8), “[i]f death is adjudged,
the president shall, in addition to complying with
R.C.M. 1007, announce which aggravating factors
under subsection (c) of this rule were found by the
members.” R.C.M. 1007(b) addresses the erroneous
announcement of a sentence, providing:
If the announced sentence is not the
one actually determined by the courtmartial, the error may be corrected by
a new announcement made before the
record of trial is authenticated and
forwarded to the convening authority.

241a
This action shall not constitute
reconsideration of the sentence. If the
court-martial has been adjourned
before the error is discovered, the
military judge may call the courtmartial into session to correct the
announcement.
Article 60(e)(2), UCMJ, also provides:
A proceeding in revision may be
ordered if there is an apparent error or
omission in the record or if the record
shows improper or inconsistent action
by a court-martial with respect to the
findings or sentence that can be
rectified without material prejudice to
the substantial rights of the accused. In
no case, however, may a proceeding in
revision —
[. . .]
(C) increase the severity of some article
of the sentence unless the sentence
prescribed for the offense is mandatory.
10 U.S.C. § 860(e)(2) (2006).

242a
We agree with appellant’s argument on appeal,
to the extent he points out that a “sentence cannot
be upwardly corrected after adjournment of the
court-martial, even to correct clear errors in
announcement of the sentence.” For this argument
he cites United States v. Jones, 34 M.J. 270, 271-72
(C.M.A. 1992) (citing United States v. Baker, 32 M.J.
290 (C.M.A. 1991) and Article 60, UCMJ). In Jones,
the court-martial did not announce a sentence to
confinement; however, the military judge held a
proceeding in revision “approximately two months
later” to add the punishment of confinement for six
months, explaining “he had intended” to do so in his
original announcement. Id. at 271,
In Baker, the court-martial did not announce a
punitive discharge as part of appellant’s sentence.
Baker, 32 M.J. at 291. However, after the panel
president revealed that the panel had actually voted
to sentence appellant to punitive discharge, the
military judge allowed him to announce the omitted
portion of the sentence in a subsequent Article 39(a),
UCMJ, session. Id. Noting an inconsistency between
R.C.M. 1007(b), which does not prohibit a
subsequent announcement from increasing a
sentence’s severity, and Article 60, UCMJ, which
does contain such a prohibition while allowing

243a
subsequent announcement of a mandatory sentence,
our superior court wrote:
In our view, [R.C.M.] 1007(b) is
inconsistent with Article 60(e) to the
extent it permits the possibility of
command influence. For these reasons,
we hold that, after a court-martial has
announced
the
sentence
and
adjourned, the sentence cannot be
increased upon reassembly, except for
the reason noted in Article 60(e)(2)(C).
Id. at 293. In the footnote to the first sentence
regarding command influence, the court wrote: “We
do not suggest that sentences cannot be corrected,
even upward, on the spot. The mere utterance of the
sentence
does
not
effect
some
magical
transformation. Ordinarily, it will be only after the
hearing has terminated that a charge of collective
heart-changing can arise.” Id. at 293 n.6.
Appellant has made no “charge of collective
heart-changing,” and we perceive no reasonable
basis for such a charge. The sentencing worksheet
remained
unchanged
after
the
original
announcement. It reflected the following decisions at
Simoy “gates” two, three and four: the signatures of
each member, finding each aggravating factor

244a
proven; the signatures of each member finding any
extenuating
or
mitigating
circumstances
substantially outweighed by the aggravating
circumstances; and, the signatures of each member,
sentencing appellant to death.
We understand the importance of announcing
the aggravating factors in a death penalty case.
United States v. Matthews, decided before the
President promulgated the requirement in the
Manual for Courts-Martial, teaches us that for a
death penalty to be constitutionally reliable, the
following must be present:
1. A Bifurcated Sentencing Procedure
Must Follow the Finding Of Guilt Of a
Potential Capital Offense.
2. Specific Aggravating Circumstances
Must Be Identified To the Sentencing
Authority.
3. The Sentencing Authority Must
Select and Make Findings On the
Particular Aggravating Circumstances
Used As a Basis For Imposing the
Death Sentence.

245a
4. The Defendant Must Have
Unrestricted Opportunity To Present
Mitigating and Extenuating Evidence.
5. Mandatory Appellate Review Must
Be Required To Consider the Propriety
Of the Sentence As To the Individual
Offense and Individual Defendant and
To Compare the Sentence To Similar
Cases Statewide.
16 M.J. 354, 377 (C.M.A. 1983).
Absent
the
requirement
to
announce
aggravating factors, we would be unable to
determine compliance with the third requirement
and, therefore, unable to fulfill our duty under the
fifth; we would be unable to assess whether the
sentencing authority “made ‘an individualized
determination on the basis of the character of the
individual and the circumstances of the crime,” and
whether they have ‘adequately differentiate[d] this
case in an objective, evenhanded, and substantively
rational way’ from the other murder cases in which
the death penalty was not imposed.” Id. at 379
(quoting Zant v. Stephens, 462 U.S. 862, 879, 103 S.
Ct. 2733, 77 L. Ed. 2d 235 (1983)).

246a
The procedure involved in announcing the
aggravating factors in this case was less than
perfect. However, we conclude appellant did receive
and continues to receive the benefit of the
fundamental protections described in Matthews.
Considering Article 60, UCMJ, and our superior
court’s interpretation thereof, we hold the panel
president’s subsequent announcement of the
previously-found aggravating factors in support of
its previously-announced death sentence did not
increase the severity of the sentence itself.

IX. BASED ON THE SUPREME COURT’S
REASONING IN RING V. ARIZONA, 536 U.S.
584, 122 S. Ct. 2428, 153 L. Ed. 2d 556 (2002),
CONGRESS
UNCONSTITUTIONALLY
DELEGATED TO THE PRESIDENT THE
POWER TO ENACT ELEMENTS OF CAPITAL
MURDER,
A
PURELY
LEGISLATIVE
FUNCTION.
Considering the record of trial and matters
asserted in the parties’ briefs, we resolve this
assignment of error against appellant consistent
with our superior court’s treatment of the
substantially identical issue in United States v.
Akbar, 74 M.J. 364, 404 (C.A.A.F. 2015).

247a

X. DUE PROCESS REQUIRES THAT THE
MEMBERS FIND THAT AGGRAVATING
CIRCUMSTANCES OUTWEIGH MITIGATING
AND
EXTENUATING
CIRCUMSTANCES
BEYOND A REASONABLE DOUBT BEFORE
DECIDING WHETHER THE DEATH PENALTY
SHOULD BE IMPOSED.
Considering the record of trial and matters
asserted in the parties’ briefs, we conclude this
assignment of error merits neither discussion nor
relief.

XI. STANDARDS APPLICABLE TO FEDERAL
AND STATE CAPITAL DEFENSE COUNSEL
HAVE
APPLICABILITY
TO
COURTSMARTIAL AS RELEVANT STANDARDS OF
CARE.
Considering the record of trial and matters
asserted in the parties’ briefs, we resolve this
assignment of error against appellant consistent
with our superior court’s treatment of the
substantially identical issue in Akbar. Id. at 399400.

248a

XII. MASTER SERGEANT HENNIS’ CAPITAL
SENTENCE CANNOT STAND BECAUSE THE
MILITARY JUDGE ERRED IN ALLOWING
INTO EVIDENCE THE PRIOR TESTIMONY
OF SEVERAL WITNESSES, TAKEN FROM AN
EARLIER
STATE
TRIAL
IN
NORTH
CAROLINA, VIOLATING ARTICLE 49(D),
UCMJ,
WHICH
DOES
NOT
PERMIT
DEPOSITIONS TO BE PRESENTED INTO
EVIDENCE IN A CAPITAL COURT-MARTIAL.
Considering the record of trial and matters
asserted in the parties’ briefs, we conclude this
assignment of error merits neither discussion nor
relief.

XIII. THE LACK OF A SYSTEM TO ENSURE
CONSISTENT
AND
EVENHANDED
APPLICATION OF THE DEATH PENALTY IN
THE MILITARY VIOLATES BOTH MASTER
SERGEANT HENNIS’ EQUAL PROTECTION
RIGHTS AND ARTICLE 36, UCMJ.
Considering the record of trial and matters
asserted in the parties’ briefs, we resolve this
assignment of error against appellant consistent
with our superior court’s treatment of a

249a
substantially similar issue in Akbar. Id. at 405-06,
411.

XIV. MASTER SERGEANT HENNIS WAS
SUBSTANTIALLY
PREJUDICED
BY
A
LEGALLY
INSUFFICIENT
PRETRIAL
ADVICE,
INCORRECT
POST-TRIAL
RECOMMENDATION
AND
IN-CORRECT
ADDENDUM WHEN THE STAFF JUDGE
ADVOCATE RECOMMENDED THAT MSG
HENNIS BE TRIED IN AN ACTIVE DUTY
STATUS AND RECEIVE ACTIVE DUTY
PUNISHMENT WHEN MSG HENNIS COULD
ONLY BE TRIED IN A RETIREE STATUS, IF
AT ALL. SEE 10 U.S.C. § 688 (2001) and
Department of Defense Directive 1352.1 (2005).
Considering our conclusion, supra, that
appellant was lawfully called to active duty under
Article 2(a)(1), UCMJ, this assignment of error
merits neither discussion nor relief.

XV. THE DEATH SENTENCE IN THIS CASE
VIOLATES THE FIFTH, SIXTH, AND EIGHTH
AMENDMENTS AND ARTICLE 55, UCMJ,
BECAUSE THE MILITARY SYSTEM DOES
NOT GUARANTEE A FIXED NUMBER OF

250a
MEMBERS. See IRVIN V. DOWD, 366 U.S. 717,
722, 81 S. Ct. 1639, 6 L. Ed. 2d 751 (1961).

XVI. DISCUSSION OF FINDINGS AND
SENTENCING INSTRUCTIONS AND OTHER
SUBSTANTIVE ISSUES AT R.C.M. 802
CONFERENCES
DENIED
MASTER
SERGEANT HENNIS’ HIS RIGHT TO BE
PRESENT AT “EVERY STAGE OF THE
TRIAL.”
Appellant has assigned these two errors as
headnote pleadings without briefing; they merit
neither discussion nor relief.

XVII. THE ROLE OF THE CONVENING
AUTHORITY IN THE MILITARY JUSTICE
SYSTEM DENIED MASTER SERGEANT
HENNIS’ [SIC] A FAIR AND IMPARTIAL
TRIAL IN VIOLATION OF THE FIFTH, SIXTH,
AND EIGHTH AMENDMENTS AND ARTICLE
55, UCMJ, BY ALLOWING THE CONVENING
AUTHORITY TO ACT AS A GRAND JURY IN
REFERRING CAPITAL CRIMINAL CASES TO
TRIAL,
PERSONALLY
APPOINTING
MEMBERS OF HIS CHOICE, RATING THE

251a
MEMBERS, HOLDING THE ULTIMATE LAW
ENFORCEMENT FUNCTION WITHIN HIS
COMMAND, RATING HIS LEGAL ADVISOR,
AND ACTING AS THE FIRST LEVEL OF
APPEAL,
THUS
CREATING
AN
APPEARANCE OF IMPROPRIETY THROUGH
A PERCEPTION THAT HE ACTS AS
PROSECUTOR, JUDGE, AND JURY.
Appellant has assigned this error as a headnote
pleading without briefing; we resolve it against him
consistent with our superior court’s treatment of the
issue in United States v. Loving, 41 M.J. 213, 296-97
(C.A.A.F. 1994).

XVIII. ARTICLE 18, UCMJ, AND R.C.M.
201(F)(1)(C), WHICH REQUIRE TRIAL BY
MEMBERS IN A CAPITAL CASE, VIOLATES
THE GUARANTEE OF DUE PROCESS AND A
RELIABLE VERDICT UNDER THE FIFTH,
SIXTH, AND EIGHTH AMENDMENTS TO THE
UNITED STATES CONSTITUTION.
Appellant has assigned this error as a headnote
pleading without briefing; we resolve it against him
consistent with our superior court’s treatment of the
issue in Gray, 51 M.J. at 49.

252a

XIX. MASTER SERGEANT HENNIS WAS
DENIED HIS RIGHT TO A TRIAL BY AN
IMPARTIAL JURY COMPOSED OF A FAIR
CROSS-SECTION OF THE COMMUNITY IN
VIOLATION OF THE SIXTH AMENDMENT TO
THE UNITED STATES CONSTITUTION.
DUREN V. MISSOURI, 439 U.S. 357, 99 S. Ct.
664, 58 L. Ed. 2d 579 (1979). BUT SEE UNITED
STATES V. CURTIS, 44 M.J. 106, 130-33
(C.A.A.F. 1996).
Appellant has assigned this error as a headnote
pleading without briefing; we resolve it against him
consistent with our superior court’s treatment of the
issue in Gray, 51 M.J. at 61.

XX. THE SELECTION OF THE PANEL
MEMBERS
BY
THE
CONVENING
AUTHORITY IN A CAPITAL CASE DIRECTLY
VIOLATES MASTER SERGEANT HENNIS’
RIGHTS UNDER THE FIFTH, SIXTH, AND
EIGHTH AMENDMENTS TO THE UNITED
STATES CONSTITUTION AND ARTICLE 55,
UCMJ, BY IN EFFECT GIVING THE
GOVERNMENT UNLIMITED PEREMPTORY
CHALLENGE[S].

253a
Appellant has assigned this error as a headnote
pleading without briefing; we resolve it against him
consistent with our superior court’s treatment of
substantially similar issues involving a convening
authority’s selection of panel members in United
States v. Curtis, 44 M.J. 106, 132 (C.A.A.F. 1996).

XXI. THE PRESIDENT EXCEEDED HIS
ARTICLE 36 POWERS TO ESTABLISH
PROCEDURES
FOR
COURTS-MARTIAL
WHEN HE GRANTED TRIAL COUNSEL A
PEREMPTORY CHALLENGE AND THEREBY
THE POWER TO NULLIFY THE CONVENING
AUTHORITY’S ARTICLE 25(D) AUTHORITY
TO DETAIL MEMBERS OF THE COURT.

XXII. THE PEREMPTORY CHALLENGE
PROCEDURE IN THE MILITARY JUSTICE
SYSTEM,
WHICH
ALLOWS
THE
GOVERNMENT TO REMOVE ANY ONE
MEMBER
WITHOUT
CAUSE,
IS
AN
UNCONSTITUTIONAL VIOLATION OF THE
FIFTH AND EIGHTH AMENDMENTS TO THE
UNITED
STATES
CONSTITUTION
IN
CAPITAL
CASES,
WHERE
THE
PROSECUTOR IS FREE TO REMOVE A

254a
MEMBER WHOSE MORAL BIAS AGAINST
THE DEATH PENALTY DOES NOT JUSTIFY A
CHALLENGE FOR CAUSE. BUT SEE UNITED
STATES V. CURTIS, 44 M.J. 106, 131-33
(C.A.A.F. 1996); UNITED STATES V. LOVING,
41 M.J. 213, 294-95 (C.A.A.F. 1994).
Appellant has assigned these two errors as
headnote pleadings without briefing; we resolve
them against him consistent with our superior
court’s treatment of substantially similar issues in
Curtis. Id. at 131-33.

XXIII. THE DESIGNATION OF THE SENIOR
MEMBER AS THE PRESIDING OFFICER FOR
DELIBERATIONS
DENIED
MASTER
SERGEANT HENNIS A FAIR TRIAL BEFORE
IMPARTIAL MEMBERS IN VIOLATION OF
THE
FIFTH,
SIXTH,
AND
EIGHTH
AMENDMENTS TO THE UNITED STATES
CONSTITUTION AND ARTICLE 55, UCMJ.
Appellant has assigned this error as a headnote
pleading without briefing; we resolve it against him
consistent with our superior court’s treatment of a
substantially similar issue in Gray. 51 M.J. at 57.

255a

XXIV. THE DENIAL OF THE RIGHT TO POLL
THE
MEMBERS
REGARDING
THEIR
VERDICT AT EACH STAGE IN THE TRIAL
DENIED MASTER SERGEANT HENNIS A
FAIR TRIAL BEFORE IMPARTIAL MEMBERS
IN VIOLATION OF THE FIFTH, SIXTH, AND
EIGHTH AMENDMENTS TO THE U.S.
CONSTITUTION AND ARTICLE 55, UCMJ.
SEE APP. EX. 50.
Appellant has assigned this error as a headnote
pleading without briefing; we resolve it against him
consistent with our superior court’s treatment of a
substantially similar issue in Gray. Id. at 60-61.

XXV.
THERE
IS
NO
MEANINGFUL
DISTINCTION BETWEEN PREMEDITATED
AND
UNPREMEDITATED
MURDER
ALLOWING DIFFERENTIAL TREATMENT
AND
SENTENCING
DISPARITY
IN
VIOLATION OF THE FIFTH, SIXTH, AND
EIGHTH AMENDMENTS TO THE UNITED
STATES CONSTITUTION AND ARTICLE 55,
UCMJ. SEE APP. EX. XXXIV (DEFENSE
MOTION TO DISMISS THE CAPITAL
REFERRAL DUE TO ARTICLE 118 OF THE

256a
UCMJ
BEING
VAGUE).

UNCONSTITUTIONALLY

Appellant has assigned this error as a headnote
pleading without briefing; we resolve it against him
consistent with our superior court’s treatment of a
substantially similar issue in Gray. Id. at 56.

XXVI. MASTER SERGEANT HENNIS WAS
DENIED HIS RIGHT UNDER THE FIFTH
AMENDMENT TO THE UNITED STATES
CONSTITUTION TO A GRAND JURY
PRESENTMENT OR INDICTMENT.

XXVII. COURT-MARTIAL PROCEDURES
DENIED MASTER SERGEANT HENNIS HIS
ARTICLE III RIGHT TO A JURY TRIAL.
SOLORIO V. UNITED STATES, 483 U.S. 435,
453-54, 107 S. Ct. 2924, 97 L. Ed. 2d 364 (1987)
(MARSHALL J., dissenting). BUT SEE UNITED
STATES V. CURTIS, 44 M.J. 106, 132 (C.A.A.F.
1996).
Appellant has assigned these two errors as
headnote pleadings without briefing; we resolve

257a
them against him consistent with our superior
court’s treatment of the issues in Gray. Id. at 48.

XXVIII. DUE PROCESS REQUIRES THAT
TRIAL AND INTERMEDIATE APPELLATE
JUDGES IN A MILITARY DEATH PENALTY
CASE HAVE THE PROTECTION OF A FIXED
TERM OF OFFICE, NOT SUBJECT TO
INFLUENCE AND CONTROL BY THE JUDGE
ADVOCATE GENERAL OF THE ARMY. BUT
SEE UNITED STATES V. LOVING, 41 M.J. 213,
295 (C.A.A.F. 1994).
Appellant has assigned this error as a headnote
pleading without briefing; we resolve it against him
consistent with our superior court’s treatment of a
substantially similar issue in Loving. 41 M.J at 295.

XXIX.
THE
ARMY
COURT
LACKED
JURISDICTION BECAUSE THE JUDGES ARE
PRINCIPAL
OFFICERS
WHOM
THE
PRESIDENT
DID
NOT
APPOINT
AS
REQUIRED
BY
THE
APPOINTMENTS
CLAUSE OF THE CONSTITUTION. SEE US
CONST., ART. II, § 2. BUT SEE UNITED
STATES V. GRINDSTAFF, 45 M.J. 634 (N.M. CT.

258a
CRIM. APP. 1997); BUT CF. EDMOND V.
UNITED STATES, 520 U.S. 651, 117 S. Ct. 1573,
137 L. Ed. 2d 917 (1997).
Appellant has assigned this error as a headnote
pleading without briefing; we resolve it against him
consistent with the Supreme Court’s treatment of
substantially similar issues in Edmond v. United
States, 520 U.S. 651, 117 S. Ct. 1573, 137 L. Ed. 2d
917 (1997) and Weiss v. United States, 510 U.S. 163,
167-76, 114 S. Ct. 752, 127 L. Ed. 2d 1 (1994).

XXX.
THIS
COURT
LACKS
THE
JURISDICTION
AND
AUTHORITY
TO
REVIEW THE CONSTITUTIONALITY OF THE
RULES FOR COURTS-MARTIAL AND THE
UCMJ BECAUSE THIS COURT IS AN
ARTICLE I COURT, NOT AN ARTICLE III
COURT WHICH HAS THE POWER OF
CHECKING
CONGRESS
AND
THE
EXECUTIVE BRANCHES UNDER MARBURY
V. MADISON, 5 U.S. (1 CRANCH) 137, 2 L. Ed.
60 (1803). SEE ALSO COOPER V. AARON, 358
U.S. 1, 78 S. Ct. 1401, 3 L. Ed. 2d 5, 79 Ohio Law
Abs. 452 (1958) (THE POWER TO STRIKE
DOWN UNCONSTITUTIONAL STATUTES OR
EXECUTIVE ORDERS IS THE EXCLUSIVE

259a
CHECK OF THE ARTICLE III JUDICIARY).
BUT SEE LOVING, [41 M.J. at] 213, 296
(C.A.A.F. 1994).

XXXI. MASTER SERGEANT HENNIS HAS
BEEN DENIED EQUAL PROTECTION OF THE
LAWS IN VIOLATION OF THE FIFTH
AMENDMENT IN THAT ALL CIVILIANS IN
THE UNITED STATES ARE AFFORDED THE
OPPORTUNITY TO HAVE THEIR CASES
REVIEWED BY AN ARTICLE III COURT, BUT
MEMBERS OF THE UNITED STATES
MILITARY BY VIRTUE OF THEIR STATUS AS
SERVICE MEMBERS ARE NOT. BUT SEE
UNITED STATES V. LOVING, 41 M.J. 213, 295
(C.A.A.F. 1994).
Appellant has assigned these two errors as
headnote pleadings without briefing; we resolve
them against him consistent with our superior
court’s treatment of substantially similar issues in
Gray. 51 M.J. at 55.

XXXII. MASTER SERGEANT HENNIS HAS
BEEN DENIED EQUAL PROTECTION OF THE
LAW UNDER THE FIFTH AMENDMENT TO

260a
THE UNITED STATES CONSTITUTION
BECAUSE IAW ARMY REGULATION 15-130,
PARA. 3-1(d)(6), HIS APPROVED DEATH
SENTENCE RENDERS HIM INELIGIBLE FOR
CLEMENCY BY THE ARMY CLEMENCY AND
PAROLE BOARD, WHILE ALL OTHER CASES
REVIEWED BY THIS COURT ARE ELIGIBLE
FOR SUCH CONSIDERATION. BUT SEE
UNITED STATES V. THOMAS, 43 M.J. 550, 607
(N.M. CT. CRIM. APP. 1995).

XXXIII. MASTER SERGEANT HENNIS’
DEATH SENTENCE VIOLATES THE EIGHTH
AMENDMENT’S PROHIBITION AGAINST
CRUEL AND UNUSUAL PUNISHMENT
BECAUSE
THE
CAPITAL
REFERRAL
SYSTEM OPERATES IN AN ARBITRARY AND
CAPRICIOUS MANNER. SEE APP. EX. XL
(DEFENSE MOTION TO SET ASIDE CAPITAL
REFERRAL FOR LACK OF STATUTORY
GUIDELINES).

XXXIV.
THE
DEATH
PENALTY
PROVISION OF ARTICLE 118, UCMJ, IS
UNCONSTITUTIONAL AS IT RELATES TO

261a
TRADITIONAL COMMON LAW CRIMES THAT
OCCUR IN THE UNITED STATES. BUT SEE
UNITED STATES V. LOVING, 41 M.J. 213, 293
(C.A.A.F. 1994). THE COURT RESOLVED THE
ISSUE
AGAINST
PRIVATE
LOVING,
ADOPTING THE REASONING OF THE
DECISION OF THE ARMY COURT OF
MILITARY REVIEW. SEE UNITED STATES V.
LOVING, 34 M.J. 956, 967 (A.C.M.R. 1992).
HOWEVER, PRIVATE LOVING’S ARGUMENT
BEFORE
THE
ARMY
COURT
WAS
PREDICATED ON THE TENTH AMENDMENT
TO THE UNITED STATES CONSTITUTION
AND THE NECESSARY AND PROPER
CLAUSE. ID. MASTER SERGEANT HENNIS’
ARGUMENT IS PREDICATED ON THE
EIGHTH AMENDMENT TO THE UNITED
STATES CONSTITUTION.

XXXV. THE DEATH SENTENCE IN THIS
CASE VIOLATES THE FIFTH AND EIGHTH
AMENDMENTS TO THE UNITED STATES
CONSTITUTION AND ARTICLE 55, UCMJ,
BECAUSE THE CONVENING AUTHORITY
HAS NOT DEMONSTRATED HOW THE
DEATH PENALTY WOULD ENHANCE GOOD

262a
ORDER AND DISCIPLINE IN THE ARMY.

XXXVI. THE CAPITAL SENTENCING
PROCEDURE
IN
THE
MILITARY
IS
UNCONSTITUTIONAL
BECAUSE
THE
MILITARY JUDGE DOES NOT HAVE THE
POWER TO ADJUST OR SUSPEND A
SENTENCE
OF
DEATH
THAT
IS
IMPROPERLY IMPOSED.

XXXVII. DUE TO INHERENT FLAWS IN
THE MILITARY JUSTICE SYSTEM, THE
DEATH
PENALTY
VIOLATES
THE
PROHIBITION
AGAINST
CRUEL
AND
UNUSUAL PUNISHMENT UNDER ALL
CIRCUMSTANCES.

XXXVIII. THE DEATH PENALTY CANNOT
CONSTITUTIONALLY BE IMPLEMENTED
UNDER CURRENT EIGHTH AMENDMENT
JURISPRUDENCE.
SEE
CALLINS
V.
COLLINS, 510 U.S. 1141, 1144-1159, 114 S. Ct.
1127, 127 L. Ed. 2d 435 (1994) (BLACKMUN, J.,
dissenting) (cert. denied).

263a

XXXIX. RULE FOR COURTS-MARTIAL
1209 AND THE MILITARY DEATH PENALTY
SYSTEM DENIES DUE PROCESS AND
CONSTITUTES CRUEL AND UNUSUAL
PUNISHMENT AND IS TANTAMOUNT TO
FORESEEABLE,
STATE-SPONSORED
EXECUTION OF INNOCENT HUMAN BEINGS
BECAUSE THERE IS NO EXCEPTION FOR
ACTUAL INNOCENCE TO THE FINALITY OF
COURTS-MARTIAL
REVIEW.
CF.
TRIESTMAN V. UNITED STATES, 124 F.3D
361, 378-79 (2D CIR. 1997).
Appellant has assigned these eight errors as
headnote pleadings without briefing; they merit
neither discussion nor relief.

XL. THE MILITARY JUDGE ERRED IN
ADMITTING THE GOVERNMENT’S CRIME
SCENE
PHOTOGRAPHS
AND
VICTIM
FAMILY PHOTOS AS THEY WERE UNDULY
PREJUDICIAL TO MASTER SERGEANT
HENNIS’ DUE PROCESS RIGHTS UNDER
THE FIFTH AND EIGHTH AMENDMENTS.
SEE, E.G., APP. EX. 53, PROS. EXS. 149-151.

264a
Appellant has assigned this error as a headnote
pleading without briefing; we resolve it against him
consistent with our superior court’s treatment of a
substantially similar issue in Akbar. 74 M.J. at 407
(“[I]t cannot be seriously argued that [the] . . .
photographs were admitted only to inflame or shock
this court-martial.”) (quoting Gray, 51 M.J. at 35).

XLI. THE DEATH SENTENCE IN THIS CASE
VIOLATES THE EX POST FACTO CLAUSE,
THE FIFTH AND EIGHTH AMENDMENTS,
THE SEPARATION OF POWERS DOCTRINE,
THE
PREEMPTION
DOCTRINE,
AND
ARTICLE 55, UCMJ, BECAUSE WHEN IT WAS
ADJUDGED NEITHER CONGRESS NOR THE
ARMY HAD SPECIFIED A MEANS OR PLACE
OF EXECUTION.

XLII.
THE
ARTICLE
38,
UCMJ,
REQUIREMENT THAT CIVILIAN COUNSEL
SERVE AS LEAD COUNSEL VIOLATED
MASTER SERGEANT HENNIS’ FIFTH AND
SIXTH AMENDMENT RIGHTS TO COUNSEL.

265a
XLIII.
THE
DYSFUNCTIONAL
ADMINISTRATION OF THE MILITARY’S
DEATH PENALTY SYSTEM RESULTS IN AN
INORDINATE
AND
UNPREDICTABLE
PERIOD OF DELAY PRECEDING THE
ACTUAL EXECUTION OF THE RANDOM FEW
FOR WHOM MAY BE EXECUTED. THIS
VIOLATES THE EIGHTH AMENDMENT’S
PROHIBITION
AGAINST
CRUEL
AND
UNUSUAL PUNISHMENT. SEE JONES V.
CHAPPELL, 31 F. Supp. 3d 1050, 2014 U.S.
DIST. LEXIS 97254, 1 (C.D. CAL. 2014).
Appellant has assigned these three errors as
headnote pleadings without briefing; they merit
neither discussion nor relief.

PROPORTIONALITY REVIEW
We are required to assess the proportionality of
appellant’s death sentence. Akbar, 74 M.J. at 408;
Gray, 51 M.J. at 62; United States v. Curtis, 33 M.J.
101, 109 (C.M.A. 1991). Under Article 66(c), UCMJ,
we conclude the approved sentence is correct in law
and fact. Further, under the circumstances of this
case, including appellant’s rape of one of the murder
victims, the vulnerability inherent in the young ages

266a
of the other two murder victims, and appellant’s
mutilation of all three murder victims, we conclude
the adjudged and approved death sentence fits the
crimes of which he was found guilty. We further find
“the sentence is generally proportional to those
imposed by other jurisdictions in similar situations.”
Curtis, 33 M.J. at 109. See Ladd v. State, 3 S.W.3d
547 (Tex. Crim. App. 1999.); Stevens v. State, 806 So.
2d 1031, 1064 (Miss. 2001); Commonwealth v.
Eichinger, 108 A.3d 821, 849 (Pa. 2014) (“multiple
murders and murder of child weigh heavy in
aggravation.”) (citing Commonwealth v. Koehler, 614
Pa. 159, 36 A.3d 121, 151-52 (Pa. 2009)).

CONCLUSION
The findings and sentence are correct in law and
fact and are AFFIRMED.
Senior Judge TOZZI, Judge HERRING, and
Judge BURTON concur.

FOR THE COURT:

/s/

267a

MALCOLM H. SQUIRES, JR.
Clerk of Court

